<html>
<title> - UNEMPLOYMENT FRAUD AND ABUSE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                      UNEMPLOYMENT FRAUD AND ABUSE
=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2002

                               __________

                           Serial No. 107-82

                               __________

         Printed for the use of the Committee on Ways and Means









                           U.S. GOVERNMENT PRINTING OFFICE
82-682                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, Jr., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               WILLIAM J. COYNE, Pennsylvania
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM McDERMOTT, Washington
JIM RAMSTAD, Minnesota               GERALD D. KLECZKA, Wisconsin
JIM NUSSLE, Iowa                     JOHN LEWIS, Georgia
SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
JENNIFER DUNN, Washington            MICHAEL R. McNULTY, New York
MAC COLLINS, Georgia                 WILLIAM J. JEFFERSON, Louisiana
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
PHIL ENGLISH, Pennsylvania           XAVIER BECERRA, California
WES WATKINS, Oklahoma                KAREN L. THURMAN, Florida
J.D. HAYWORTH, Arizona               LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

                     Allison Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
SCOTT McINNIS, Colorado              SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  LLOYD DOGGETT, Texas
PHIL ENGLISH, Pennsylvania
RON LEWIS, Kentucky


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






                            C O N T E N T S

                               __________
                                                                   Page
Advisories announcing the hearing................................  2, 3

                               WITNESSES

U.S. Department of Labor, Hon. D. Cameron Findlay, Deputy 
  Secretary, accompanied by Emily Stover DeRocco, Assistant 
  Secretary, Employment and Training Administration..............     7
U.S. General Accounting Office, Sigurd R. Nilsen, Ph.D., 
  Director, Education, Workforce, and Income Security Issues.....    27
U.S. Department of Labor, Hon. Gordon S. Heddell, Inspector 
  General, Office of Inspector General...........................    40

                                 ______

Illinois Department of Employment Security, Miles Paris..........    52
On Point Technology, Inc., Michael Lorsbach......................    54
Woodbury, Stephen A., W.E. Upjohn Institute for Employment 
  Research, and Michigan State University........................    46

                       SUBMISSION FOR THE RECORD

Revenue Plus, Vancouver, WA, Tim Rogers..........................    72


                      UNEMPLOYMENT FRAUD AND ABUSE

                              ----------                              


                         TUESDAY, JUNE 11, 2002

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:02 p.m., in 
room B-318 Rayburn House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory and revised advisory announcing the hearing 
follow:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
June 4, 2002
No. HR-15

        Herger Announces Hearing on Unemployment Fraud and Abuse

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing on efforts to reduce fraud and abuse 
of the Nation's Unemployment Compensation (UC) system. The hearing will 
take place on Tuesday, June 11, 2002, in room B-318 Rayburn House 
Office Building, beginning at 2:00 p.m.

    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include representatives of the U.S. Department of Labor, 
U.S. General Accounting Office, U.S. Department of Labor Office of the 
Inspector General, and other UC fraud and abuse experts. However, any 
individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.

BACKGROUND:

    The UC program provides benefits to unemployed workers who have a 
history of employment. Within a broad Federal framework, each State 
designs its own benefits program and imposes taxes on employers to pay 
for regular UC benefits. A separate Federal tax is imposed on employers 
to fund the Federal responsibilities under the system, including 
support of administrative expenses, loans to States, and the Federal 
half of extended benefits for certain workers. In fiscal year 2002, the 
U.S. Department of Labor projects that 11.8 million laid-off workers 
will receive UC benefits for an average of 15.5 weeks. With an average 
weekly benefit amount of $244, more than $44 billion in benefits will 
be paid.

    Despite the size and expense of the UC program, in recent years 
program integrity activities have received relatively little Federal 
attention. Several factors--including State funding of regular 
benefits, perceived Federal underfunding of anti-fraud and related 
administrative activities, and a strong economy--are often cited as 
reasons. Congress recently addressed one concern through the passage of 
legislation providing additional Federal funds to States, which may be 
used for additional program integrity activities, among other purposes. 
As signed into law on March 22, 2002, this legislation (P.L. 107-147) 
provided for the immediate distribution of $8 billion in surplus 
Federal UC funds to States, among other provisions.

    In announcing the hearing, Chairman Herger stated: ``During the 
recent economic slowdown, the Nation's Unemployment Compensation 
program has been an important safety net for millions of hard-working 
Americans who lost their jobs. Congress recently strengthened that 
safety net by providing up to an additional 13 weeks of unemployment 
benefits nationwide. While we provide benefits to millions of 
unemployed American workers and their families, we also have oversight 
responsibilities to ensure benefits are going to the right people. 
That's part of the reason we also provided States an additional $8 
billion in Federal funds to support anti-fraud efforts, among other 
purposes. This hearing will review current anti-fraud efforts and 
additional measures to better ensure program integrity.''

FOCUS OF THE HEARING:

    The hearing will focus on waste, fraud, and abuse involving UC 
benefits and consider additional measures to better ensure program 
integrity.

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

    Please Note: Due to the change in House mail policy, any person or 
organization wishing to submit a written statement for the printed 
record of the hearing should send it electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="375f5256455e5950545b52455c441940564e445659535a52565944775a565e5b195f5842445219505841">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, by the close of business, Tuesday, June 25, 2002. Those 
filing written statements who wish to have their statements distributed 
to the press and interested public at the hearing should deliver their 
200 copies to the Subcommittee on Human Resources in room B-317 Rayburn 
House Office Building, in an open and searchable package 48 hours 
before the hearing. The U.S. Capitol Police will refuse sealed-packaged 
deliveries to all House Office Buildings.

FORMATTING REQUIREMENTS:

    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.

    1. Due to the change in House mail policy, all statements and any 
accompanying exhibits for printing must be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90f8f5f1e2f9fef7f3fcf5e2fbe3bee7f1e9e3f1fef4fdf5f1fee3d0fdf1f9fcbef8ffe5e3f5bef7ffe6">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, in Word Perfect or MS Word format and MUST NOT exceed a 
total of 10 pages including attachments. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.

    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.

    3. Any statements must include a list of all clients, persons, or 
organizations on whose behalf the witness appears. A supplemental sheet 
must accompany each statement listing the name, company, address, 
telephone and fax numbers of each witness.

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov/.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call (202) 225-1721 or (202) 226-3411 TTD/TTY in advance of the event 
(four business days notice is requested). Questions with regard to 
special accommodation needs in general (including availability of 
Committee materials in alternative formats) may be directed to the 
Committee as noted above.

                               <F-dash>

                   * * * NOTICE--CHANGE IN TIME * * *

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
June 6, 2002
No. HR-15-Revised

Change in Time for Subcommittee Hearing on Unemployment Fraud and Abuse

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources, Committee on Ways and Means, today announced that the 
Subcommittee hearing on efforts to reduce fraud and abuse of the 
Nation's Unemployment Compensation system scheduled for Tuesday, June 
11, 2002, at 2:00 p.m., in room B-318 Rayburn House Office Building, 
will be held instead at 4:00 p.m.

    All other details for the hearing remain the same. (See 
Subcommittee Advisory No. HR-15, dated June 4, 2002.)

                               <F-dash>

    Chairman HERGER. Good afternoon and welcome to today's 
hearing on fraud and abuse in the Nation's unemployment 
compensation (UC) program.
    As we all know, unemployment benefits provide a much-needed 
safety net to millions of hardworking Americans, especially in 
tough economic times like we have seen in the past year. This 
year alone, nearly 12 million laid-off workers will receive an 
estimated $44 billion in unemployment benefits. That is twice 
what we spend on cash welfare every year, and with far less 
fanfare.
    Recently, we expanded the unemployment safety net by 
providing up to 13 additional weeks of unemployment benefits 
nationwide. In a number of States with particularly high 
unemployment, we made benefits available even longer to help 
families that were hardest hit. Already, an estimated 1.4 
million workers are receiving these extended benefits.
    Providing this extra help in tough times is part of our 
job, and Congress and the Administration have certainly 
answered the call this year. We also have a responsibility to 
make sure these funds are well spent and are going to intended 
recipients who earn their displaced worker benefits. 
Unfortunately, that does not always happen.
    For example, the U.S. General Accounting Office (GAO), 
citing U.S. Department of Labor (DOL) statistics, will describe 
how last year, $2.4 billion in unemployment benefit 
overpayments occurred. Over the past 10 years, overpayments 
averaged $1.8 billion per year, or a whopping $18 billion in 
misspent funds over that period. These staggering numbers 
reflect just the overpayments we know about. We can be sure 
more are out there waiting to be uncovered through better 
oversight.
    Specific examples of abuse already uncovered are troubling. 
For example, GAO notes that in just four States, almost 3,000 
fraudulent unemployment benefit claims totaling about $3.2 
million were paid to individuals using Social Security numbers 
that did not exist or belonged to deceased individuals.
    Further investigation by GAO identified nine Social 
Security numbers being used by approximately 700 individuals as 
proof of eligibility for employment. Seven of the Social 
Security numbers belonged to deceased individuals, and 
apparently the individuals involved are illegal aliens.
    Misused unemployment program funds represent taxes paid by 
employers and constitute lost wages for all employees. Everyone 
loses when unemployment benefits are the subject of fraud and 
abuse.
    In the law extending unemployment benefits this year, we 
also provided States with tremendous new resources, a total of 
$8 billion. These surplus Federal unemployment funds can pay 
for new benefits or be used to improve anti-fraud and other 
program integrity efforts. While many States are still deciding 
how to use these new resources, we will highlight that 
strengthening program integrity is one smart use that benefits 
taxpayers, workers, and beneficiaries alike.
    We thank all of our witnesses for joining us today to 
review current anti-fraud efforts and how we can improve the 
system so that it best serves American workers.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point. Mr. Cardin, would you like to make an opening 
statement?
    [The opening statement of Chairman Herger follows:]
    Opening Statement of the Hon. Wally Herger, a Representative in 
           Congress from the Sate of California, and Chairman
    Good afternoon and welcome to today's hearing on fraud and abuse in 
the nation's unemployment compensation program.
    As we all know, unemployment benefits provide a much needed safety 
net to millions of hardworking Americans, especially in tough economic 
times like we've seen in the past year. This year alone, nearly 12 
million laid off workers will receive an estimated $44 billion in 
unemployment benefits. That's twice what we spend on cash welfare every 
year, and with far less fanfare.
    Recently, we expanded the unemployment benefits safety net by 
providing up to 13 additional weeks of unemployment benefits 
nationwide. In a number of States with particularly high unemployment, 
we made benefits available even longer to help families that were 
hardest hit. Already an estimated 1.4 million workers are receiving 
these extended benefits.
    Providing this extra help in tough times is part of our job, and 
Congress and the Administration have certainly answered the call this 
year. But we also have a responsibility to make sure these funds are 
well spent, and are going to intended recipients who worked to earn 
their displaced worker benefits.
    Unfortunately, that doesn't always happen.
    The General Accounting Office, citing Department of Labor 
statistics, will describe how last year $2.4 billion in unemployment 
benefit overpayments occurred. Over the past ten years, overpayments 
averaged $1.8 billion per year or a whopping $18 billion in misspent 
funds over that period. And these staggering numbers reflect just the 
overpayments we know about. We can be sure more are out there waiting 
to be uncovered through better oversight.
    Specific examples of abuses already uncovered are troubling. For 
example, GAO notes in their testimony that in just 4 States, almost 
3,000 fraudulent unemployment benefit claims totaling about $3.2 
million were paid to individuals using Social Security numbers that did 
not exist or belonged to deceased individuals.
    Further investigation by GAO identified nine Social Security 
numbers being used by approximately 700 individuals as proof of 
eligibility for employment. Seven of the Social Security numbers 
belonged to deceased individuals and apparently the individuals 
involved are illegal aliens.
    Misused unemployment program funds represent taxes paid by 
employers, and constitute lost wages for all employees. Everyone loses 
when unemployment benefits are the subject of fraud and abuse.
    In the law extending unemployment benefits this year, we also 
provided States with tremendous new resources--a total of $8 billion. 
These surplus Federal unemployment funds can pay for new benefits or be 
used to improve anti-fraud and other program integrity efforts. While 
many States are still deciding how to use these new resources, we will 
highlight that strengthening program integrity is one smart use that 
benefits taxpayers, workers, and beneficiaries alike.
    We thank all of our witnesses for joining us today to review 
current anti-fraud efforts and how we can improve the system so that it 
best serves American workers.

                               <F-dash>

    Mr. CARDIN. Thank you, Mr. Chairman. Let me join you in 
looking forward to our witnesses today. Obviously, any time 
that Unemployment Insurance (UI) funds are used for purposes 
that are not permitted under the law, we want to join you in 
any type of corrections for fraud and abuse.
    Mr. Chairman, let me tell you that there are many ways that 
we think we should be looking at and focusing our attention on, 
whether the Unemployment Insurance funds that are collected or 
should be collected are used for their rightful purposes. 
Clearly, fraud and abuse among beneficiaries is wrong. We need 
to make sure that our States have the adequate tools in order 
to deal with that.
    Let me just also point out that an individual who is 
entitled to Unemployment Insurance benefits who is denied 
benefits, that is also an area that we need to take a look at.
    You mentioned that we have a report from, I believe you 
said GAO, that indicates that those that are using wrongful 
Social Security numbers amount to about $3.2 million annually. 
Well, we know in 1998, there were $600 million of benefits that 
should have been paid that were not paid under the Unemployment 
Insurance law because claimants did not have the adequate 
information presented mainly through their employers in order 
to get these benefits.
    So, I think we need to take a look at not just the fraud 
and abuse on the beneficiary side, but also the mistakes that 
are being made on the employers' side to make sure that the 
right benefits are being paid under law.
    Let me also indicate that fraud and abuse can take place on 
the revenue side. Employers are supposed to submit the 
revenues, the Unemployment Insurance funds, for their workers. 
We know that there is misclassification of certain employees as 
independent contractors. I think that is another area that we 
need to take a look, to make sure that we are collecting the 
appropriate revenues under the Unemployment Insurance funds.
    Lastly, let me point out that I think any hearing today, at 
this time, taking place on Unemployment Insurance benefits has 
to take a look at the long-term unemployed Americans. We have 
many people who are reaching the end of their extended benefits 
that we recently passed. We need to take a look to make sure 
that those people who are unemployed, who are unable to find 
unemployment because of the state of our economy, are protected 
under the safety net that you mentioned in your opening 
statement. I would hope that at this hearing we will also have 
an opportunity to take a look to see whether that is working 
the way Congress intended.
    Thank you very much, Mr. Chairman.
    [The opening statement of Mr. Cardin follows:]
 Opening Statement of the Hon. Benjamin L. Cardin, a Representative in 
                  Congress from the State of Maryland
    Mr. Chairman, I look forward to hearing our witnesses' suggestions 
on reducing fraud and improving the administration of the unemployment 
insurance system. If people are receiving benefits that they are not 
entitled to, then we should take all necessary steps to address any 
potential fraud.
    However, in evaluating program integrity, we must remember that 
benefits are sometimes denied inappropriately, just as they are 
sometimes paid inappropriately. For example, a recent study found that 
roughly $600 million in unemployment insurance benefits were wrongfully 
denied in fiscal year 1998.

    Sometimes employers provided inaccurate information regarding an 
applicant's wages and other times the local unemployment agency made 
errors in assessing an individual's eligibility. The report, which we 
will hear about later today, suggests that very few of the wrongfully 
denied claims resulted from errors made by applicants.
    This committee needs to know how the Department of Labor is 
responding to that analysis so we can ensure that jobless Americans are 
receiving the benefits to which they are entitled.
    We also need to recognize that fraud can occur on the revenue side 
of the unemployment system as well as on the payment side. If UI taxes 
are not paid when due, the system will become under-funded. One area of 
particular concern pointed out by a recent report commissioned by the 
Department of Labor is the misclassification of certain employees as 
independent contractors, for whom employers do not pay unemployment 
taxes. Mr. Chairman, let me conclude by mentioning the fact that the 
13-week extension of unemployment benefits that we passed in March just 
expired for those jobless workers who first filed for the extension. 
The Federal legislation included a potential 2nd round of extended 
unemployment benefits, but very few States will qualify for that second 
13 weeks.
    I hope any discussion of additional UI reforms will consider the 
fate of those long-term unemployed Americans who are still looking for 
work, especially since the number of workers who have been unemployed 
for six months or longer has tripled over the last year. I also 
strongly believe that we should address barriers to low-wage and part-
time workers receiving unemployment benefits.
    Thank you.

                               <F-dash>

    Chairman HERGER. Thank you, Mr. Cardin.
    Before we move to our testimony, I want to remind our 
witnesses to limit their oral statements to 5 minutes. However, 
without objection, all of the written testimony will be made a 
part of the permanent record.
    For our first witness today, we are honored to have the 
Honorable D. Cameron Findlay, Deputy Secretary of the U.S. 
Department of Labor, accompanied by the Honorable Emily Stover 
DeRocco, Assistant Secretary, Employment and Training 
Administration (ETA) for the U.S. Department of Labor. Thank 
you so much. With that, if you would testify, please.

 STATEMENT OF HON. D. CAMERON FINDLAY, DEPUTY SECRETARY, U.S. 
DEPARTMENT OF LABOR, ACCOMPANIED BY HON. EMILY STOVER DEROCCO, 
  ASSISTANT SECRETARY, EMPLOYMENT AND TRAINING ADMINISTRATION

    Mr. FINDLAY. Thank you, Mr. Chairman and Ranking Member 
Cardin. I am very happy to appear before you today to discuss 
the ways in which we are trying to reduce overpayments and 
fraud in the Unemployment Insurance system.
    I ask that my written testimony be included in the record, 
but I will just summarize for you all a few of the key points.
    Obviously, as you said, the Unemployment Insurance system 
is the key to the economic security of our Nation. To carry out 
the vital mission of this program, it is essential that 
benefits are paid properly to eligible workers and that systems 
are in place to minimize overpayments, fraud, and abuse. As you 
probably know, improving financial management is a major 
initiative within the President's management agenda. I heard 
the same numbers that the Chairman quoted a few minutes ago, 
and they sounded very high to me, as well. So, a few months 
ago, I convened a task force within the U.S. Department of 
Labor to begin getting at the problem of overpayments. I would 
like to share with you today some of the solutions we are 
pursuing.
    At the outset, it is important to define the problem we are 
talking about and to recognize that there are different 
categories of overpayments. According to data from our 
Employment and Training Administration for 2001, 8.2 percent of 
all unemployment benefits, for a total of $2.45 billion, are 
classified as overpayments. This total can really be broken 
down into four categories.
    First, approximately $385 million can be attributed to what 
we call technical eligibility issues, for instance, payments 
made to individuals who did not adequately document their job 
search, but were actually searching for jobs and otherwise meet 
the eligibility requirements.
    Second, $120 million of the total can be attributed to 
overpayments made in the absence of fraud, but which the State 
agency affirmatively chooses not to recover. For example, if an 
employer inadvertently overstates the income of an employee and 
the claimant is not at fault, many States elect not to recover 
this sort of overpayment.
    Third, $1.37 billion of the total can be classified as non-
fraud overpayments that are potentially recoverable.
    Finally, $580 million can be attributed to fraud or abuse 
within the system.
    While integrity of the program has been a longstanding 
priority of the DOL, as this Committee knows, much of the work 
to ensure integrity must be done by the States, which have 
primary responsibility for administering the UI program. States 
already carry out benefit payment control activities to 
identify and collect UI overpayments, such as cross-matching 
information within various computer databases. In 2001, States 
were able to use these sorts of cross-matches to establish for 
recovery some $227 million. While this is a significant figure, 
it is not large enough, and the DOL is working with States to 
enhance their computer cross-matching capabilities to increase 
even further the identification and collection of overpayments.
    Cross-matching UI benefit records with existing State new 
hire directories provides a much quicker determination that 
claimants have gone back to work, thus preventing claimants who 
do find work from continuing to claim benefits. The 1996 
welfare reform legislation required employers to report all new 
employees within 20 days of the date of hire. The new hire 
directories thus provide more real-time hiring data, and the 
DOL is actively encouraging States to use these directories. 
However, currently, only one-half of the States are doing so.
    The DOL is also seeking legislation to provide access for 
State UI agencies to the National Directory of New Hires, which 
will permit States to find claimants who work in other States 
or who work for employers that report their hires in other 
States. We would like to thank the Committee for including such 
legislation in the Temporary Assistance for Needy Families 
(TANF) reauthorization bill that recently passed the full 
House.
    Another promising cross-matching opportunity involves 
Social Security data. The DOL is working to implement a data 
exchange system that will allow States to verify Social 
Security numbers during the initial claims process, which will, 
in turn, lead to a reduction of fraudulent claims filed with 
false identification.
    Given the promise that all these sorts of data-matching 
holds, the Administration has requested $10 million in the 
fiscal year 2003 budget to help States gain access to all data 
that can improve the detection and recovery of UI overpayments. 
I might say that is about a 28-percent increase over the past 
few years in terms of the amount of money we are devoting to 
integrity.
    The DOL is also sponsoring in 2003, a National Integrity 
Conference with the National Association of State Workforce 
Agencies, to exchange best practices and help States do their 
job.
    In addition to this $10 million request, enactment of the 
Temporary Emergency Unemployment Compensation Act provided $8 
billion in Reed Act funds to the States. This legislation 
provided States with substantial funds they can use for their 
integrity efforts, and we have certainly suggested to States 
they ought to use the Reed Act funds in that way.
    Finally, we have proposed a major reform of the UI program 
in the President's budget that would enhance the incentive for 
States to devote the proper attention to overpayments. If 
States understand how their administrative expenditures pay off 
in collecting overpayments, they may increase such 
expenditures. Currently, their administrative moneys are 
essentially constrained by Federal contributions.
    Mr. Chairman and Members of the Subcommittee, I hope we 
have provided you with a good picture of the scope of the 
problem and of our efforts to combat it. I would be pleased to 
answer any questions you might have.
    [The prepared statement of Mr. Findlay follows:]
      Statement of the Hon. D. Cameron Findlay, Deputy Secretary, 
                        U.S. Department of Labor
    Mr. Chairman and distinguished Members of the Subcommittee, I 
appreciate the opportunity to appear before you today to discuss 
federal and state efforts to reduce overpayments, fraud, and abuse in 
our nation's Unemployment Insurance (UI) benefit payment program.
    The UI program is key to the economic security of our nation. As 
the primary source of temporary, partial wage replacement for workers 
laid off and seeking jobs, UI is an important stabilizer during 
economic downturns. About 3.4 million workers currently are claiming 
regular UI benefits--a 30% increase over this time in 2001 and a 90% 
increase over this time in 2000. An additional 1.4 million workers 
currently are claiming temporary extended unemployment compensation 
pursuant to the 13-week UI program extension enacted by Congress on 
March 8, 2002.
    To maintain the vital mission of the UI program, it is essential 
that benefits are paid promptly to eligible workers and that integrity 
systems are in place to minimize overpayments, fraud, and abuse. As you 
probably know, improving financial management is a major initiative 
within the President's Management Agenda (PMA), the President's plan to 
improve government performance and efficiency. Under the PMA, the 
Office of Management and Budget has identified UI overpayments as one 
of the Department of Labor's primary financial management challenges. 
As a member of the President's Management Council, I am charged with 
implementing the PMA at the Department of Labor, and I personally take 
this UI issue very seriously. I have convened a task force comprised 
of, among other individuals, officials from the Employment and Training 
Administration, or ETA, our agency that administers the UI program, and 
our Office of Chief Financial Officer, to develop a plan to address 
this issue. I am pleased to share with you today some of the solutions 
that we currently are pursuing.

              Overpayments, Fraud, and Abuse: An Overview

    At the outset, it is important to define the scope of this problem 
and to recognize that there are different categories of UI 
overpayments, each of which calls for a different response. According 
to ETA's Benefit Accuracy Measurement (BAM) data for calendar year 
2001, 8.2% of all unemployment benefits, or a total of $2.45 billion, 
are classified as overpayments. Of this $2.45 billion, approximately 
$385 million can be attributed to technical eligibility issues, 
primarily meeting a State's work search requirements. In other words, 
many UI payments, while technically ``overpayments'' under current 
state eligibility definitions within the UI program, are made to 
individuals who failed to meet certain technical eligibility 
requirements but otherwise meet the primary UI eligibility requirements 
of being unemployed through no fault of their own and wanting to work. 
For instance, a payment made to a claimant who failed to maintain 
sufficient documentation concerning his ongoing work search 
requirements would be considered an ``overpayment'' under the BAM 
program. States, however, would not necessarily seek recovery of such 
an overpayment.
    An additional $120 million of the $2.45 billion in total UI 
overpayments for 2001 can be attributed to overpayments made in the 
absence of fraud or abuse which the State agency chooses not to 
recover. For example, an employer may inadvertently overstate quarterly 
wages, resulting in an impermissibly large UI payment made to a 
claimant. Because there is no fault on the part of the individual 
claimant in such an instance, many states would not attempt to recover 
such an overpayment. $1.37 billion of the $2.45 billion in total 
overpayments are classified as nonfraud overpayments that are 
recoverable. These include cases such as where an initial finding of 
eligibility is reversed following an employer's appeal, and where a 
claimant has erroneously reported earnings.
    Finally, $580 million of the $2.45 billion in total UI overpayments 
for 2001, or 1.9% of total UI payments for that year, was attributable 
to fraud or abuse within the UI program. By any standard, these figures 
add up to a lot of money. That is why the Department of Labor has been 
hard at work on the problem.
New Initiatives To Address the UI Overpayment Problem
    Integrity of the UI program is a priority for the Department of 
Labor and the Administration. However, much of the work to ensure that 
integrity must be done by the states, which, as you know, actually 
administer the UI program. States already carry out various Benefit 
Payment Control activities to identify and collect UI overpayments, 
such as cross-matching information within various computer databases. 
In 2001, states used various computer cross-matches to establish for 
recovery as UI overpayments some $227 million--or about 32% of the 
total established for recovery that year. While this is a significant 
figure, the Department is encouraging states to enhance their computer 
cross-matching capabilities to increase even further the identification 
and collection of UI overpayments.
    Let me give you some examples of how cross-matching improves the 
detection and collection of UI overpayments. The largest single cause 
of UI overpayments involves individuals who are collecting UI benefits 
while working. Indeed, approximately 31% of the overall BAM estimate of 
overpayments in 2001 was due to such individuals. Because UI wage 
records are reported quarterly, there is a significant lag period 
before these types of overpayments can be identified via the 
traditional wage/benefits cross-match. UI overpayments are often the 
result.
    Cross-matching UI benefit records with new-hire directories offers 
a promising opportunity to reduce this lag period, thus preventing 
claimants who find work from continuing to claim UI benefits. The 
Personal Responsibility and Work Opportunity Reconciliation Act of 1996 
(PRWORA) required the development of such new-hire directories for the 
purpose of locating parents delinquent in child support payments. Under 
this statute, employers are required to report all new employees within 
as few as 20 days of the date of hire. In addition, PRWORA permits 
states to access their new-hire directories for UI purposes. Because of 
its usefulness in UI overpayment prevention and detection, the 
Department is actively promoting the use of new-hire directories by all 
states. However, currently, only about half of the states are utilizing 
these directories. I pledge to this Subcommittee that the Department 
will redouble its efforts in the future so that more states will take 
advantage of this important tool.
    As you know, some claimants find work out-of-state or work for 
multi-state employers that report employment and wages to a different 
state. The Department is working to prevent abuses of such systems, 
which could include allowing state UI agencies access to information in 
the National Directory of New Hires. Any action would be done in a way 
that protects personal information. We commend the Committee for 
including such access in the Temporary Assistance for Needy Families 
reauthorization bill (HR 4737).
    Another promising cross-matching opportunity involves Social 
Security data. States recently have implemented systems to take UI 
claims over the telephone and Internet. While these innovations have 
enabled states to handle significant increases in claims volume, states 
now need new tools to verify the identities of claimants filing 
electronically. The Department is working to implement a data exchange 
system that will give states access to Social Security Administration 
data during the initial claims process. This system will lead to a 
reduction of fraudulent claims filed with false identification. The 
Social Security Administration will also benefit by having access to 
benefit information that will help reduce overpayments within the 
Supplemental Security Income program.
    Given the promise that data cross-matching holds, the 
Administration has requested $10 million in the FY 2003 budget to help 
states gain access to all data that can improve the detection and 
recovery of UI overpayments. Also, recognizing the need to emphasize 
the problem and promote best practices, the Department in 2003 will 
sponsor a national integrity conference with the National Association 
of State Workforce Agencies to identify and disseminate successful 
practices, studies, and integrity information.
    The Department will develop a new operational definition of UI 
overpayments and set a new Government Performance and Results Act 
(GPRA) goal for addressing overpayments. We are working to develop a 
definition of overpayments that is comparable among states and covers 
most recoverable overpayments. This new definition will more accurately 
describe UI overpayments by recognizing those errors that are technical 
in nature (e.g., based on insufficient documentation of work search) 
and excluding those overpayments that are non-detectable on a cost-
effective basis. This is not an attempt to redefine the problem out of 
existence, but rather to recognize that, as I explained earlier, a 
significant portion of UI payments technically considered 
``overpayments'' under current program definitions is being paid to 
claimants who meet the primary UI eligibility requirements.
    Finally, we have proposed a major reform of the UI program in the 
President's budget that shifts responsibility for funding the 
administration of the program from the federal government to the 
states. Since UI is paid based on state law, states are in a better 
position to determine costs of running the program to reduce 
overpayments, fraud, and abuse. Also, insufficient funding for state 
administration in the past has caused states to reduce their integrity 
activities, because they are unable to reduce their core activities of 
paying benefits and collecting taxes and wage records. States will have 
a strong incentive to address overpayments, fraud, and abuse under this 
new system, as state funds spent on reducing abuse may result in 
savings in state funds used for benefit payments.

                     Funding for These Initiatives

    In addition to the $10 million request noted previously, enactment 
of the Temporary Emergency Unemployment Compensation Act--and the 
resulting $8 billion ``Reed Act'' distribution of federal unemployment 
funds to states--has provided states with substantial funds that may be 
used to make UI program improvements, including implementing 
initiatives that address UI overpayment, fraud, and abuse. The 
Department of Labor has suggested that states consider using these Reed 
Act funds for, among other purposes, improving UI claims filing and 
payment methods and reducing UI overpayment, fraud, and abuse.
    The initiatives described above can be developed and implemented 
with these Reed Act funds. Using these funds for these initiatives 
requires an appropriation by each state legislature. Some states 
already have appropriated Reed Act funds to pay for technology and 
system upgrades, and we will encourage other states to do so.

                               Conclusion

    Mr. Chairman and Members of the Subcommittee, I trust that we have 
provided you with a clear picture of the scope of the UI overpayment 
problem and the Department of Labor's efforts to work with the states 
to address this important problem. We appreciate your longstanding 
commitment to the integrity of the UI program, and we request your 
continued support in our ongoing efforts to minimize overpayments, 
fraud, and abuse within the UI program. Thank you for the opportunity 
to testify today. I will be pleased to answer any questions that you 
may have about my Department's efforts to reduce overpayments, fraud, 
and abuse in the UI program.

                               <F-dash>

    Chairman HERGER. Thank you very much, Mr. Findlay. Now, the 
gentleman from Louisiana, Mr. McCrery, to inquire.
    Mr. McCRERY. Thank you, Mr. Chairman.
    Mr. Findlay, as you probably know, this Subcommittee has 
been very active in trying to ferret fraud and abuse in a 
number of programs. One of those that we pay particular 
attention to at the behest of the GAO is Supplemental Security 
Income (SSI). The GAO has said for a number of years that the 
SSI Program has a high risk of fraud and abuse, so we have 
focused on that. I am going to read to you a number of things 
that we have done in the SSI Program to try to prevent fraud 
and abuse. I would like, when I conclude, for you to tell me if 
the States are doing any of these kinds of things to prevent 
fraud and abuse in the UI system.
    For SSI, for example, we have tried to ensure that 
prisoners do not receive benefits by creating a bounty system, 
rewarding prisons for reporting their inmate rosters for 
comparison with SSI rolls. We have barred fugitive felons and 
probation and parole violators from receiving benefits, and 
providing information sharing to make this effective.
    We encourage death matches to ensure benefits stop when 
individuals die or that others are not claiming benefits based 
on a deceased person's records; denying benefits for 10 years 
for those who claim benefits in more than one State, offsetting 
Federal income tax refunds or other benefits to recover 
overpayments, providing for enhanced recovery of overpayments, 
and mandating recovery of overpayments for those who commit 
fraud. In other words, no hardship waivers for those who commit 
fraud.
    Creating penalties for false and misleading statements made 
in the attempt to claim benefits. Restricting eligibility of 
non-citizens. For UI, for example, there are some who are here 
who are not eligible to work. Are we making sure that those who 
work illegally then do not get hired or lose their job and 
claim UI benefits?
    Encouraging information sharing between Federal and State 
agencies charged with administering benefits or that have 
information that could better ensure the right people are 
getting the right benefits.
    Are the States doing any of these kinds of things to try to 
prevent fraud and abuse? Is your DOL cooperating with the 
States to try to do some of these kinds of things?
    Mr. FINDLAY. Whether States are doing each one of those 
things, I think we would have to get back to you in writing, 
but let me say this.
    The measures relating to prisoners, while extremely 
effective in the SSI context, may be less important in this 
context, Congressman. The reason is that by its very nature, 
our program usually runs out after 13 weeks, and so by the time 
an individual is in prison, usually, the benefits have run out. 
Some States have done some analysis to see whether prisoners 
are receiving unemployment benefits, and they have found that 
the number is exceedingly small. So, I think that things 
dealing with prisoners, while very important in other contexts, 
may be a little less important here.
    Mr. McCRERY. While it may be less important, it is also a 
fairly easy thing to do, to match lists.
    Mr. FINDLAY. Yes, and some States do cross-matches with 
correctional facilities. We certainly are willing to consider 
that and to work with States to do that. I would not want to 
give this Committee the impression that is going to pay off as 
much as some of the other measures that we are talking about.
    Mr. McCRERY. No.
    Mr. FINDLAY. States are required to verify alien status 
with the Immigration and Naturalization Service (INS), so 
States are doing that. In general, aliens, under certain 
circumstances, can receive unemployment benefits if they have 
INS work authorization, but those that should not be receiving 
it generally are not.
    In terms of some of the other questions you asked about 
fraud, all of our States are required to impose penalties for 
fraud and to work to ferret out fraud and, obviously, not to 
pay people that they believe to be defrauding the system.
    Then in terms of some of the offsets. States are doing 
offsets from income tax refunds and other sorts of payments 
that States might be making. On a State-by-State basis, I think 
I would have to go back to our people and get more detailed 
information for you.
    [The information follows:]
                             CROSS-MATCHING
    States currently cross-match benefit information with various 
computer databases, primarily wage and benefit records and new hire 
directories. It is important to note that unemployment insurance (UI) 
has a number of controls:

        <bullet> LThere must be employment reported by an employer. UI 
        is time limited for each claim. Each week must be claimed.
        <bullet> LBenefit Accuracy Measurement data has not indicated 
        any significant problem with overpayments to these populations.
        <bullet> LEvery state imposes a penalty for fraud, including 
        holding the claimant ineligible for a set period of time.
        <bullet> LMost states with income taxes intercept refunds to 
        retire UI overpayments.
        <bullet> LMany states do ``death matches.'' It doesn't produce 
        significant numbers.

    Also, states do have techniques for minimizing payments to 
prisoners and ineligible aliens. Among them:

        <bullet> LSome states crossmatch with local and state 
        correctional institutions. Data indicates this is not very 
        productive.
        <bullet> LStates are required to verify alien status with the 
        Immigration and Naturalization Service (INS). (In general, 
        aliens can collect UI if they have INS work authorization.)

                               <F-dash>

    Mr. McCRERY. Thank you, Mr. Chairman.
    Chairman HERGER. Thank you. The gentleman from Maryland, 
the Ranking Member, Mr. Cardin, to inquire.
    Mr. CARDIN. Thank you, Mr. Chairman.
    Mr. Findlay, I believe the DOL has developed a UI 
overpayment system called the Benefit Accuracy Measurement, or 
BAM, to try to determine nationwide the extent of overpayments. 
Do you have any similar effort or plan in regards to the 
accuracy of the tax payments that employers are making, as to 
whether there is an underpayment of the tax payments for 
unemployment insurance benefits?
    Mr. FINDLAY. I am fairly certain that our performance 
measures require States to ensure the accuracy of tax payments, 
but beyond that, I do not know the details of what our program 
is.
    Mr. CARDIN. If you could make that available to our 
Committee, I would appreciate it, because we obviously want to 
make sure that we are collecting the right amount of revenue, 
as well as, making sure we are not overpaying the benefits.
    [The information follows:]
                   ACCURACY OF EMPLOYER TAX PAYMENTS
    Besides the performance measures mentioned below, State Work force 
Agencies are required by the Department's UI Audit Policy to audit 2% 
of the tax paying employers in their state each year.

        <bullet> LThe Audit Policy requires the state UI agency to 
        verify the existence of each business being audited.
        <bullet> LThis requirement was included in the Audit Policy to 
        help detect fictitious employer schemes.
        <bullet> LMany states have either developed computerized 
        systems to help detect fictitious employer schemes or they use 
        the Fictitious Employer Detection System, which was provided by 
        the Employment and Training Administration.
        <bullet> LThey also work very closely with the Department's 
        Office of Inspector General to detect and prosecute the 
        offenders.

    In addition, states have modified their Employer Status 
Determination forms--the forms used to determine whether an employer is 
subject to the state's UI tax--and trained their employees to help 
identify employers who may be attempting to manipulate experience rates 
through a variety of different schemes that have been discovered over 
time.
    Also, some employers are late in paying their taxes. When this 
happens, states routinely send dunning notices and impose penalty and 
interest on the employers. The amount of the penalty/interest varies 
from state to state.
    For the quarter ending December 31, 2002, our reports show that, as 
of the due date of the reports, 632,000 employers were delinquent in 
paying contributions. This represents about 9% of all employers. 
However, it should be noted that many of these delinquent employers 
have since ``paid up'' due to state collection activities. Also, it 
needs to be noted that employers routinely go out of business with no 
assets--these will be included in the delinquencies.
    As to detecting misclassification, a large part of the audit 
function noted above is aimed at detecting misclassifications. Also, if 
an individual files a claim and is denied because s/he was classified 
as an independent contractor, the individual has the right to review. 
If the review determines that the individual was in fact an employee, 
s/he is entitled to benefits.
    Further, the Department sponsored research on this subject and a 
final report was issued in 2000 (Study of Alternative Work 
Arrangements: Independent Contractors, Planmatics, Inc.). Among the 
findings:

        <bullet> LThe number one reason for misclassification is 
        savings related to workers compensation/disability costs. A 
        second reason is avoiding EEO type lawsuits and other laws 
        associated with having employees.
        <bullet> LIn the 9 states visited, the percent of audited 
        employers with misclassified workers ranged from 10-30%.
        <bullet> LIn the 9 states visited, the percentage of tax 
        revenues underreported varied from 0.26% to 7.46%.
        <bullet> LAssuming a 1% level of misclassification over the 
        period measured, the loss in revenue due to underreporting 
        would be an annual average $198 million. About 80,000 workers 
        annually are not receiving UI due to misclassification.

    The Department developed the Tax Performance System (TPS), formerly 
called Revenue Quality Control, to assist in exercising its general 
oversight responsibilities toward the UI program and to help meet its 
responsibility to protect and maintain the soundness of the 
Unemployment Trust Fund. TPS divides tax operations into major 
functional components and specifies key performance objectives based on 
3 dimensions of quality--timeliness, accuracy, and completeness. The 
tax functions reviewed include status determination, cashering, report 
delinquency, collections, field audit, and account maintenance. 
Monitoring tax activities has been a longstanding priority for the 
Department. National performance standards have been established for 
the following tax activities:

        <bullet> LPercent of new status determinations within 90 days 
        of quarter end date;
        <bullet> LPercent of new status determinations within 180 days 
        of quarter end date; and
        <bullet> LAccuracy of a sample of new status determinations.

    The Department also tracks performance for:
Timeliness Measures
        <bullet> LEmployer Report Filing Timeliness
        <bullet> LSecuring Delinquent Reports Timeliness
        <bullet> LResolving Delinquent Reports Timeliness
        <bullet> LEmployer Payments Timeliness
        <bullet> LSuccessor Status Determination Timeliness
Quality Measures
        <bullet> LDelinquent Reports Resolution Quality
        <bullet> LCollection Actions Quality
        <bullet> LTurnover of Receivables to Tax Due
        <bullet> LWrite-off of Receivables to Tax Due
        <bullet> LAccounts Receivable as a Proportion of Tax Due
        <bullet> LField Audits Quality
        <bullet> LField Audit Penetration, Employers
        <bullet> LField Audit Penetration, Wages
        <bullet> LPercent Change as a Result of Field Audit
Accuracy Measures
        <bullet> LPosting New Determinations Accuracy
        <bullet> LSuccessor Determinations Accuracy
        <bullet> LPosting Successor Determinations Accuracy
        <bullet> LInactivating Employer Accounts Accuracy
        <bullet> LPosting Inactivations Accuracy
        <bullet> LEmployer Reports Processing Accuracy
        <bullet> LEmployer Debits/Billings Accuracy
        <bullet> LEmployer Credits/Refunds Accuracy
        <bullet> LBenefit Charging Accuracy
        <bullet> LExperience Rating Accuracy

                               <F-dash>

    Mr. CARDIN. The Chairman mentioned and you mentioned the 
fact that Congress in the recently passed legislation made $8 
billion of Reed money available, Reed Act distributions, 
available to our States that can be used for integrity issues 
within the system. Do you know how the money is being spent by 
the States? Do you have any early reports to the Committee?
    Mr. FINDLAY. What we have is precisely that, Congressman 
Cardin, early reports. The States have to pass legislation in 
order to use the Reed Act funds. We believe 12 States have done 
so so far. We also have asked the States, what are they going 
to do with the Reed Act money.
    So far as I could tell from the chart that I read on the 
way over here, about half the States have plans, or have 
already put in place plans, to use some of the money for 
administration, which would, of course, help our integrity 
efforts. We know also that several States so far have indicated 
they intend to increase payment levels, as well. Beyond that, 
we really do not have very much information.
    Mr. CARDIN. We have requested certain information be made 
available by GAO. I do not know when we are going to get that 
information presented to the Committee, but obviously, any 
information you can make available to us would be helpful.
    Mr. FINDLAY. We would be happy to give you what we know, 
but as I say, until the States pass legislation, everything 
should come with a big caveat.
    [The information follows:]
                    $8 BILLION REED ACT DISTRIBUTION
    Enactment of the Temporary Emergency Unemployment Compensation Act 
has provided states with an enormous opportunity to make program 
improvements including initiatives that address fraud and abuse. The $8 
billion ``Reed Act'' distribution of excess Federal unemployment funds 
to states can be used for the payment of benefits or for the 
administration of UI and services by the public Employment Service (ES) 
through the One-Stop system. The Department of Labor suggested that 
states consider using these Reed Act funds for the following purposes:

        <bullet> LEstablishing a revolving fund for automation costs;
        <bullet> LImproving UI and ES performance;
        <bullet> LImproving UI claims filing and payment methods;
        <bullet> LAdministering One-Stops; and
        <bullet> LReducing UI fraud and abuse.

    Using Reed Act funds for administration or services requires an 
appropriation by the state legislature. As you know, states are 
currently struggling with other issues such as budget deficits. 
Therefore, most states have not yet had the opportunity to appropriate 
their Reed Act funds. However, we have collected anecdotal information 
from most states regarding their plans. About a dozen states have 
appropriated Reed Act funds this year. Uses include:

        <bullet> LPaying for technology and system upgrades;
        <bullet> LCovering basic administration costs;
        <bullet> LPaying for additional reemployment services; and
        <bullet> LPaying for additional staff.

    Another dozen states have appropriations in the legislative 
process, and a number have advised us they will seek appropriations 
during their next legislative session. Some states indicated they 
expect to leave all of the money in their trust funds to pay benefits, 
improve solvency, and avoid tax increases. Other states plan to leave a 
portion of their Reed Act money in their fund for these purposes. A 
couple of states would be borrowing but for the Reed Act distribution. 
Finally, a few states have enacted minor benefit increases or 
expansions since the date of the distribution.

                               <F-dash>

    Mr. CARDIN. Of course, States can use it to enhance 
benefits, and that is one of the areas that we were concerned, 
as to whether they, in fact, will do that or not. You are 
indicating seven States are at least planning to do that. You 
have got 1.4 million workers who are currently claiming 
extended unemployment benefits that we enacted last March. Do 
you have any idea of how many of these people will exhaust 
their extended benefits before they are able to find 
employment, and how many of these individuals will be covered 
under the second trigger in those States that meet the 
additional benefits?
    Mr. FINDLAY. In terms of the first question, how many would 
exhaust before they could find employment, I do not think we do 
have that number because I think it would require a fairly 
complex calculation.
    In terms of your second question, which I am momentarily 
forgetting, Congressman----
    Mr. CARDIN. How many States would qualify for the trigger 
for the additional weeks of benefits beyond the extended 
benefits?
    Mr. FINDLAY. Yes, we do have the answer to that. It is nine 
States: California, Idaho, Massachusetts, Michigan, New Jersey, 
Oregon, Pennsylvania, Washington, and Wisconsin.
    Mr. CARDIN. So if you are in those States, you would then 
be entitled to additional benefits. So, there is a large number 
of people who will not be entitled to benefits, at least be in 
States that will not be entitled to benefits, and we do not 
know how many people are going to still be unemployed, unable 
to find employment that have exhausted their extended benefits.
    Our preliminary information is that we are talking about 
hundreds of thousands of individuals who will exhaust their 
benefits, and be in States that do not provide additional 
benefits because the trigger that we are using, the insured 
rates, are difficult to meet in many of the States. I think it 
is something we need to take a look at, because we find that 
when times are very difficult, as you point out, some of the 
mis-payments are not fraudulent.
    Some of these, the States do not want to recover for 
whatever reasons, and it seems to me, in difficult economic 
times, when benefits are not being made available to meet the 
needs that are out there, chances of mis-payments are higher 
and something we need to make sure--we do not want anybody to 
receive payments they are not entitled to, but it would be also 
nice to have recommendations on changing the policy in order to 
meet the legitimate needs of the people who cannot find 
employment.
    Thank you, Mr. Chairman.
    Mr. FINDLAY. Thank you.
    Chairman HERGER. Thank you. The gentlelady from 
Connecticut, Mrs. Johnson, to inquire.
    Mrs. JOHNSON OF CONNECTICUT. Thank you, Mr. Chairman.
    When do you expect the DOL will have the new operational 
definition of UI overpayments ready for use?
    Mr. FINDLAY. We are putting together a new goal under the 
government Performance and Results Act (GRPRA). All of our 
goals for fiscal year 2003 should be in place about the 
beginning of fiscal year 2003, so I think we are looking at 
this autumn.
    Mrs. JOHNSON OF CONNECTICUT. Have you done any studies or 
have you thought about doing any studies of those States that 
rely almost entirely on self-reporting of information for 
eligibility versus those States that check information?
    Mr. FINDLAY. What we require at the Federal level is that 
States show us that they have a system that is reasonably 
calculated to ensure integrity of the system, and we do not 
typically mandate to States precisely how they do that, or we 
have not in the past.
    I think our thumb has been on the scale a little bit too 
much in terms of benefit promptness in the past. I think we may 
want to suggest to States that they do more than they have, and 
we are not only reconstituting our GPRA goal, but we also will 
be redoing our performance measures for States. We, I think, 
all recognize in the DOL that we need to elevate the importance 
of these integrity issues as well as the payment promptness 
issues.
    Beyond that, I do not want to get into the specifics of 
what we will be doing with States that do not do particular 
kinds of matches. I think it is fair to say that at the 
leadership level of the DOL, we want to be a little bit more 
prescriptive with States than we have been in the past in terms 
of carrying out these integrity efforts.
    Mrs. JOHNSON OF CONNECTICUT. I think it would be useful to 
do some studies of States that have different systems of 
eligibility and those that do the matching and other things to 
confirm eligibility versus those that do not. I know in my 
State, we have gone to pretty much telephone registration for 
unemployment benefits and I think there is very little 
oversight of that system. So, I am interested in, as the DOL 
moves forward, you are really doing some comparative studies so 
we have some material on which to move forward to demonstrate 
the States' best practices and to hold them to a higher 
standard.
    Do you have any information about whether States that cover 
part-time employees have more fraud problems than those that 
cover only full-time employees?
    Mr. FINDLAY. I do not before me, but I am sure we can give 
you whatever we have got on that.
    [The information follows:]

    We do not have any empirical evidence to suggest that states which 
pay benefits to those seeking only part-time work have more fraud than 
those states which require full-time availability.

                               <F-dash>

    Mrs. JOHNSON OF CONNECTICUT. I hope you will look at that, 
because my guess is that there is no difference and that we are 
not having any more difficulty with part-time than full-time, 
but I think we need to know that, because over the course of 
events, I think the issue of part-time unemployment 
compensation for part-time unemployed is going to be an 
increasingly important issue for us to address. I think before 
we address that, we have to find a better way of making sure 
that unemployment compensation is going to those who are 
eligible and not going to those who are not eligible.
    So, you could be a big help to us in refining more clearly 
what constitutes fraud and abuse. How do you know it? On what 
do you base your estimate, that really, a very small amount of 
the overpayment, about 25 percent or less, is actually fraud 
and abuse. Overpayments are a different problem, but fraud and 
abuse is intolerable.
    Mr. FINDLAY. I think that is exactly our point, that 
overpayments are not overpayments. There are different types of 
overpayments, some of which deserve different responses than 
others. I would not think that it would be the DOL's priority 
to force States to spend a lot of time and effort going after 
people who are unemployed, looking for work, carrying out all 
the duties they are supposed to be carrying out in terms of 
looking for work, but used the wrong form for one of their job 
search documentation requirements.
    Mrs. JOHNSON OF CONNECTICUT. Absolutely.
    Mr. FINDLAY. On the other hand, at the other end of the 
spectrum, I think for fraud and abuse, fictitious employers, 
fictitious employees, or Social Security numbers that relate to 
people who are deceased, those are the sorts of areas that are 
absolutely clear. We should be devoting more efforts to.
    Mrs. JOHNSON OF CONNECTICUT. Thank you.
    Mr. FINDLAY. Thanks.
    Chairman HERGER. Thank you. The gentleman from Texas, Mr. 
Doggett, to inquire.
    Mr. DOGGETT. Thank you very much, Mr. Chairman.
    I am pleased that we have your added input about the 
importance of addressing any fraud that might be in the system 
and undermine confidence in the system. I think it is equally 
as important that we recognize that workers who do become 
unemployed through no fault of their own and who cannot access 
the benefits they need, feel the system has acted in an abusive 
way to them.
    At one of our earlier hearings, I inquired about the number 
of eligible individuals as a percent of total unemployment for 
the States over the last 20 years. The DOL was kind enough to 
provide that information, and I note in my own State of Texas 
that over the last 20 years, the number has varied from as low 
as 18 percent in several different years, never getting higher 
than 31 percent. So, there are a lot of workers out there who 
are unemployed that are not getting benefits.
    There has been some indication by our staff that after the 
end of this week, there will only be about four States that 
will be triggered in on extended unemployment benefits. Is that 
right?
    Mr. FINDLAY. I think, just before you arrived, Congressman, 
I said that number is nine States.
    Mr. DOGGETT. Okay. I do not think that Texas is one of 
them.
    Mr. FINDLAY. You are correct.
    Mr. DOGGETT. I am wondering if you think we ought to 
revisit the trigger mechanism to determine whether those people 
who are jobless should be eligible for additional unemployment 
benefits.
    Mr. FINDLAY. Let me address your first question first, 
which was on the recipiency rate. It is true that some people 
who are within the total unemployment rate do not receive 
unemployment benefits. These sorts of people are typically new 
entrants to the work force. A very large percentage of them are 
new entrants who have not actually been in a job before, and so 
they are not unemployed in the sense that they lost a job.
    Another large percentage is re-entrants, which may well be 
men or women who stayed home to care for a child for a few 
years and are going back to work. Those are effectively like 
new entrants, in a sense.
    Then job leavers, who leave of their own accord, 
voluntarily, who are not covered by the system.
    If you set those aside, actually, a very large percentage 
of the job losers are eligible for and receive unemployment 
benefits. I think the figures that I saw said that 52 percent 
of the total unemployment rate is job losers and 46 percent of 
all total unemployed are eligible to receive unemployment 
benefits.
    So really, given the current eligibility requirements, it 
is a pretty close fit and the recipiency rate is pretty close 
to where it ought to be----
    Mr. CARDIN. Will the gentleman yield for one moment?
    Mr. DOGGETT. Yes.
    Mr. CARDIN. It is our understanding, though, there may be 
eight States that qualify today. Some of these States are going 
to trigger off at the end of the month so that it looks like 
there would be only four States by next month who would still 
be eligible.
    Mr. FINDLAY. I am told that is correct, Congressman, and 
Congressman, on your second question about revisiting the 
trigger mechanism, I think in our view, it is premature. 
Typically, the unemployment insurance program is a 13-week 
program. Earlier this year, we together took a step that is 
extraordinary, which is extending it another 13 weeks. I think 
the idea is that the system should be one that also encourages 
people to continue looking for a job and getting back to work.
    So, whether we want to take essentially a third bite at the 
apple now, we would like to see how the economy goes. There are 
some signs out there that the economy is doing better. The 
unemployment----
    Mr. DOGGETT. Of course, for some of these individuals, the 
economy is not going very well if they have exhausted all their 
unemployment benefits. If I understand your testimony, and I 
respect whatever your opinion might be, but we are going to 
have four to six States next month that do not have any 
extended unemployment benefits, including my State of Texas. 
Your feeling is that we do not need to do anything about that 
at this point----
    Mr. FINDLAY. I think----
    Mr. DOGGETT. As far as unemployment benefits.
    Mr. FINDLAY. I think it is premature to make that decision. 
Typically, the Temporary Emergency Unemployment Compensation 
Act is put in place by Congress during recessions, and it 
happened earlier this year because there had been a one quarter 
dip in GDP, gross domestic product. It happened previously, I 
believe, in the early nineties when there was a similar thing. 
So I think--I am sorry, if I could just finish these last few 
words.
    Mr. DOGGETT. Sure.
    Mr. FINDLAY. I think the norm is the unemployment insurance 
system that Congress enacted, which is a 13-week program, there 
have to be unusual circumstances for us to do that and right 
now, it is unclear whether those circumstances exist.
    Mr. DOGGETT. Just one follow-up, if I might, on your 
earlier comment about the fact that we, of course--I think the 
logical inference from your comment was that you would never 
expect 100 percent of the unemployed would be covered, but my 
worry to you would be, you can take any given year in this data 
and there are vast variations between the States. As I said, in 
some years, in Texas, 72 percent of the unemployed got no 
benefits, whereas in other States, the same year, getting 60, 
70 percent. How do you explain the variation?
    Chairman HERGER. If the gentleman could conclude----
    Mr. DOGGETT. That is the end of my question. How do you 
explain the variation?
    Chairman HERGER. We are a minute over time here, but maybe 
we can respond. Could you very quickly respond?
    Mr. FINDLAY. I think this is one that I would probably 
prefer to respond in writing----
    Mr. DOGGETT. That would be fine.
    Mr. FINDLAY. I do not have an answer for you right now, 
Congressman.
    Mr. DOGGETT. Sure. Since you are giving it back to the 
States and their discretion, if you could address why you see 
such tremendous variations in the data that were supplied on 
March 18. Thank you very much.
    Mr. FINDLAY. We would be happy to supply that.
    [The information follows:]
                               RECIPIENCY
    Most of the research done on UI recipiency concerns the marked 
decline in the U.S. average recipiency rate over the last 30 years. 
However, several studies have attempted to explain why there is such 
dramatic variation in recipiency rates among states. These studies 
demonstrate a strong relationship between implementing policy and 
administrative changes that tighten UI eligibility and sharp declines 
in recipiency rates. Changes include:

        <bullet> LTightening qualification standards in specific 
        professions;
        <bullet> LLengthening disqualification periods for certain 
        actions including voluntarily leaving a job;
        <bullet> LIncreasing offsets of other income such as pensions;
        <bullet> LIncreasing base qualifying wages; and
        <bullet> LAdopting more restrictive ability to work and other 
        nonmonetary requirements;

    In short, differences in state monetary and nonmonetary eligibility 
requirements are believed to be one of the main reasons for the wide 
variation in recipiency rates among states.
    Other research indicates that the wage-replacement rate affects 
recipiency rates. States with high replacement rates provide a larger 
incentive to apply for benefits.
    Finally, some research demonstrates that the economic and 
industrial make-up of the state impacts on recipiency rates. States 
with a larger number of union workers may have higher recipiency rates. 
(For more information, see Analysis of Unemployment Insurance 
Recipiency Rates, David Wittenburg et al).

                               <F-dash>

    Chairman HERGER. Again, Mr. Findlay, is it not correct, we 
do have 39 weeks of regular unemployment plus that we have 
added an additional 13 weeks to that, is that correct?
    Mr. FINDLAY. Yes, that is correct.
    Chairman HERGER. Thank you. With that----
    Mr. CARDIN. Could the gentleman just yield for 1 minute, 
just to clarify that point. Is it not 26 plus 13?
    Mr. FINDLAY. Exactly. Excuse me. I may have said a 13-week 
program. It is normally 26 weeks, plus we extend it for 13. 
Some States will have the opportunity to have an additional 13.
    Chairman HERGER. Thank you. The gentleman from 
Pennsylvania, Mr. English, to inquire.
    Mr. ENGLISH. Thank you, Mr. Chairman.
    In reviewing the material that is being brought before the 
Subcommittee today, I wonder if you could comment on what are 
the most pronounced technical eligibility issues that have led 
to overpayment.
    Mr. FINDLAY. I think, as I understand it, the sorts of 
issues we are talking about relate to job search issues; 
whether someone is registered with the employment service (ES), 
whether that person is properly documenting job searches, 
whether in a State that requires, say, four inquiries a week, 
the person only has documentation for three or only did three. 
These people are otherwise eligible for unemployment in the 
sense that they are unemployed and are ready, willing, and able 
to work.
    Mr. ENGLISH. One of the areas where we have tried to 
micromanage the States in designing a UI system is in 
essentially requiring that the States impose search for work 
requirements. This is understandable, but I am wondering if you 
could comment on whether these provisions are unusually 
difficult to enforce for States.
    Mr. FINDLAY. I guess I would answer that States impose 
different work search requirements and they enforce them in 
different ways. I do not know if I could characterize any of 
the requirements as unusually difficult to enforce, or----
    Mr. ENGLISH. Is a search for work by an individual 
something that is inherently very easy to audit?
    Mr. FINDLAY. Well, I think it is a little bit difficult to 
audit. You have to do it. There has to be some element of self-
certification by the employee.
    Mr. ENGLISH. I have a two-part question, and this has to do 
with the accuracy of the figures we are being given today. What 
percentage of the overpayments are you attributing to 
individuals who are collecting unemployment insurance payments, 
but are actually still gainfully employed?
    Mr. FINDLAY. That number would be some portion of the $1.3 
billion of non-fraud recoverable, and probably a large 
percentage of that. I do not have the exact percentage off the 
top of my head, but quite typically, what will happen is that 
an employee will be collecting unemployment benefits, will find 
a job, but there is a time lag before the employee reports new 
employment. Therefore, the person can get a couple extra checks 
while he or she is actually working.
    Mr. ENGLISH. In your answer, you are identifying where they 
are participating in the formal economy and that brings me to 
the second point of my question. What percentage of the 
overpayments can be attributed to individuals who are 
participating in the informal or underground economy, having 
left a formal job, and are able to combine some income stream 
which is unreported with the unemployment benefits? Do you have 
any current measurement of that, or what sorts of estimates are 
built into this report?
    Mr. FINDLAY. Certainly, there must be people out there who 
are participating in an underground economy and also collecting 
unemployment benefits. I just checked with my colleague, and we 
do not have any estimate as to what that percentage would be.
    Mr. ENGLISH. Is it fair to say that the figures you are 
presenting here today, because you are not estimating or you 
are not giving us a very clear estimate of what you attribute 
to the underground economy, you may actually be substantially 
underestimating the number of overpayments that occur?
    Mr. FINDLAY. As I said, I am certain that there are some 
claimants out there who are receiving income from mowing lawns, 
painting houses, doing work for cash, that sort of thing. 
Beyond that, I do not really have any very good estimate of how 
much that understates or overstates the problem.
    Mr. ENGLISH. That is good to know. My final question is, in 
the testimony, actually, in the GAO report, it is noted that 
overpayments have changed relatively little over the last 10 
years. To what do you attribute that?
    Mr. FINDLAY. As I say, I think it is because the DOL and 
the States have not put as much of a focus on preventing 
overpayments as they have on ensuring prompt payments. I think 
that is a mistake. I think that at the Federal level, we should 
be doing more to ensure the integrity of the system. That is 
why we are planning a new GPRA goal, why we are planning new 
performance measures, why we have sought more money, and why, I 
think, that in the performance measures we place on the States, 
we will likely be asking them to do more to protect the 
integrity of the program.
    Mr. ENGLISH. Thank you, Mr. Chairman.
    Chairman HERGER. Thank you. The gentleman's time has 
expired. The gentleman from Michigan, Mr. Levin, to inquire.
    Mr. LEVIN. As I understand it, the hearing is on this issue 
of overpayments and underpayments, and so forth, and I do not 
mean to minimize for certain that set of issues. I do think we 
want to be sure about proscriptive here, and I am sorry if I 
missed the earlier part of it. How many people have exhausted 
their benefits in the last 12 months, do you know?
    Mr. FINDLAY. I do not know that number off the top of my 
head.
    [The information follows:]

    Number of exhaustions--12 months ending December 2001: 2.8 million.

                               <F-dash>

    Mr. LEVIN. How about the last 6 months?
    Mr. FINDLAY. I think that it is in the hundreds of 
thousands who will be coming off the Temporary Emergency 
Unemployment Compensation Act in the next couple of weeks or 
so.
    [The information follows:]

    Number of exhaustions--6 months ending December 2001: 1.6 million.

                               <F-dash>

    Mr. LEVIN. Then what happens to them?
    Mr. FINDLAY. Unless they are in a State that would trigger 
under the 4-percent trigger, they would cease receiving 
unemployment benefits.
    Mr. LEVIN. Have you made any suggestions to this Congress 
as to what should happen to those people?
    Mr. FINDLAY. As I discussed with Congressman Doggett a few 
minutes ago, we think that with the signs in the economy 
improving, that it is a little too early to say whether we want 
to have another emergency unemployment compensation system put 
in place. So, we have not suggested to Congress that they make 
any changes to current law.
    Mr. LEVIN. Are you studying the present trigger mechanism?
    Mr. FINDLAY. Under the emergency program or under the 
regular program or both?
    Mr. LEVIN. Both.
    Mr. FINDLAY. Under the regular program, we have proposed to 
this Committee, or to this Congress, as you all know, that the 
trigger be reduced, making it easier for States to trigger, as 
part of our comprehensive unemployment insurance reform 
proposal. In terms of what the appropriate trigger for the 
final 13 weeks in the Temporary Emergency Unemployment 
Compensation Act would go, we have not had any discussions 
about changing that trigger, to my knowledge, if new 
legislation were to be proposed.
    Mr. LEVIN. You are having discussions with the Congress 
about changing the trigger, the basic. Where do those 
discussions stand?
    Mr. FINDLAY. We had unveiled our proposal, and we are 
presently clearing the legislation through the Office of 
Management and Budget, OMB, for our comprehensive UI/ES, reform 
proposal, which would, among other things, lower the permanent 
trigger from 5 percent to 4 percent. It would make it easier 
for States to trigger on.
    Mr. LEVIN. This is your comprehensive reform proposal?
    Mr. FINDLAY. Yes, sir.
    Mr. LEVIN. A new proposal is forthcoming?
    Mr. FINDLAY. Yes. We certainly have shared with many people 
in the Congress the basic elements of the proposal, which would 
be to reduce the trigger, reduce over time the Federal 
unemployment tax from 0.8 percent to 0.2 percent, to turn over 
administration to the States largely, and to leave the Federal 
Government in place for loans and general oversight of the 
program. We would not have this kind of unique system where the 
Federal Government raises money through a Federal tax and turns 
it over to the States to administer the States' programs.
    Mr. LEVIN. So how does that portion differ from the 
previous reform proposal?
    Mr. FINDLAY. It is very----
    Mr. LEVIN. It sounds to me, we have seen it before.
    Mr. FINDLAY. It is very similar, except that I think 
previous reform proposals had not proposed quite as much 
devolution to States of their own administration, and there are 
a couple of other small elements that are not worth talking 
about.
    Mr. LEVIN. This provides more?
    Mr. FINDLAY. More devolution, yes, sir.
    Mr. LEVIN. Do you think that the change in the trigger 
should be held up until we discuss the rest of the reform 
package?
    Mr. FINDLAY. Absolutely. No, I am just joking.
    Mr. LEVIN. I think you are serious.
    Mr. FINDLAY. I want to say, Congressman----
    Mr. LEVIN. That has been the history of this up until now.
    Mr. FINDLAY. I want to say that I like it better when I am 
sitting up there with you in the China Human Rights Commission 
than when I am down here and you get to ask the questions, but 
no, we believe it is a comprehensive reform----
    Mr. LEVIN. I am just doing it constructively because we 
have been wrestling with these issues and we want your 
attention and your help. We have been struggling with these for 
years.
    Mr. FINDLAY. If I could answer----
    Mr. LEVIN. Four years----
    Mr. FINDLAY. Let me answer your question seriously, because 
I gave a flip answer. We do think that we should have a 
comprehensive reform proposal that takes heed of all of these 
issues that we have raised with the unemployment insurance 
system. I think if we start taking piecemeal bits of it, just 
reducing the Federal unemployment tax, which employers would 
love, just increasing the trigger, which others would love, I 
think that is not a good way to make policy, and we ought to 
consider all these issues as a comprehensive whole.
    Mr. LEVIN. Thank you. I appreciate your response.
    Mr. FINDLAY. Thanks.
    Chairman HERGER. Thank you very much.
    Just as a comment, Mr. Findlay, you mentioned that about 
half of the States now compare their unemployment rolls with 
their State directory of new hires. The information in the 
State directory has been gathered from employers for use in 
collecting child support, in keeping with the 1996 Welfare 
Reform Law, so doing the match places no added burden on the 
employers and could save them money by reducing improper 
benefit payments. It appears from a variety of sources that a 
major source of the abuse occurs when unemployment claimants or 
recipients do not report their return to work. Therefore, 
running this match directly would appear to address that very 
problem. Would you have a comment on this?
    Mr. FINDLAY. Yes. We think that the State new hire 
directories are absolutely key to reducing overpayments. They 
really get at several of the issues that we have been talking 
about here today. Currently, for whatever reason, only about 
half the States are doing so. We are going to use some of our 
integrity money that we are asking for in the fiscal year 2003 
budget to encourage more States to do so. While we have not 
formulated our performance measures, I would anticipate that 
our performance measures would encourage States even more to 
begin using these new hire directories because they are 
absolutely critical to reducing overpayments.
    Chairman HERGER. I thank you very much. Are there any 
further questions? With that, I thank you very much, Mr. 
Findlay, for your testimony.
    [Questions submitted by Chairman Herger to Mr. Findlay, and 
his responses follow:]
                                           U.S. Department of Labor
                             Employment and Training Administration
                                               Washington, DC 20210
The Honorable Wally Herger
Chairman, Subcommittee on Human Resources
Committee on Ways and Means
United States Senate
Washington, DC 20515

    Dear Chairman Herger:
    Thank you for your letter dated June 17, 2002, requesting 
additional information about the Department of Labor's efforts to 
increase prevention, detection, and recovery of unemployment insurance 
(UI) overpayments. Your letter was forwarded to the Employment and 
Training Administration for response because this office is responsible 
for oversight of the Federal-state UI program. Answers to your 
questions follow:

1. Does the Department have any specific proposals or suggestions to 
assist States in preventing or better recovering overpayments? Aside 
from matching [UI benefit payments] with the State Directory of New 
Hires, what are the most promising new approaches that have been tried 
in this area?

    Response: As we have testified and as you have noted, use of data 
from State Directories of New Hires is a very valuable new tool for 
quick detection and possible prevention of UI overpayments. We believe 
that access to Social Security Administration data for verification of 
Social Security Numbers, names, and pension information will also prove 
to be of great value in preventing erroneous payments. These two new 
tools are the cornerstones of the Department's plans to assist states 
in preventing and detecting overpayments, and the administration has 
requested $10 million in the fiscal year 2003 budget to help states 
implement access to these data.
    Follow-up activities (establishment of debt and collection efforts) 
after a potential overpayment has been detected through a computer 
crossmatch are very staff intensive, and due to Federal spending 
constraints, in recent years appropriations for these activities have 
been less than the administration's requests. The Unemployment 
Insurance and Employment Service Reform New Balance proposal, announced 
with the President's Budget for 2003, gives states overall 
responsibility for determining their own administrative funding levels 
and gives them the ability to target funding to benefit payment control 
activities at the levels that they believe are appropriate.
    In addition, the $8 billion ``Reed Act'' distribution to states in 
2002 gives states the opportunity to focus additional resources on 
benefit payment control activities. The Department has suggested that 
states consider using these funds for, among other purposes, improving 
UI claims filing and payment methods and reducing UI overpayments, 
fraud, and abuse. Some states already have appropriated Reed Act funds 
to pay for technology and system upgrades.
    Additionally, there are several other systems/efforts underway that 
should have positive effects:

        <bullet> LNational Directory of New Hires. Each state's access 
        to new hire data is currently limited to the State Directory. 
        Access to the National Directory of New Hires would make 
        information available about Federal employment and provide 
        access to data reported by multi-state employers that have 
        chosen to report all wages to one state. We commend the 
        Committee for including this access in the Temporary Assistance 
        for Needy Families reauthorization bill (H.R. 4737).
        <bullet> LIllegal Aliens. To prevent overpayments to non-
        citizens, states use an Immigration and Naturalization Service 
        (INS) automated system for verifying immigration status and 
        work authorization. INS has installed enhanced verification 
        capability in eight states that automatically generates a 
        secondary inquiry when the identifying information is at 
        variance with that provided by the claimant. Implementation of 
        this automated process is underway in two additional states, 
        and within the next 18 months, the remaining states should be 
        included.
        <bullet> LNational Conference on UI Integrity. The Department, 
        along with the National Association of State Work force 
        Agencies, is sponsoring a national integrity conference in 2003 
        to identify and disseminate successful practices, studies, and 
        integrity information among the states.

2. When do you expect your negotiations with the Social Security 
Administration will result in an agreement to better share data to 
ensure the accuracy and validity of Social Security numbers provided in 
claiming unemployment benefits?

    Response: The Department and the Social Security Administration 
(SSA) have reached agreement, and work is currently underway to 
establish a real time data exchange capability between SSA and each 
state UI agency. The telecommunications aspect of this exchange is 
expected to be completed in 2002. Each state will then have to install 
software to interface with their existing UI benefits system. We expect 
data exchanges with SSA to begin during the first half of 2003.

3. Please describe in greater detail the current performance standards 
and goals that are designed to enhance state recovery of overpayments. 
How has this changed in recent years?

    Response: The Department requires each state to operate a unit for 
benefit payment control purposes with the following goals:

        <bullet> LDetect benefits paid due to state agency errors or 
        due to willful misrepresentation or error by claimants;
        <bullet> LDeter claimants from obtaining benefits through 
        willful misrepresentation; and
        <bullet> LRecover benefits obtained by fraud, willful 
        misrepresentation, and other claimant errors.

    The Department relies upon periodic on-site reviews of states' 
operating procedures to gauge the quality of performance in achieving 
these goals. Additionally, data analysis has focused on the recovery of 
overpayments--both fraud and nonfraud. These analyses compare the 
amount of overpayments recovered against the amount of overpayments 
established during a given year and initially 55% was set as a 
``desired level of achievement.'' In the mid 1990's, the Department 
recognized that this benchmark could provide a disincentive to 
establish as many overpayments as possible because recoveries were 
limited by staff capacity; therefore, the 55% goal was officially 
dropped from the UI performance measurement system. However, some 
states still use the 55% indicator as a goal.
    It is very difficult to define a measure of performance related to 
overpayment prevention, detection, and recovery. As greater efforts are 
made to detect overpayments, such as using the State Directory of New 
Hires as the primary detection tool, the rate of overpayments may 
increase due to more efficient screening of potential cases for 
investigation, thereby reducing the number of false leads, while the 
average dollar amounts established per overpayment (in addition to the 
dollar amounts recovered) may decrease due to prompt interception 
before benefits are overpaid. In establishing measures related to 
overpayments, it is important to be sure that the incentives they 
create promote best practices. Our efforts to design new measures 
addressing UI benefit payment integrity are described below.

    4. Your testimony mentions that the Department will be setting a 
new Government Performance and Results Act (GPRA) goal for addressing 
unemployment program overpayments. What is your timeline on developing 
and implementing that goal? Will the States be held accountable for 
this goal? If so how, and if not, why not?

    Response: The Department is engaged in the development of a UI 
payment accuracy measure as part of a plan to improve UI program 
integrity and reduce overpayments. We are seeking state and stakeholder 
as well as OMB, OIG and GAO input regarding a measure. After 
development, we will establish a baseline and a new GPRA goal from 
which to measure improvements in payment accuracy nationwide. We plan 
to complete work on the goal by September 30, 2002. The goal, like 
other GPRA goals, will be expressed as a measure of aggregate national 
performance. The Department is at the same time embarking on a review 
of the overall UI performance management system. This review will 
encompass all aspects of the performance system, including the 
development of measures related to overpayment prevention, detection, 
and recovery. We recognize, however, that applying nationwide goals 
across states will be difficult due to differences in states' laws that 
affect the potential for overpayments to occur.
    Should you need clarification or explanation of the answers to your 
questions, please do not hesitate to contact me at (202) 693-2700 or 
have a member of your staff contact Grace Kilbane or Cheryl Atkinson in 
the Office of Workforce Security. They can be reached at 693-3200.
            Sincerely,
                                          Hon. Emily Stover DeRocco
                                                Assistant Secretary

                               <F-dash>

    Chairman HERGER. I would like to call up our second panel, 
Sigurd R. Nilsen, Ph.D., Director of Education, Work force, and 
Income Security Issues at the U.S. General Accounting Office; 
the Honorable Gordon S. Heddell, the Inspector General at the 
U.S. Department of Labor; Miles Paris, Deputy Director of 
Program Support for the Illinois Department of Employment 
Security; Stephen Woodbury, Ph.D., Professor at Michigan State 
University; and Michael Lorsbach, Principal, On Point 
Technology, Incorporated.
    I thank each of you for joining us this afternoon to 
testify on this important issue.
    Mr. Nilsen.

  STATEMENT OF SIGURD R. NILSEN, PH.D., DIRECTOR, EDUCATION, 
WORKFORCE, AND INCOME SECURITY ISSUES, U.S. GENERAL ACCOUNTING 
                             OFFICE

    Dr. NILSEN. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am pleased to be here today to discuss the 
findings from our draft report on UI overpayments prepared at 
the request of Chairman Herger, focusing on the extent and type 
of overpayments, the factors that contribute to overpayments, 
and Federal and State management issues that affect the ability 
of States to control overpayments.
    Over the past 10 years, as we have heard earlier, the 
annual overpayment rate estimated by DOL's Quality Assurance 
System has remained fairly constant at about 8.4 percent. As UI 
payments have increased this past year with rising 
unemployment, overpayments reached $2.4 billion in 2001. The 
DOL data shows that of this $2.4 billion in overpayments, about 
a quarter, or $560 million, was attributable to fraud or abuse.
    The primary sources of UI overpayments are, first, 
unreported earnings or benefit payments, accounting for 38 
percent of overpayments, about $900 million, and the source of 
more than half the fraud or abuse reported in the program.
    Second, eligibility issues, such as not being able or 
available for work, failing to register for employment 
services, or not looking for a new job, as required, account 
for about 36 percent of overpayments, or about $860 million.
    Third, about 20 percent of overpayments, roughly $500 
million, was due to becoming unemployed for reasons not covered 
by State law, such as being fired for cause.
    Although some categories of overpayment are more difficult 
than others to detect or recover, DOL's analysis suggests that 
the States could have detected and recovered about $1.3 billion 
of the $2.4 billion in estimated overpayments in 2001. However, 
only $370 million was actually recovered.
    Officials at DOL and in some States emphasize that 
overpayments are more likely to be recovered if they can be 
detected quickly. States generally recover a substantial 
proportion of the overpayments they detect by offsetting a 
claimant's current and future UI benefits. However, UI benefits 
tend to be paid out over a relatively short period of time, 
about 14 weeks on average, and current overpayment detection 
and recovery activities may begin long after individuals leave 
the rolls. This inability to verify eligibility information in 
a timely manner places the program at substantial risk for 
overpayments that may never be recovered.
    Because States rely heavily on claimants' self-reporting of 
eligibility information, timely verification of this 
information using independent sources is key to limiting UI 
overpayments. For example, access to more timely sources of 
data, such as the State new hires data, can provide information 
on individuals' current employment status. States that use this 
data have reported that it is helpful in detecting overpayments 
more quickly. However, we found that the new hires data is not 
routinely used in all States. Two of the six States we visited 
do not currently use their new hires data to verify claimants' 
earnings or employment status. Yet, one of the States we 
visited reported that because the new hires data detects 
overpayments earlier than other detection methods, the size of 
its overpayment at the time of detection was reduced by nearly 
75 percent.
    The National Directory of New Hires would provide similar 
employment and earnings information on claimants across States 
to verify eligibility, but so far, access to this information 
is limited by statute, except, as we have heard, it is in the 
TANF reauthorization bill.
    We also found that some States do not independently verify 
the receipt of income from benefit programs such as Workers' 
Compensation or Social Security disability payments, which can 
also affect UI eligibility. Further, in addition to verifying 
eligibility up front, the States need to more aggressively use 
these same sources of data to verify continuing eligibility.
    The limited focus on overpayments has been fostered by 
DOL's approach to managing the UI program, which emphasizes 
quickly processing and paying UI claims with only limited 
attention to overpayment prevention, detection, and collection. 
For example, most of the first 12 performance measures, called 
Tier 1 measures by DOL, assesses whether States meet specified 
timeframes for certain activities and no measure in those 12 
gauges the accuracy of UI payments. The DOL also gives Tier 1 
measures more weight than the remaining 60 measures, called 
Tier 2 measures, which assess other aspects of State 
performance, including overpayment collection. Officials from 
most of the States we visited told us that the Tier 1 and Tier 
2 measures make the UI program complex to administer and may 
contribute to an environment in which overpayment are more 
likely.
    In conclusion, Mr. Chairman, the vulnerabilities that we 
have identified are attributable to a management approach in 
DOL and in many States that places greater emphasis on quickly 
processing and paying UI claims than on controlling program 
payments. Our work suggests that using more front-end automated 
data sources to verify claimant eligibility before overpayments 
are made is an effective and efficient method to protect 
program funds.
    However, absent a change in the current approach to 
managing the UI program at both the Federal and the State 
level, it is unlikely that the deficiencies we identified will 
be sufficiently addressed. Without more active involvement from 
DOL in emphasizing the need to balance payment timeliness with 
payment accuracy, States may be reluctant to implement needed 
changes in their management philosophy and operations.
    Mr. Chairman, this concludes my prepared statement. I will 
be happy to respond to any questions you or other Members of 
the Subcommittee may have.
    [The prepared statement of Dr. Nilsen follows:]
 Statement of Sigurd R. Nilsen, Ph.D., Director, Education Workforce, 
       and Income Security Issues, U.S. General Accounting Office
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss the Department of Labor's 
Unemployment Insurance (UI) program, which is a key component in 
ensuring the financial security of America's workforce. The UI program 
is a federal-state partnership designed to partially replace lost 
earnings of individuals who become unemployed through no fault of their 
own and to stabilize the economy in times of economic downturn. The UI 
program paid about $30 billion in benefits in calendar year 2001 to 
workers who lost their jobs. The health of each state's UI program 
depends, in part, on the ability of the state to control its benefit 
payments by accurately determining individuals' eligibility for UI 
benefits in a timely manner. Inaccurate or untimely eligibility 
information may contribute to overpayments and fraud.
    Reports from Labor's Office of Inspector General (OIG) and others 
have identified numerous aspects of the UI program that may be 
vulnerable to overpayments and fraud. Today, I will be providing 
information from our draft report that we have provided to Labor for 
its comment on our findings, conclusions, and recommendations. Our 
report is due to be issued in July 2002. I will discuss (1) the extent 
and type of overpayments in the UI program, including those that may be 
attributable to fraud or abuse; (2) the factors that contribute to 
overpayments in the UI program; and (3) the broader management issues 
that may affect the states' ability to effectively control their UI 
benefit payments.
    To address these issues, we reviewed internal Labor guidance and 
documentation, performance plans and reports, performance data, as well 
as overpayment data from Labor's Benefit Accuracy Measurement (BAM) and 
Benefit Payment Control (BPC) systems. In addition, we conducted in-
depth interviews with more than 100 management and line staff in 
Labor's headquarters and 6 regional offices, as well as UI officials in 
6 states--California, Colorado, Illinois, Maryland, Massachusetts, and 
New York.\1\ We selected these states based on numerous criteria, 
including performance data from the Department of Labor, size of their 
workforce, availability of overpayment detection and recovery tools, 
and geographic location. Finally, we spoke with other groups that are 
involved in unemployment insurance, such as employer representatives 
and the National Association of State Workforce Agencies.
---------------------------------------------------------------------------
    \1\ We also interviewed the Utah UI Director by telephone because 
this state has been utilizing some practices that other states could 
use to verify claimants' eligibility for UI benefits, such as on-line 
access to the Social Security Administration's State Online Query 
system to verify the validity of individuals' social security numbers.
---------------------------------------------------------------------------
    In summary, our work shows that of the $30 billion in UI benefits 
paid in calendar year 2001, Labor estimates that this includes about 
$2.4 billion in overpayments, including $560 million attributable to 
fraud or abuse. Labor's analysis also suggests that the states could 
have detected and/or recovered about $1.3 billion of the total 
overpayments given their current policies and procedures. Labor based 
these estimates on data from its quality assurance system, which 
involves an in-depth analysis of individual UI claims in each state. 
Labor's quality assurance data document numerous categories of 
overpayments, including individuals who work while receiving benefits, 
or misrepresent their identity. Other sources of overpayments include 
agency errors and inaccurate or untimely information provided by 
employers. Our work shows that management and operational practices at 
both the state and federal level contribute to overpayments in the UI 
program. At the state level, many states place a higher priority on 
quickly processing and paying UI claims than on taking the necessary 
steps to adequately verify claimants' initial and continued eligibility 
for UI benefits. As a result, we found that many states do not 
adequately verify information reported by claimants. At the federal 
level, we found that Labor's policies and directives emphasize quickly 
processing and paying claims, with only limited attention given to 
payment accuracy. While we recognize the importance of paying benefits 
to individuals in a timely manner, Labor's performance measurement 
system does not provide sufficient incentives and sanctions for states 
to balance the need for payment timeliness with the need for payment 
accuracy.
Background
    The UI program was established by Title III of the Social Security 
Act in 1935 and is a key component in ensuring the financial security 
of America's workforce. This complex program, which is administered 
jointly by the federal Department of Labor's Employment and Training 
Administration and the states, provides temporary cash benefits to 
workers who lose their jobs through no fault of their own. Labor is 
responsible for monitoring state operations and procedures, providing 
technical assistance and training, as well as analyzing UI program data 
to diagnose potential problems. Although Labor provides oversight and 
guidance to ensure that each state operates its program in a manner 
that is consistent with federal guidelines, primary responsibility for 
administering the program lies with the states.
    State claims representatives determine claimants' eligibility for 
UI benefits by gathering essential information, such as their identity, 
employment history, and other sources of income they may have. To 
enhance the efficiency and cost-effectiveness of their UI systems, many 
states have established centralized service centers that allow 
claimants to apply for benefits by telephone, fax, or the Internet, 
rather than in person at a local office. To be eligible for UI benefits 
in most states, claimants must (1) have worked for a specified amount 
of time in a job that is covered by the unemployment insurance program; 
(2) have left their prior jobs involuntarily (such as by employer 
layoff) or have quit their jobs for ``good cause''; (3) be currently 
``able and available'' for work, and, in most states, actively seeking 
work; (4) enroll in employment services or job training programs (in 
some states); and (5) be legally eligible to work--for example, 
noncitizens must be lawfully admitted to work in the United States, or 
lawfully present for other reasons. States are generally expected to 
provide benefits to the claimant within 14 to 35 days of application.
    The UI program is funded through federal and state taxes levied on 
employers. States' taxes pay the actual unemployment insurance 
benefits, whereas administrative costs are generally financed through 
the federal tax. Labor holds these funds in the Unemployment Trust Fund 
of the U.S. Treasury. To obtain annual funding from Labor to administer 
their programs, states submit a request via their annual State Quality 
Service Plan (SQSP). Labor reviews each state's plan and makes 
adjustments in funding as necessary. In fiscal year 2001, Labor 
provided about $2.3 billion to states to administer their programs.
    To ensure UI program integrity, Labor funds two principal kinds of 
activities for detecting and measuring UI overpayments at the state 
level--Benefit Payment Control and Benefit Accuracy Measurement. Each 
state is required to operate a benefit payment control division that is 
responsible for detecting and recovering overpayments. Each state is 
required to report overpayment data to Labor on a quarterly basis. By 
contrast, Labor's benefit accuracy measurement data is an estimate of 
the total overpayments in the UI program--in each state and the nation 
as a whole--based on an examination of a sample of paid and denied 
claims. Benefit accuracy measurement is one of the main quality 
assurance systems that Labor uses to assess payment accuracy in the 
program.
More Than $2 Billion in Overpayments Detected in 2001
    Labor's data show that of the $2.4 billion in estimated 
overpayments about $1.3 billion could have been detected and/or 
recovered by the states in 2001 given their existing policies and 
procedures.\2\ In contrast, the states reported that $650 million in 
overpayments were made in 2001, of which $370 million was actually 
recovered. The difference in the overpayment figures produced by the 
two systems can be attributed to the fact that Labor's quality 
assurance estimate is based on a more comprehensive examination of 
individual UI claims than the states' benefit payment control 
activities can generally produce. Our analysis suggests that Labor's 
quality assurance system estimate is a more complete assessment of the 
true level of overpayments in the UI program, partly because the system 
provides a more in-depth review of individual UI cases and causes of 
payment errors. We are currently in the process of verifying the 
precision of these estimates.\3\
---------------------------------------------------------------------------
    \2\ These estimates are based on preliminary data from Labor 
available at the time of our review.
    \3\ We have not yet been able to obtain data on confidence 
intervals, so we are unsure of the precision of these estimates.

Overpayments Have Changed Little During
the Last 10 Years

    Over the past 10 years, the annual overpayment rate estimated by 
Labor's quality assurance system has remained fairly constant as a 
percentage of total benefits paid--ranging from a low of 7.9 percent in 
2001 to 9.2 percent in 1999, and averaging about 8.4 percent during 
that period. Overpayments averaged about $1.8 billion per year and 
reached a high of $2.4 billion in 2001. (See fig. 1.)

 Figure 1: Overpayments Estimated by Labor's Quality Assurance System, 
                              1992 to 2001
[GRAPHIC] [TIFF OMITTED] 82682B.002

        Source: Department of Labor quality assurance data.

    The overpayments estimated by Labor's quality assurance data occur 
for a number of reasons. Some overpayments result from errors in 
claimants' reporting or the state agency's recording of important 
eligibility information, such as wages or other sources of income that 
a claimant obtained while receiving UI benefits (``benefit year 
earnings'' or ``base period wages''). Overpayments also occur because 
claimants are not able and/or available to work, fail to register for 
employment services as required by their state, or fail to look for a 
new job as required (``eligibility'' violations). Claimants may also be 
overpaid because they become unemployed for reasons not covered by 
state law--such as being fired (``separation'' issues). Finally, 
overpayments may occur due to erroneous reporting or recording of a 
claimant's dependent information (``dependency'' issues), or other 
causes such as reversal of benefits paid due to an appeals decision 
(``other'' causes). (See fig. 2.) The quality assurance data also 
classifies overpayments as being ``fraud'' or ``nonfraud.'' Fraud can 
occur when claimants intentionally misrepresent eligibility 
information, employers file fraudulent claims, or state UI program 
personnel misuse their access to sensitive information. Of the total 
overpayments estimated by Labor in 2001, about $560 million (24 
percent) were attributed to fraud. Of this amount, about $313 million 
(56 percent) were due to unreported earnings. However, we found that 
the states differ substantially in how they define fraud. For example, 
some states may include overpayments resulting from unreported earnings 
such as fraud, while other states do not. Thus, state-to-state 
comparisons of the level of fraud in the UI program and the activities 
that constitute fraud are difficult to make.

   Figure 2: Categories of $2.4 Billion in Overpayments Estimated by 
                Labor's Quality Assurance System (2001)
[GRAPHIC] [TIFF OMITTED] 82682A.001

        Note: Numbers in parentheses are in millions of dollars.
        Source: Labor's quality assurance data.

    Although some categories of overpayments are more difficult than 
others to detect or recover, Labor's analysis suggests that the states 
could have detected and recovered about $1.3 billion of the $2.4 
billion in estimated overpayments in 2001. In particular, Labor's data 
show that existing state processes and procedures could have detected 
more overpayments attributable to unreported recipient income and wages 
and payments to individuals who are not entitled to UI benefits due to 
the circumstances under which they became unemployed. Labor's analysis 
also suggests that other types of overpayments are likely to be 
detected by most states given their current policies and procedures. 
These include income from social security programs, unreported vacation 
or severance pay, and illegal aliens claiming benefits. Furthermore, 
Labor's analysis showed that a substantial proportion of the 
overpayments detected by the states could be recovered using commonly 
available procedures, such as offsetting claimants' current and future 
benefits, and intercepting other sources of income, such as state tax 
refunds. Labor determined that the remaining $1.1 billion in estimated 
overpayments could probably not be detected or recovered by the states 
due to limitations in their existing policies and procedures. For 
example, overpayments caused by state agency errors are generally not 
pursued for recovery.
LLabor's Quality Assurance System Data Provide a More Complete 
        Representation of UI Overpayments
    In contrast to Labor's quality assurance overpayment estimate, the 
states' benefit payment control systems reported about $650 million in 
overpayments in 2001, of which about $370 million was recovered. Based 
on our analysis as well as analysis performed by Labor's Division of 
Performance Management, we believe that Labor's quality assurance 
system data represent a more complete assessment of the true level of 
UI overpayments than the benefit payment control figure reported by the 
states. In particular, the quality assurance system is able to estimate 
all the potential overpayments that have occurred in each state's UI 
program because it is based on a statistically valid sample of UI 
claims from each state. Moreover, quality assurance investigators are 
able to conduct a more detailed, comprehensive analysis of each case 
reviewed than is typically possible for most states' benefit payment 
control operations. For example, investigators are generally able to 
spend more time verifying the accuracy of the claims information by 
personally contacting employers, claimants, and third parties. They 
also typically commit between 5 and 8 hours examining a single case, 
allowing for a more in-depth review of a claimant's eligibility. By 
contrast, the states' benefit payment control activities are often 
affected by factors that limit their ability to detect and/or recover 
overpayments. These factors include (1) limited staffing and funding 
and (2) a lack of access to timely data sources. Moreover, benefit 
payment control personnel are required to quickly examine thousands of 
cases to identify overpayments, thus potentially limiting their ability 
to thoroughly review cases for payment accuracy.
LOverpayments Caused by Management and Operational Practices at the 
        State and Federal Level
    We identified various management and operational practices at both 
the federal and state level that contribute to UI overpayments. In 
particular, both Labor and the states tend to place primary emphasis on 
quickly processing and paying UI claims and may not sufficiently 
balance the need to make timely payments with ensuring payment 
accuracy. While we recognize the importance of providing UI benefits in 
a timely manner to individuals who are unemployed, our work suggests 
that Labor and the states do not always take the necessary steps to 
adequately verify claimants' initial and continuing eligibility for 
benefits. While some of the states we visited use automated data 
sources to determine if claimants are working or obtaining other 
benefits while receiving UI, others rely heavily on self-reported 
information from claimants to make payment decisions. In addition, we 
found that Labor's performance measures generally emphasize payment 
timeliness at the expense of payment accuracy. Moreover, Labor has been 
reluctant to link the states' performance on payment accuracy to the 
annual administrative funding process as a way of holding states 
accountable for performance. Despite these problems, we found that 
Labor is taking some actions to improve UI program integrity, such as 
working to help states obtain automated data sources essential to 
making more accurate and timely eligibility decisions.
LStates Do Not Always Balance Need for Payment Timeliness with Payment 
        Accuracy
    The emphasis that an agency places on critical program activities 
can be measured, in part, by the level of staff and other resources 
devoted to those activities. Consistent with stated program objectives, 
most of the states we visited place a primary emphasis on quickly 
processing and paying UI claims, but do not always balance this focus 
with adequate attention to program integrity. In particular, we found 
that program managers commonly moved staff assigned to program 
integrity activities (such as benefit payment control) to claims 
processing positions in response to increases in the number of UI 
claims being filed. For example, one state was using only 4 of the 16 
positions (25 percent) it was allotted by Labor for benefit payment 
control. Only one of the six states we visited was fully staffing its 
benefit payment control operations. The remaining states had 
transferred staff into other positions, including claims processing. 
Another state stopped drawing its quality assurance sample for a period 
of time and moved staff responsible for these operations into claims 
processing positions when unemployment claims increased during the 
third quarter of 2001.\4\ Many federal and state officials we 
interviewed told us that states move staff into claims processing roles 
from other positions because they lack funding to properly administer 
all the necessary activities of their UI programs.
---------------------------------------------------------------------------
    \4\ Several state officials told us that the number of UI claims 
have increased since the terrorist attacks of September 11, 2001, and 
have forced them to move staff resources from benefit payment control 
or benefit accuracy measurement activities into claims taking 
positions.
---------------------------------------------------------------------------
LStates Vary in Their Use of Automation to Independently Verify 
        Claimants' Information
    While states differed in the level of staff and resources devoted 
to program integrity activities, we also found variation in the 
processes and tools they used to verify information that could affect a 
claimant's eligibility for UI benefits, such as identity, alien status, 
wages, employment status, or receipt of other federal or state 
benefits. All of the states we visited conduct basic computer matches 
that detect potential UI overpayments due to unreported earnings. For 
example, each state regularly conducts a ``Wage/Benefit Crossmatch'' 
that compares the database of UI claimants with the state's database of 
individuals' wages to identify UI recipients who may have unreported 
income in the same state in which they are receiving UI benefits. 
However, because state wage data are only available quarterly, the 
crossmatch relies on information that may be several months old by the 
time the match is conducted. This delay allows some overpayments to 
remain undetected for a long period of time. Officials at Labor and in 
some states emphasized that overpayments are more likely to be 
recovered if they can be detected quickly. States generally recover a 
substantial proportion of the overpayments they detect by offsetting a 
claimant's current and future UI benefits. However, UI benefits tend to 
be paid out over a relatively short period of time--about 14 weeks on 
average--and overpayment detection and recovery activities may begin 
long after individuals leave the UI rolls. This inability to obtain 
timely eligibility information places the program at substantial risk 
for overpayments that may never be recovered.
    More timely sources of data than the ``Wage/Benefit Crossmatch'' 
exist to verify a claimant's employment status. State new hires data 
can provide information on individuals' current employment status.\5\ 
States that use this data source have reported that it is helpful in 
detecting overpayments more quickly. However, we found that the new 
hires data are not routinely used in all states. Two of the six states 
we visited do not currently use their new hires data to verify 
claimants' earnings or employment status.\6\ Yet, one of the states we 
visited reported that because the new hires data detect overpayments 
earlier than other detection methods, the size of its average 
overpayment at the time of detection has been reduced by nearly 75 
percent, from about $2,800 to roughly $750. Labor's OIG has identified 
the new hire database as a potentially useful tool for detecting 
overpayments resulting from unreported income, which represents a 
substantial portion of the total UI overpayments each year.\7\ Although 
Labor has encouraged each state to use its own new hires database for 
purposes of administering their UI program, a number of states 
nationwide still do not use it.
---------------------------------------------------------------------------
    \5\ Each state is required to maintain a database of individuals 
who were recently hired to help state child support enforcement 
agencies locate non-custodial parents who owe child support payments.
    \6\ All states were required to create a state directory of newly 
hired employees as part of the Personal Responsibility and Work 
Opportunity Reconciliation Act of 1996. Each state's directory 
periodically reports state unemployment insurance, wage and new hires 
data to the National Directory of New Hires for purposes of locating 
noncustodial parents in other states who owe child support payments.
    \7\ See the U.S. Department of Labor, Office of Inspector General, 
Unemployment Insurance Integrity: Fraud and Vulnerabilities in the 
System (1P-03-315-0001-PE) March 31, 1999.
---------------------------------------------------------------------------
    While the states' directory of new hires data are useful for 
verifying claimants' employment status, a main limitation is that they 
only identify this information for claimants within a given state. To 
detect unreported or underreported wages in other states, some states 
also use an ``Interstate Crossmatch'' that is facilitated by Labor.\8\ 
However, this match also typically relies on wage data that are about 4 
to 6 months old. Another type of match called the ``Interstate 
Inquiry'' allows states to check a claimant's UI and employment status 
in other states. However, this system can generally only be used to 
check individual claimants and is not designed to verify the status of 
large numbers of claimants simultaneously.
---------------------------------------------------------------------------
    \8\ This match is conducted using Labor's Interstate Connection 
Network.
---------------------------------------------------------------------------
    To enhance the ability of states to verify the status of claimants 
who could be working or receiving UI benefits in other states, many 
officials we spoke with advocated giving states access to the Office of 
Child Support Enforcement's National Directory of New Hires (NDNH). The 
NDNH is a comprehensive source of unemployment insurance, wage, and new 
hires data for the whole nation. However, current law limits access to 
the NDNH and does not permit individual states to obtain data from it 
for purposes of verifying claimants' eligibility for UI.\9\ One 
possible alternative to the NDNH suggested by some officials for 
tracking interstate wages and UI benefit receipt is the Department of 
Labor's Wage Record Interchange System (WRIS). This system, which was 
developed in response to the Workforce Investment Act (WIA) of 1998, is 
a ``data clearinghouse'' that makes UI wage records available to states 
seeking employment and wage information on individuals in other 
states.\10\ Certain federal officials and others familiar with WRIS 
told us that with some modification--such as incorporating the more 
timely new hires data from the states--WRIS could be a logical 
alternative to the NDNH because the computer network for sharing data 
among the states already exists. However, WRIS currently lacks 
important pieces of information (such as states' new hires data) that 
would make it most useful as an interstate verification tool. Moreover, 
in a recent report, we noted that some states have been reluctant to 
become involved with WRIS, partly because of concerns about the cost of 
administering the system.\11\ Furthermore, we noted that if not all 
states participate, the value of WRIS will be diminished--even for 
participating states--because no data will be available from 
nonparticipating states' UI wage records.
---------------------------------------------------------------------------
    \9\ See 42 U.S.C. 653 (l).
    \10\ WRIS helps participating states track the employment status of 
individuals who have participated in WIA job training programs in other 
states.
    \11\ Labor agreed to fund WRIS for the first year of its operation, 
but has not committed to funding future years. The estimated annual 
cost of administering the system is $2 million. See Workforce 
Investment Act: Improvements Needed in Performance Measures to Provide 
a More Accurate Picture of WIA's Effectiveness, GAO-02-275, 
(Washington, D.C.: Feb. 1, 2002).
---------------------------------------------------------------------------
LSome States May Not Verify Claimants' Receipt of Other Programs' 
        Benefits
    Claimants' eligibility for UI benefits may be affected if they are 
receiving benefits from other state or federal programs. For example, 
claimants in some states are ineligible for UI benefits, or they may 
receive reduced benefits if they are receiving workers' compensation. 
Overpayments can occur if claimants do not accurately report the 
existence or amount of such benefits when they apply for UI, or if the 
state employment security agency fails to verify the information in a 
timely manner.\12\ Only two of the six states we visited verify 
claimants' receipt of workers' compensation using independent sources 
of information. Moreover, at least one of these states only checks for 
receipt of workers' compensation if the claimant self-reports that they 
are currently receiving such benefits. Similarly, receipt of some 
federal benefits such as cash payments from Social Security programs 
may affect a UI claimant's eligibility for or amount of benefits.\13\ 
For example, one state we visited requires claims representatives to 
ask claimants if they are currently receiving Social Security 
Disability Insurance (DI), which could reduce or eliminate the UI 
benefits they are eligible to receive. However, if a claimant states 
that he or she is not receiving DI benefits, then no further actions 
are taken to independently verify this information. Labor's quality 
assurance data estimate that in 2001, about $30 million in UI 
overpayments were due to unreported social security benefits, such as 
DI.
---------------------------------------------------------------------------
    \12\ State laws differ from one another in terms of how benefits 
that are received from other federal or state programs affect 
claimants' eligibility for UI benefits.
    \13\ The Social Security Administration is responsible for 
administering programs including the Old Age and Survivors Insurance, 
Supplemental Security Income, and Disability Insurance.
---------------------------------------------------------------------------
LSome States Fail to Adequately Verify Claimants' Identity and Whether 
        They Are Legal Residents
    To ensure that UI benefits are paid only to individuals who are 
eligible to receive them, it is important that states verify claimants' 
identity and whether they are legal residents.\14\ However, states may 
be vulnerable to fraud and overpayments because they rely heavily on 
claimants to self-report important identity information such as their 
social security number (SSN), or are unable to verify such information 
in a timely manner. Prior investigations by Labor's OIG demonstrate 
that the failure or inability of state employment security agencies to 
verify claimants' identity have likely contributed to millions of 
dollars in UI overpayments stemming from fraud. One audit conducted in 
four states (Florida, Georgia, North Carolina, and Texas) revealed that 
almost 3,000 UI claims totaling about $3.2 million were paid to 
individuals using SSNs that did not exist, or belonged to deceased 
individuals. Furthermore, the OIG concluded that illegal aliens filed a 
substantial proportion of these claims.\15\
---------------------------------------------------------------------------
    \14\ Although some categories of noncitizens may be eligible for UI 
benefits, such as those authorized to work in the United States at the 
time they apply for benefits, others, including illegal aliens, are 
not. See Federal Unemployment Tax Act 3304 Section (a)(14)(A).
    \15\ See Department of Labor Office of Inspector General, 
Verification of Social Security Numbers Could Prevent Unemployment 
Insurance Payments to Illegal Aliens, 04-98-001-03-315, March 2, 1998.
---------------------------------------------------------------------------
    We found that vulnerabilities remain with regard to verifying 
claimants' identity and citizenship status. For example, none of the 
six states we visited have access to the Social Security 
Administration's (SSA) State Online Query (SOLQ) system, which can be 
used to verify the identity of claimants applying for UI by matching 
their name, date of birth, and SSN in real time. At the time of our 
review, only two states had access to this system because they were 
participating in a pilot project with SSA. The states we visited 
generally use a batch file method in which large numbers of SSNs are 
periodically sent to SSA for verification.\16\ This process tends to be 
less timely than online access for verifying claimants' initial 
eligibility for benefits. One state we visited reported that it does 
not perform any verification of the SSNs that UI claimants submit 
because a prior system it used for verifying SSNs identified only a 
small number of potential violations. In addition, all six states we 
visited rely mainly on claimants to accurately self-report their 
citizenship status when they first apply for UI benefits. State 
officials told us that they generally do not verify this information 
with the Immigration and Naturalization Service (INS) unless the 
claimant states that he or she is a noncitizen. Labor estimates that 
about $30 million in overpayments in 2001 were due to illegal alien 
violations.
---------------------------------------------------------------------------
    \16\ States report sending SSNs to SSA for verification in 
intervals ranging from daily to once per quarter (every 3 months).
---------------------------------------------------------------------------
    Even if individuals do not misrepresent their identity or 
citizenship status to illegally obtain UI benefits, the potential for 
fraud and abuse may still exist. For example, one state we visited 
revealed that they, along with a bordering state, identified nine SSNs 
that are currently being illegally used by multiple individuals as 
proof of eligibility for employment. Upon further investigation, we 
determined that these SSNs are being used by approximately 700 
individuals in at least 29 states, and that seven of the SSNs belonged 
to deceased individuals. Although we did not find any instances in 
which UI benefits were obtained by those individuals earning wages 
under these numbers, both state and federal officials agreed that the 
potential for these individuals to fraudulently apply for and receive 
UI benefits in the future was possible. At the Subcommittee's request, 
our Office of Special Investigations is currently investigating the use 
of these SSNs. Initial indications are that the individuals involved 
are illegal aliens.
LStates May Not Receive Timely Information from Employers
    To varying degrees, officials from all of the six states we visited 
told us that employers or their agents do not always comply in a timely 
manner with state requests for information needed to determine a 
claimant's eligibility for UI benefits. For example, one state UI 
Director reported that about 75 percent of employers fail to respond to 
requests for wage information in a timely manner. In addition, a Labor 
OIG audit conducted between 1996 and 1998 revealed that 22 out of 53 
states experienced a nonresponse rate of 25 percent or higher for wage 
requests sent to employers.\17\ A more in-depth review of seven states 
in this audit also showed that $17 million in overpayments occurred in 
four of the states because employers did not respond to the states' 
request for wage information. We discussed these issues with an 
official from a national employer representative organization who told 
us that some employers may resist requests to fill out paperwork from 
states because they view the process as cumbersome, time-consuming, and 
cannot always see how fraud and UI overpayments can affect their tax 
rate. In particular, because employers are unlikely to experience an 
immediate increase in the UI taxes they pay to the state as a direct 
result of overpayments, they do not see the benefit in complying with 
state requests for wage data in a timely manner. Although Labor has 
taken some limited actions to address this issue, our work to date 
shows that failure of employers to respond to requests for information 
in a timely manner is still a problem.\18\
---------------------------------------------------------------------------
    \17\ See U.S. Department of Labor, Office of Inspector General, 
Examination of UI Benefit/Wage Crossmatch and Analysis of Employers Who 
Fail to Respond to the States' Requests for Weekly Wage Data (05-99-
005-03-315) March 1999.
    \18\ Labor recently funded a grant to one state to facilitate more 
effective coordination and cooperation between the state and its 
employers. As a result of its actions, this state reported that about 
80 percent of the state's employers comply with state requests for 
information in a timely manner.
---------------------------------------------------------------------------
LStates Vary in Their Ability To Recover Overpayments
    While most states recover a large proportion of their overpayments 
by offsetting claimants' current or future benefits, some of the states 
we visited have additional overpayment recovery tools for individuals 
who are no longer receiving UI. These tools include state tax refund 
offset, wage garnishment, and use of private collection agencies.\19\ 
Some of these procedures, such as the state tax refund offset, are 
viewed as particularly effective. For example, one state reported 
overpayment collections of about $11 million annually between 1998 and 
2000 resulting from this process. Other states have increased 
overpayment collections by allowing more aggressive criminal penalties 
for individuals who are suspected of UI fraud. For example, one state 
prosecutes UI fraud cases that exceed a minimum threshold as felonies 
instead of misdemeanors. Officials in this state told us that the 
threat of imprisonment often encourages claimants suspected of fraud to 
make restitution for UI overpayments. According to state officials, 
this initiative resulted in $37 million in additional overpayment 
collections in calendar years 2000 and 2001. However, other states we 
visited lacked many of these tools. For example, one state relied 
primarily on offsets against current UI claims to recover overpayments 
because its laws and policies did not permit the use of many of the 
tools that other states have found to be effective for collecting 
overpayments from individuals who have left the UI rolls.
---------------------------------------------------------------------------
    \19\ For UI claimants who have outstanding overpayments, the state 
tax refund offset allows a state to intercept the individual's state 
tax refund to recover an overpayment; wage garnishment allows the state 
to recover UI overpayments from an individual's paycheck when they 
return to work; and private collection agencies can pursue overpayments 
when the state has been unsuccessful in recovering using its existing 
collection procedures.
---------------------------------------------------------------------------
Labor's Management Places Insufficient Emphasis on Program Integrity
    In general, Labor's approach to managing the UI program has 
emphasized quickly processing and paying UI claims, with only limited 
attention to overpayment prevention, detection, and collection. This 
approach is most evident in the priorities that are emphasized in 
Labor's recent annual performance plans, the UI program's performance 
measurement system, and the limited use of quality assurance data to 
correct vulnerabilities in states' UI operations. For example, Labor's 
recent annual performance plans required under the Government 
Performance and Results Act of 1993 have not included strategies or 
goals to improve payment accuracy in state UI programs. In addition, we 
found that Labor's system for measuring and improving UI program 
performance is primarily geared to assess the timeliness of various 
state operations.\20\ Most of the first 12 performance measures (called 
``Tier I'') assess whether states meet specified timeframes for certain 
activities, such as the percentage of first payments made to claimants 
within 14 to 35 days. However, none of the Tier I measures gauge the 
accuracy of UI payments. Labor also gives Tier I measures more weight 
than the remaining measures (called ``Tier II''), which assess other 
aspects of state performance, including overpayment collections. Labor 
has developed national criteria specifying the minimum acceptable level 
of performance for most Tier I measures.\21\ States that fail to meet 
the minimum established criteria are generally required to submit a 
``Corrective Action Plan'' to Labor. Moreover, Labor has indicated that 
it may withhold the administrative funding of states that continually 
do not meet Tier I performance goals. By contrast, the Tier II measures 
do not have national minimum performance criteria and are generally not 
enforced as strictly by Labor. Labor could set Tier II criteria on a 
state-by-state basis and withhold funding in case of subsequent 
noncompliance.
---------------------------------------------------------------------------
    \20\ This system, called ``UI Performs,'' was developed with input 
and coordination from the states. The system incorporates more than 70 
performance measures to gauge states' performance, including the 
timeliness, quality, and accuracy of benefit decisions.
    \21\ The national minimum performance criteria are performance 
measures that are applied uniformly to all states.
---------------------------------------------------------------------------
    Officials from most of the states we visited also told us that the 
Tier I and Tier II measures make the UI program complex to administer 
and may contribute to an environment in which overpayments are more 
likely. In particular, these officials told us that because the 
measures are so numerous and are designed to monitor a wide range of 
activities, it is difficult to place sufficient emphasis on more 
fundamental management issues, such as payment accuracy. There are 
currently more than 70 Tier I and Tier II measures that gauge how 
states perform in terms of the timeliness, quality, and accuracy of 
benefit decisions. Faced with competing priorities, some states tend to 
focus most of their staff and resources on meeting certain measures 
such as payment timeliness, but may neglect other activities such as 
those dealing with program integrity.
    We believe, however, that Labor can do more to encourage states to 
balance payment timeliness with the need for payment accuracy in a 
manner that does not require the complete withholding of administrative 
funds. For example, under federal regulations covering funds to states, 
Labor may temporarily withhold cash payments, disallow costs, or 
terminate part of a state's administrative funding due to noncompliance 
with grant agreements or statutes.\22\ Withholding or delaying a 
portion of these funds is one way Labor can potentially persuade states 
to implement basic payment control policies and procedures. In 
addition, while completing the annual budget process, Labor could 
prioritize additional administrative funding to states to help them 
achieve or surpass agreed upon payment accuracy performance levels.\23\ 
However, we found that Labor is only using such tools to a limited 
degree to help states enhance their program integrity activities.
---------------------------------------------------------------------------
    \22\ See 29 C.F.R. 97.43.
    \23\ See 20 C.F.R. 601.6.
---------------------------------------------------------------------------
LLabor Has Not Fully Utilized Its Quality Assurance Data to Improve 
        State Operations
    Labor has also been reluctant to use its quality assurance data as 
a management tool to encourage states to place greater emphasis on 
program integrity. According to an internal agency performance report 
and Labor officials, quality assurance data should be used to identify 
vulnerabilities in state program operations, measure the effectiveness 
of efforts to address these vulnerabilities, and help states develop 
mechanisms that prevent overpayments from occurring.\24\ However, as 
currently administered, Labor's quality assurance system does not 
achieve all of these objectives. In particular, Labor lacks an 
effective mechanism to link its quality assurance data with specific 
improvements that are needed in states' operations. For example, over 
the last decade, payment errors due to unreported income have 
consistently represented between 20 and 30 percent of annual UI 
overpayments. While Labor's quality assurance system has repeatedly 
identified income reporting as a vulnerable area, it has not always 
played an active role in helping states develop specific strategies for 
improving their performance in this area. Of particular concern to us 
is that the overpayment rate for the nation has shown little 
improvement over the last 10 years. This suggests that Labor and some 
of the states are not adequately using quality assurance data to 
address program policies and procedures that allow overpayments to 
occur.
---------------------------------------------------------------------------
    \24\ See Department of Labor, Employment and Training 
Administration, UI Performs 2000 Annual Report, p.9.
---------------------------------------------------------------------------
Labor Gives Inadequate Attention to Overpayment Recoveries
    Finally, Labor has given limited attention to overpayment 
collections. Currently, Labor requires states to collect at least 55 
percent of all the overpayments they establish annually through their 
benefit payment control operations. This 55 percent performance target 
has not been modified since 1979 despite advancements in technology 
over the last decade, such as automatic state tax refund intercepts, 
that could make overpayment recovery more efficient. At the time of our 
review, only 34 out of 53 states met or exceeded the minimum standard 
of 55 percent. A small number of federal and state officials told us 
that states tend to devote the minimum possible resources to meet it 
each year. However, our work shows that Labor has not actively sought 
to improve overpayment collections by requiring states to incrementally 
increase the percentage of overpayments they recover each year.
Labor is Taking Actions To Improve Program Integrity
    At the time of our review, Labor was continuing to implement a 
series of actions to help states with the administration of their UI 
programs. For example, Labor is helping states use the Information 
Technology Support Center (ITSC) as a resource for states to obtain 
technical information and best practices for administering their UI 
programs.\25\
---------------------------------------------------------------------------
    \25\ ITSC is a collaborative effort involving the Department of 
Labor, state employment security agencies, private sector 
organizations, and the state of Maryland. It was created in 1994 to 
help states adopt more efficient, timely, and cost-effective service 
for their unemployment service claimants.
---------------------------------------------------------------------------
    Labor also provides technical assistance and training for state 
personnel, as well as coordination and support for periodic program 
integrity conferences. In its annual budget justification, Labor has 
requested a limited amount of funding for the states for program 
integrity purposes, such as $35 million in fiscal year 2001 for states 
to improve benefit overpayment detection and collection, eligibility 
reviews, and field tax audits. More recently, Labor has been developing 
a new payment accuracy indicator in its Annual Performance Plan for 
fiscal year 2003 for the states' UI programs that will establish a 
baseline measurement for benefit payment accuracy during 2002. Labor 
also plans to provide states with additional quality assurance data on 
the nature and cause of overpayments to help them better target areas 
of vulnerability and identify more effective means of preventing 
overpayments.
    At the time of our review, Labor was also developing a legislative 
proposal to give state employment security agencies access to the NDNH 
to verify UI claimants' employment and benefit status in other states. 
Our analysis suggests that use of this data source could potentially 
help states reduce their exposure to overpayments. For example, if the 
directory had been used by all states to detect claimants' unreported 
or underreported income, it could have helped prevent or detect 
hundreds of millions of dollars in overpayments in 2001 alone.\26\ In 
addition, Labor is working to develop an agreement with the Social 
Security Administration that would grant states access to SSA's SOLQ 
system. States that used this system would be able to more quickly 
validate the accuracy of each claimant's SSN and identity at the time 
of application for UI benefits.
---------------------------------------------------------------------------
    \26\ This assumes that the top two categories of overpayments 
(``benefit year earnings'' and ``base period wages'') were 
substantially reduced or eliminated by use of the NDNH.
---------------------------------------------------------------------------
Conclusions
    Despite the various efforts by Labor and some states to improve the 
integrity of the UI program, problems still exist. The vulnerabilities 
that we have identified are partly attributable to a management 
approach in Labor and many states that emphasizes quickly processing 
and paying UI claims without a similar focus on controlling program 
payments. While we recognize the importance of paying unemployed 
individuals in a timely manner, this approach has likely contributed to 
the consistently high level of overpayments over time, and as such, may 
have increased the burden placed on some state UI trust funds. As the 
number of UI claimants has risen over the last year, many states have 
felt pressured to quickly process and pay additional claims. The 
results of our work suggest that, in this environment, overpayments are 
not likely to abate and could increase.
    Labor is taking some steps to improve UI program integrity by 
helping enhance existing state operations, such as working to obtain 
access to important data sources. Our prior work suggests that using 
more front-end automated data sources to verify claimant eligibility 
before overpayments are made is a more efficient method of protecting 
program funds than trying to recover overpayments after they have 
occurred. In the case of the UI program, access to data sources such as 
the NDNH or WRIS could help states reduce overpayments caused by 
unreported income, which accounts for more than one-third of the 
overpayments in 2001. However, absent a change in the current approach 
to managing the UI program at both the federal and state level, it is 
unlikely that the deficiencies we identified will be sufficiently 
addressed. In particular, without more active involvement from Labor in 
emphasizing the need to balance payment timeliness with payment 
accuracy, states may be reluctant to implement needed changes in their 
management philosophy and operations. With increased emphasis on 
payment accuracy, Labor's system of performance measures could help 
encourage states to place a higher priority on program integrity 
activities. Moreover, an effective strategy to help states control 
benefit payments will also require use of its quality assurance data to 
identify areas for improvement and work with the states to implement 
changes to policies and procedures that allow overpayments to occur. 
However, Labor must be willing to link state performance in the area of 
program integrity to tangible incentives and disincentives, such as 
through the annual administrative funding process. Ultimately, a 
coordinated effort between Labor and the states is needed to address 
the weaknesses we have identified and reduce the program's exposure to 
improper payments. Without such an effort, Labor risks continuing the 
policies and procedures that have contributed to consistently high 
levels of UI overpayments over the last decade.
    Mr. Chairman, this concludes my prepared statement. I will be happy 
to respond to any questions you or other members of the Subcommittee 
may have.
GAO Contact and Staff Acknowledgments
    For information regarding this testimony, please contact Sigurd R. 
Nilsen, Director, Education, Workforce, and Income Security Issues, at 
(202) 512-7215. Individuals who made key contributions to this 
testimony include Daniel Bertoni, Jeremy Cox, Cheryn Powell, and 
Salvatore Sorbello.
Related GAO Products
    Workforce Investment Act: Improvements Needed in Performance 
Measures to Provide a More Accurate Picture of WIA's Effectiveness. 
GAO-02-275 Washington, D.C.: February 1, 2002.
    Strategies to Manage Improper Payments: Learning from Public and 
Private Sector Organizations. GAO-02-69G. Washington, D.C.: October 
2001.
    Department of Labor: Status of Achieving Key Outcomes and 
Addressing Major Management Challenges. GAO-01-779. Washington, D.C.: 
June 15, 2001.
    Unemployment Insurance: Role as Safety Net for Low-Wage Workers is 
Limited. GAO-01-181. Washington, D.C.: December 29, 2000.
    Benefit and Loan Programs: Improved Data Sharing Could Enhance 
Program Integrity. GAO/HEHS-00-119. Washington, D.C.: September 13, 
2000.
    Supplemental Security Income: Action Needed on Long-Standing 
Problems Affecting Program Integrity. GAO/HEHS-98-158. Washington, 
D.C.: September 14, 1998.
    Supplemental Security Income: Opportunities Exist for Improving 
Payment Accuracy. GAO/HEHS-98-75. Washington, D.C.: March 27, 1998.
    Supplemental Security Income: Administrative and Program Savings 
Possible by Directly Accessing State Data. GAO/HEHS-96-163. Washington, 
D.C.: August 29, 1996.

                               <F-dash>

    Chairman HERGER. Thank you, Dr. Nilsen. Now, Mr. Heddell 
will testify.

STATEMENT OF HON. GORDON S. HEDDELL, INSPECTOR GENERAL, OFFICE 
         OF INSPECTOR GENERAL, U.S. DEPARTMENT OF LABOR

    Mr. HEDDELL. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. Thank you for inviting me to testify today in 
my capacity as the Inspector General of the U.S. Department of 
Labor. I am pleased to discuss my office's assessment of the 
integrity of the Unemployment Insurance program.
    Preserving the integrity of the UI program has been a 
longstanding concern of the Office of Inspector General (OIG). 
Our investigative casework and audits show that the program 
remains vulnerable to fraud, waste, and abuse, which result in 
millions in losses to the UI trust fund. Based on this body of 
work, we believe that more can be done by the DOL to strengthen 
the integrity of the program.
    From an investigative perspective, we have focused on three 
types of unemployment insurance schemes involving fictitious or 
fraudulent employers, internal embezzlement, and identity 
theft.
    Mr. Chairman, a fictitious employer scheme involves the 
creation of a company that exists only on paper with no actual 
employees, business operations, or cash outlays for taxes. In 
many of these cases, the individuals will operate in multiple 
States and include family, friends, or others who have been 
recruited to assume false identities in order to collect UI 
benefits.
    Conversely, a fraudulent employer scheme usually involves a 
legitimate business with employees and valid business expenses. 
However, the employer actively engages in fraudulent activity, 
such as allowing non-employees to file claims against their 
company in exchange for a cut of the claimants' benefits.
    In one illustrative case, an individual used 13 fictitious 
companies and 36 fictitious claimants, using names and Social 
Security numbers of deceased persons, to collect over $135,000 
in UI benefits from California, $65,000 from Massachusetts, 
$16,000 from Nevada, and $15,000 from Texas.
    Another type of scheme involves fraud and embezzlement 
committed by State personnel who administer the UI program. 
These schemes vary in complexity. A simple fraud arrangement 
may be the acceptance of a payoff by a State employee in 
exchange for approving an unauthorized UI claim. These 
arrangements, however, can mushroom into operations involving 
multiple individuals when State employees work with outside 
employers to certify false employment information. An 
illustration involves a New Jersey State employee who defrauded 
the State of $325,000 over a 7-year period by sending false 
wage and employment information to local unemployment offices 
to verify the employment of as many as 30 co-conspirators. In 
return, he received half of his co-conspirators' UI benefit 
checks.
    Identity theft schemes are another means of defrauding the 
program. Under this type of scheme, individual identities are 
stolen to apply for UI benefits. In one case, a California man 
orchestrated and then used an identity theft scheme designed to 
obtain UI benefits by filing over 30 fraudulent claims totaling 
more than $130,000. The stolen identities were obtained from 
customer transaction receipts printed by a Los Angeles public 
employees' credit union.
    Mr. Chairman, in addition to these types of fraud schemes, 
there are internal control weaknesses and other vulnerabilities 
that impact the integrity of the UI system that we have 
identified. They include the DOL's ability to detect, recover, 
and reduce, overpayments; the misuse of administrative grant 
funds by States; the misclassification of workers and its 
impact on employers' payment of UI taxes; and the 
vulnerabilities created by telephone and Internet claims 
systems now in place by most States.
    With respect to overpayments, we are concerned that the BAM 
system, which uses statistical sampling techniques to project 
the total UI benefit overpayments made, is not being utilized 
to reduce the number of overpayments.
    In addition, we are concerned about the cross-matches 
conducted by States as part of their benefit payment control 
activities. States cross-match weekly UI benefit records with 
quarterly wage records in order to detect possible 
overpayments. An inherent weakness in this process is that 
States must rely on employers to provide detailed wage 
information. Our audit of seven States found that many 
employers failed to submit this information for a variety of 
reasons. As a consequence, we estimated $17 million in 
overpayments were not being detected in four of the seven 
States.
    Mr. Chairman, another area of concern involves the use of 
UI administrative grant funds, which are issued to the States 
for the cost of processing unemployment claims, collecting UI 
taxes, and other activities. In just three OIG audits, we 
questioned costs of nearly $20 million related to improper uses 
of these funds.
    Our work has also disclosed that not all employers 
voluntarily pay their fair share of UI taxes. Some employers 
intentionally misclassify their employees as independent 
contractors in order to hide the wages they pay out, or will 
utilize employee leasing companies in order to avoid paying 
benefits or taxes. Such activities result in lost contributions 
to State UI trust funds.
    Finally, we are concerned about the unintended consequences 
that remote claims filing may have on the integrity of the 
program. Based on our audits and investigative casework, the 
OIG has made several recommendations to the DOL and the 
Congress for strengthening and enhancing the integrity of the 
UI program. Among our recommendations is the need to grant the 
OIG and the DOL unimpeded access to unemployment insurance, 
Social Security, and new hire data for fraud detection and 
program evaluation purposes, to enhance fraud detection and 
investigative training for State personnel, and to improve the 
UI cross-match system for detecting overpayments.
    In conclusion, Mr. Chairman, my office will continue to 
provide oversight and conduct investigations to ensure that the 
UI program operates effectively and efficiently and that 
benefits go to only those who are eligible.
    This concludes my statement, and I would be pleased to 
answer any questions you or any other Subcommittee Members may 
have. Thank you.
    [The prepared statement of Mr. Heddell follows:]
 Statement of the Hon. Gordon S. Heddell, Inspector General, Office of 
              Inspector General, U.S. Department of Labor
    Good afternoon, Mr. Chairman and Members of the Subcommittee. Thank 
you for inviting me to testify today in my capacity as the Inspector 
General of the U.S. Department of Labor. I am pleased to discuss my 
Office's assessment of the integrity of the Unemployment Insurance (UI) 
program. The views I express this afternoon may not be representative 
of those of the Department.

             Administration and Oversight of the UI Program

    Mr. Chairman, as you know, the UI program is vital in ensuring the 
financial security of America's workforce. This multi-billion dollar 
entitlement program, administered through a unique Federal-State 
partnership, provides temporary financial assistance to workers who 
lose their jobs through no fault of their own. Benefits are paid out so 
long as workers meet certain eligibility requirements. Funding for 
these benefits comes from employer taxes deposited into the 
Unemployment Trust Fund. States are primarily responsible for the 
collection of these taxes and the payment of benefits through State 
Workforce Agencies (SWAs), while the Department is charged with 
ensuring that states comply with applicable laws and regulations, and 
with providing oversight, policy guidance, and technical assistance to 
the states.
    In addition to the Department, the OIG has certain oversight 
responsibilities regarding the UI program. Preserving the integrity of 
the UI program has been a long-standing concern of the OIG. Our 
investigative casework and audits show that the UI program remains 
vulnerable to fraud, waste and abuse, which result in millions in 
losses to the UI trust fund. We conduct periodic audits of the program 
that look at internal controls and program integrity, among others. We 
also engage in casework that identifies complex interstate UI fraud 
schemes, as well as single claimant fraud cases committed by federal 
employees or ex-military personnel. Based on this body of work, we 
believe that more can be done by the Department to strengthen the 
integrity of the UI program. We have highlighted UI program integrity 
as one of the top management issues facing the Department. Congress 
also recognized the importance of improving the integrity of the UI 
program in a 2001 report on Government mismanagement, as well as OMB in 
a report released last month on erroneous payments.

                      Fraud Against the UI Program

    As with any multi-billion dollar benefit payment program, the UI 
program is vulnerable to fraud and abuse. We have focused our UI 
investigative activities on three types of schemes: 1) fictitious or 
fraudulent employer schemes; 2) internal embezzlement schemes; and 3) 
identity theft or imposter schemes. I will elaborate on each of these 
areas.
Fictitious/Fraudulent Employer Schemes

    Mr. Chairman, a fictitious employer scheme involves creating a 
company that exists only on paper with no actual employees, business 
operations, cash outlays for taxes or any other normal business 
expenses. The intent is to have in place a company that is used to file 
fraudulent claims. In many of these cases, the individuals will operate 
in multiple states and include their family and friends, or individuals 
who have been recruited to assume false identities in order to collect 
UI benefits. Conversely, a fraudulent employer scheme usually involves 
a legitimate business with employees and valid business expenses. 
However, the employer actively engages in fraudulent activity such as 
laying off workers, only to return them to work under a cash system, or 
allowing non-employees to file claims against the company in exchange 
for part of the claimants' benefits. Unfortunately, mail, telephone, 
and Internet claims filing, which are designed to make the program run 
more effectively, can have the unintended effect of facilitating these 
types of schemes because they eliminate the need to fill out UI forms 
in person. In one case that is illustrative of how these schemes can 
result in significant losses to the UI program, an individual used 13 
fictitious companies and 36 fictitious claimants using names and Social 
Security numbers of deceased persons to collect over $135,000 from 
California, approximately $65,000 from Massachusetts, $16,000 from 
Nevada, and over $15,000 from Texas. The individual submitted 
fraudulent interstate UI claims based on false reported wages, and then 
collected the benefit checks from various locations based on claims 
filed by mail.
Internal Embezzlement Schemes

    Fraud and embezzlement of UI funds by state personnel who 
administer the program is another problem in the UI system. These 
schemes vary in complexity. A simple fraud scheme may be the acceptance 
of a payoff by a state UI employee in exchange for the approval of an 
unauthorized UI claim. These schemes, however, can mushroom into 
operations involving multiple individuals when state UI employees work 
with outside employers who certify false employment information. We 
believe that advanced technology, which has consolidated certain tasks 
into a single job that once had been handled by several people, has had 
the unintended effect of facilitating this type of fraud since it has 
eliminated certain controls by reducing the levels of peer review and 
supervisory oversight in UI offices. An illustration of this type of 
internal embezzlement involves a New Jersey state employee who sent 
false wage and employment information to local unemployment offices to 
verify the employment of as many as 30 co-conspirators. The scheme 
consisted of registering four fictitious companies with New Jersey for 
the purpose of ``employing'' his co-conspirators. The individual and 
his co-conspirators filed false UI applications claiming that they had 
been laid off from these companies and thus entitled to benefits. The 
state employee then verified their employment with UI offices and used 
a false name to disguise his involvement. In return, he received half 
of the co-conspirators' UI benefit checks.
Identity Theft or Imposter Schemes

    Fraud against this program has also been carried out through 
identity theft. Under this type of scheme, individual identities are 
stolen and then used to apply for UI benefits. Identity theft victims 
are usually unaware that someone is using their identity. 
Unfortunately, fraud detection in these cases is complicated because 
any preliminary fraud screening that may be done would disclose that 
the employer and employee actually exist. An example of how such a 
scheme can operate involves our investigation of a California man who 
orchestrated an identity theft scheme designed to obtain UI benefits by 
filing over 30 fraudulent claims totaling more than $130,000. The 
stolen identities were obtained from customer transaction receipts 
printed by a Los Angeles public employees' credit union. This credit 
union, like others, uses Social Security numbers as customer account 
numbers. Victims of the scheme included 18 Los Angeles City and two Los 
Angeles County employees. The individual used the UI system to create 
fictitious employers and had the benefit checks sent to his home. 
Assisted by his girlfriend, he would then deposit the fraudulent UI 
checks into bank accounts that he controlled.

Internal Control Weaknesses and Other Vulnerabilities in the UI Program

    Mr. Chairman, in addition to fraud schemes, there are a number of 
internal control weaknesses and other vulnerabilities that impact the 
integrity of the UI system. Over the years, OIG work has also 
identified weaknesses or vulnerabilities relative to: 1) overpayment 
detection, recovery and reduction; 2) misuse of administrative grant 
funds by states; 3) misclassification of workers and its impact on 
employers' payment of UI taxes; and 4) vulnerabilities created by 
telephone and Internet claims systems now in place by most states. In 
our opinion, these weaknesses can be compounded by the program's 
requirements that timely benefit payments be provided to unemployed 
workers.
Overpayment Detection, Recovery and Reduction

    With respect to overpayments, Mr. Chairman, the OIG is concerned 
about the efficiency and effectiveness of the Department's activities 
to detect, recover, and reduce UI benefit overpayments. The Department 
funds two systems that measure UI benefit overpayments. The Benefit 
Accuracy Measurement (BAM) system uses statistical sampling techniques 
to project the total UI benefit overpayments made. The Benefit Payment 
Control (BPC) system at each state identifies and investigates benefit 
overpayments, establishes receivables, and collects overpayments.
Benefit Accuracy Measurement System
    As part of our audit of the DOL FY 2001 financial statements, we 
noted that the BAM system projected overpayments of $2.3 billion for FY 
2001. For the same period, actual overpayments identified by BPC 
totaled $669 million, or just one-third of the amount estimated by BAM 
activities. We also noted that overpayment rates projected by BAM have 
remained relatively flat at approximately 8.5 percent over the past 12 
years. This raises a concern that the BAM system is not being utilized 
to reduce the amount of overpayments.
    To examine these seemingly divergent results more closely, the OIG 
is performing an audit of the Department's oversight role regarding UI 
benefit overpayments. Our ultimate objective is to assess BAM results 
and identify how the system can best be utilized to reduce the amount 
of overpayments.
Benefit Payment Control System
    As part of their BPC activities, states routinely conduct 
crossmatches to compare weekly UI benefit payment records with 
quarterly wage records reported by employers in order to detect 
possible overpayments. When claimants are identified with both UI 
benefits and wages for the same period, a potential UI overpayment case 
is developed. This has historically been the most effective overpayment 
detection tool used by the states. However, a 1999 audit we conducted 
of the crossmatch systems in seven states--Illinois, Texas, California, 
New Jersey, Maryland, Kentucky and Florida--showed inherent weaknesses 
in this fraud detection method. Foremost among these weaknesses was the 
failure of employers to respond to the states' requests for detailed 
wage information. This information is critical because it provides 
specific information as to how much the claimant earned on a weekly 
basis, which states can then use to determine if an overpayment has 
occurred. As a consequence, we estimated $17 million in overpayments 
were not being detected in four of the seven states we audited. Many 
employers failed to respond because they either misunderstood the 
purpose of the request or were confused over who should respond.
    To improve the UI benefit-wage crossmatch overpayment system, we 
recommended that:

        <bullet> LETA provide policy guidance and direction to the SWAs 
        to ensure that employers are reminded of their responsibility 
        to respond to wage requests, and that adequate follow-up 
        routinely occurs for those who fail to respond, particularly 
        those with the highest potential for overpayments.
        <bullet> LETA assume a leadership role in assuring that SWAs 
        obtain timely access to the data of the National Directory of 
        New Hires, established under the welfare reform legislation, 
        and to fully incorporate that data into UI Benefit Payment 
        Control operations.

ETA has agreed to take corrective action, and we will work with them to 
ensure that they implement our recommendations.
The Use of UI Administrative Grant Funds by States

    Mr. Chairman, another area of concern involves the use of UI 
administrative grant funds. These funds are issued to the states for 
the costs of processing unemployment claims, collecting UI taxes, and 
all necessary related activities. State funding is based on the cost of 
proper and efficient administration and such other factors as the 
Secretary deems appropriate. In just three audits, we identified 
questioned costs of nearly $20 million related to improper uses of UI 
administrative grant funds. Included in the amount of questioned costs 
we identified were unallowable charges for direct and indirect costs, 
overcharges for state automatic data processing and information 
technology central service costs, and un-allocable maintenance and 
operating expenses relating to building space occupied by non-SWA 
personnel. Amid SWA complaints that administrative funding is 
inadequate, the inefficiency identified by our audits points to the 
need for more careful use of current funding to allow more to be done 
to enhance quality control and other essential functions.
Misclassification of Workers and Lost Contributions to State UI Trust 
        Funds

    Our work has also disclosed that not all employers voluntarily pay 
their fair share of UI taxes. Some employers intentionally misclassify 
their employees as independent contractors in order to hide the wages 
they pay out in order to avoid paying benefits or taxes. Employee 
leasing companies are another method used to avoid paying taxes. These 
companies lease workers back to client firms, serving as the employer 
of record for purposes of UI tax payments and experience-rating 
calculations. Losses to UI trust funds occur when companies purchase an 
inactive or defunct company that has few or no employees and very low 
tax rates. Upon purchasing this ``shell'' company, the employee leasing 
company obtains that company's lower UI rate and transfers employees 
from other affiliated entities to the lower UI tax-rated shell company, 
thereby avoiding higher taxes. This undermines the state's experience 
rating system, which is designed to assess UI tax rates based on an 
individual employer's history of UI tax assessments paid, versus 
benefits charged.
    To combat these activities, SWAs rely on field audits to determine 
whether employers are reporting all UI-covered wages and paying their 
fair share of UI taxes. In March 1999, we reviewed the field audit 
practices of 12 states. We determined that if states adopted some of 
the best practices used by the top performing states, the 
identification of non-compliant employers could be improved. Among the 
best practices we found were: 1) selecting a significant percentage of 
employers based on Standard Industrial Classification codes that 
identify employers with the highest probability for non-compliance; and 
2) implementing a blocked claims audit program that encourages the 
conversion of field audit investigations into audits. In response to 
the latter recommendation, ETA revised its reporting instructions to 
permit states to take credit for blocked claims audits. As a result of 
our audit, almost $16 million in additional taxes have been recovered 
as a result of ETA's implementation of our recommended actions.
Telephone and Internet Claims Systems

    Over the last several years, almost all states have moved from 
traditional in-person claims services to telephone or Internet claims 
services, or both to improve the delivery of services. Shifting to 
remote claims filing via the telephone or Internet has reduced 
administrative costs for states, and users have cited the convenience, 
ease, and privacy it provides. However, we are concerned that as remote 
claims filing increases, the ability of states to monitor the integrity 
of the claims-filing process will be eliminated. Reducing or 
eliminating personal contacts during the initial claims filing process 
removes a first-line defense against fraud schemes. In addition, 
electronic claims filing effectively enlarges the potential universe of 
identity theft victims, and makes it easier to initiate multiple state 
schemes from a single location. We are concerned that this type of 
activity will only increase absent up-front identity or eligibility 
verification, or the implementation of proper controls and safeguards.

             Current and Future OIG Work in the UI Program

    Mr. Chairman, the OIG will continue to engage in proactive 
investigative casework, audits, and evaluations designed to improve the 
integrity of the UI program. The following is a brief description of 
our planned work in this area.
    In FY 2003, we plan to conduct a comprehensive, nationwide 
initiative to help safeguard the integrity of the UI program. Our 
initiative will focus on identifying systemic weaknesses that make the 
program vulnerable to fraud and overpayments; identifying and 
disseminating information on best practices used by the states to 
detect fraud; and determining if UI administrative funding is used to 
its maximum effect. Specifically, we will continue to expand our 
investigative efforts to detect and investigate interstate, fraudulent 
employer schemes used to defraud the program. We will also continue to 
audit the Department's oversight role regarding UI benefit 
overpayments, and will follow up on our earlier audits that highlighted 
excessive charges by the Treasury Department to the UI trust fund to 
pay for the IRS' costs of administering the fund. Finally, we will 
begin looking into issues related to the solvency of state UI trust 
funds and how states have been using the $8 billion in Reed Act 
distributions they received in March.

            Recommendations for Strengthening the UI Program

    Based on our audits and investigative casework, the OIG has made 
several recommendations to the Department and the Congress for 
strengthening and enhancing the integrity of the UI program. Among our 
recommendations is the need to:

        <bullet> LGrant the OIG and the Department unimpeded access to 
        UI, Social Security, and New Hire data for fraud detection and 
        program evaluation 
        purposes

          LThe OIG and the Department needs efficient access to data 
        that is maintained by other agencies such as state UI and 
        Social Security wage records; and wage data contained in 
        databases such as the National Directory of New Hires. Such 
        data would be used for two primary purposes: 1) to aid in our 
        fraud detection and investigative efforts; and 2) to better 
        help us and the Department assess program performance and 
        return-on-investment. If we had routine and expeditious access 
        to the centralized Social Security wage database, we could more 
        efficiently and consistently verify eligibility of program 
        applicants and whether their Social Security numbers are valid. 
        This would aid in identifying potential overpayments and 
        preventing millions of dollars in future losses.

        <bullet> LEnhance fraud detection and investigative training 
        for state personnel

          LIn order to better detect fraud and abuse, state personnel 
        who are responsible for benefit payment control, tax, and 
        internal security need to be provided high-quality, consistent 
        training. Any training should focus on fraud prevention and 
        detection, information sharing regarding common fraud schemes, 
        and dissemination of best practices used by the states. This 
        transfer of knowledge will assist the states in their efforts 
        to improve their enforcement and oversight capabilities.

        <bullet> LImprove the UI benefit-wage crossmatch overpayment 
        system

          LAlthough ETA has distributed to the states our 1999 audit 
        report on the UI benefit-wage crossmatch overpayment system, 
        ETA should implement a corrective action plan to address our 
        findings and recommendations in order to detect the millions in 
        overpayments that are being missed.

                               Conclusion

    In conclusion Mr. Chairman, the UI program provides financial 
assistance to workers who lose their jobs through no fault of their 
own. It is vital, therefore, that the UI program function effectively 
and efficiently, and that UI benefits only go to those who are eligible 
to receive these benefits. My Office will continue to provide oversight 
and conduct investigations to this end. This concludes my full 
statement. I would be pleased to answer any questions you or any other 
Subcommittee Members may have.

                               <F-dash>

    Chairman HERGER. Thank you very much, Mr. Heddell. Now, Dr. 
Woodbury to testify.

     STATEMENT OF STEPHEN A. WOODBURY, PH.D., PROFESSOR OF 
 ECONOMICS, MICHIGAN STATE UNIVERSITY, EAST LANSING, MICHIGAN, 
  AND SENIOR ECONOMIST, W.E. UPJOHN INSTITUTE FOR EMPLOYMENT 
                            RESEARCH

    Dr. WOODBURY. Thank you, Mr. Chairman. The integrity of the 
unemployment insurance system has three aspects: Whether 
workers receive more benefits than they are entitled to under 
the law, whether workers receive less than they are entitled to 
under the law, and whether employers pay the taxes that they 
are obligated to pay under the law.
    The UI overpayments have been tracked by the DOL since 1987 
with the Benefit Accuracy Measurement system, or BAM program. 
In addition, the DOL is now implementing a Denied Claims 
Accuracy, or DCA program, to track the extent to which UI 
claims are incorrectly or wrongfully denied and, therefore, 
result in underpayment. To date, the only information on the 
extent of underpayments from incorrectly denied claims comes 
from a pilot study that the DOL conducted with the cooperation 
of five States in 1997-1998.
    Regarding employer compliance, the DOL appears to have no 
immediate plans to implement a revenue quality control program, 
although it has discussed this in the past. Such a program 
would track the degree of compliance with the unemployment 
insurance payroll tax. Information does exist on the extent of 
employer compliance from one study that was conducted in 
Illinois in 1987.
    My testimony focuses on findings from the Denied Claims 
Accuracy pilot study from 1997-1998 and about the extent of UI 
overpayments and underpayments that can be gleaned from that 
study. My hope is that by combining the DCA pilot data with the 
BAM data from the same States in the same time period, I can 
give you a slightly more complete picture of UI overpayments 
and underpayments than BAM alone can give.
    In my written testimony, I provide some background on how 
BAM and the DCA programs work. Briefly, under the BAM program, 
each State randomly samples a predetermined number of benefit 
payments each week and investigates each of those payments to 
determine whether the payment was proper. Investigations are 
performed by telephone and in person with the claimant, 
employers, and third parties in order to determine whether the 
payment complied with the laws and policies of the State.
    In addition to giving estimates of overpayments, BAM yields 
estimates of the extent of underpayments made on paid claims. 
That is, an investigator may find that a payment was less than 
it should have been, and this will be recorded and reported. 
The BAM program has no way of estimating underpayments that 
result from UI claims that should have been paid, but were 
denied wrongfully.
    The DCA program fills this main gap in the BAM program by 
drawing and investigating random samples of UI claims that were 
denied. Now, a UI claim can be denied for any of three broad 
reasons. It may fail the State's monetary eligibility criteria, 
that is, the worker may not have enough earnings in the base 
period. It may fail to meet the State's separation eligibility 
criteria, if a worker quits or is discharged, for example, 
rather than being laid off for lack of work. Or, the claim may 
fail to meet the non-separation eligibility criteria, meaning 
the worker may not have been able, available, and searching for 
work.
    So, in both the denied claims pilot project 1997-1998 and 
the Denied Claims Accuracy program that is now starting, States 
drew or are drawing three random samples for monetary, 
separation, and non-separation denials and investigating each 
of those in a manner similar to the BAM.
    Now, the findings of the Denied Claims Accuracy pilot 
project are displayed in table 1 of my written testimony. Just 
briefly, the five States that participated were Nebraska, New 
Jersey, South Carolina, West Virginia, and Wisconsin. These are 
the only States and the only time period for which data exists 
on the extent of underpayments caused by incorrect denials in 
addition to underpayments on paid claims and all types of 
overpayments.
    Column two of the table shows that overpayments as a 
percentage of UI benefits paid ranged between 2.2 and 12 
percent in those five pilot States that I mentioned, with a 
weighted average of 7-percent, roughly, in those States. That 7 
percent average is a little below the national average 
overpayment rate of 8.6 that BAM found. So the pilot States 
seem to be fairly representative. They are slightly more 
accurate.
    The BAM has found repeatedly that the main reason for these 
overpayments are three: Workers failing to report all or part 
of their earnings while they are claiming benefits; violations 
of the separation criteria, meaning simple error, generally, on 
the part of the agency; and workers failing to search for work 
as required by State law.
    Column three shows the underpayments on paid claims that 
come from BAM. They are relatively low, one-half of 1 percent 
to 1.2 percent, with an average of 1 percent.
    Column four is what is unique to the DCA pilot study. It 
shows that underpayments caused by wrongful denials range from 
1.5 to 9 percent of total UI benefits paid in the five pilot 
States, with a weighted average of 3.4 percent. The underlying 
causes of underpayments vary with the type of wrongful denial, 
but employer underreporting of wages is the main cause of the 
wrongful monetary denials. Simple agency error is the main 
cause of wrongful separation and non-separation denials.
    Now, how closely these five pilot States resemble the rest 
of the United States in their underpayments due to wrongful 
denials is unknown, but applying the average weight of 
underpayments caused by wrongful denials to the entire Nation 
suggests that the benefits lost from wrongful denials during 
fiscal year 1998 were in excess of $635 million.
    Column five shows the sum of underpayments on unpaid claims 
and underpayments from wrongful denials. A comparison shows 
that in one State, underpayments actually exceed overpayments. 
In two, overpayments exceed underpayments, but by less than 33 
percent. In the remaining two States, overpayments exceed 
underpayments more substantially. Over all in the five States, 
overpayments exceed underpayments by about 64 percent. That is, 
a dollar of underpayment is outmatched by about $1.64 of 
overpayment. This excess of overpayments relative to 
underpayments is substantially less than the picture that 
emerges if one examines the BAM data alone, and that would 
suggest that overpayments exceed underpayments by seven times 
or more.
    I can see I am out of time, so I will end my statement 
there. Thank you.
    Chairman HERGER. Thank you very much, and again, the rest 
of your comments can be submitted for the record.
    Dr. WOODBURY. Yes.
    Chairman HERGER. Thank you, Dr. Woodbury.
    Dr. WOODBURY. Thank you.
    [The prepared statement of Dr. Woodbury follows:]
  Statement of Stephen A. Woodbury\1\, Ph.D., Professor of Economics, 
     Michigan State University, East Lansing, Michigan, and Senior 
        Economist, W.E. Upjohn Institute for Employment Research

         Unemployment Insurance Overpayments and Underpayments

    The integrity of the Unemployment Insurance (UI) system has three 
aspects: whether workers, fraudulently or otherwise, receive more 
benefits than they are entitled to under the law, whether workers 
receive less than they are entitled to under the law, and whether 
employers pay the taxes that they are obligated to pay under the law 
(Skrable 1999).
---------------------------------------------------------------------------
    \1\ Opinions expressed are the author's.
---------------------------------------------------------------------------
    UI overpayments have been tracked by the Labor Department since 
1987 with the Benefit Accuracy Measurement (BAM) program. As a result, 
much is known about overpayment of UI benefits (see any of the UI 
PERFORMS Annual Reports published by the U.S. Department of Labor; for 
example, U.S. Department of Labor 1998, 1999).
    In addition, the Department is now implementing a Denied Claims 
Accuracy (DCA) program to track the extent to which UI claims are 
incorrectly (or wrongfully) denied and therefore result in 
underpayments. To date, the only information on the extent of 
underpayments from incorrectly denied claims comes from a pilot study 
that the Department conducted with the cooperation of five states in 
1997-98 (Woodbury and Vroman 1999, 2000).
    Regarding employer compliance, the Department appears to have no 
immediate plans to implement a Revenue Quality Control program that 
would track the degree of compliance with the UI payroll tax. However, 
information on the extent of employer compliance does exist from a 
study conducted in Illinois in 1987 (Blakemore, Burgess, Low, and St. 
Louis 1996; Burgess, Blakemore, and Low 1998; see below).
    This testimony focuses on findings about the extent of UI 
overpayments and underpayments from the five-state DCA pilot study of 
1997-98. Combining the DCA pilot data with BAM data from the same 
states and time period gives a more complete picture of UI overpayments 
and underpayments--and hence of the UI program's integrity--than BAM 
alone can give.
How the Bam and DCA Programs Work
    Under the BAM program, each state randomly samples a predetermined 
number of benefit payments each week (between 9 and 35, depending on 
the size of the state) and investigates each of those payments to 
determine whether the payment was proper. Investigations are performed 
by telephone and in-person with the claimant, employers, and third 
parties in order to to determine whether the payment complied with the 
laws and policies of the state. Because BAM randomly samples paid 
claims, the Department can estimate, on an annual basis, total 
overpayments in each state and nationally.
    In addition to giving estimates of overpayments, BAM yields 
estimates of the extent of underpayments made on paid claims. That is, 
an investigator may find that a payment was less than it should have 
been, and this will be recorded and reported. However, BAM has no way 
of estimating underpayments that result from UI claims that should have 
been paid but were denied. BAM only samples and investigates UI 
payments; no payment exists when a claim is denied.
    The DCA program fills the main gap in the BAM program by drawing 
and investigating random samples of UI claims that were denied. A UI 
claim can be denied for any of three broad reasons:

        <bullet> LThe claim may fail to meet the state's monetary 
        eligibility criteria; that is, the worker may not have earned 
        enough during roughly the year before claiming benefits. This 
        is a monetary denial.
        <bullet> LThe claim may fail to meet the state's separation 
        eligibility criteria; that is, the worker may have quit or been 
        discharged for cause rather than being laid off due to lack of 
        work. This is a separation denial.
        <bullet> LThe claim may fail to meet the state's nonseparation 
        eligibility criteria; that is, the worker may not have been 
        able, available, and searching for work during the week in 
        question. This is a nonseparation denial.

    Accordingly, in both the DCA Pilot Project of 1997-98 and the DCA 
program that is now starting, states drew (or draw) three separate 
random samples--one of monetary denials, a second of separation 
denials, and a third of nonseparation denials. Each of these is 
investigated in a manner similar to that used to investigate paid 
claims under BAM, and the correctness of the denial is determined.
Findings from Five-State Pilot Project
    Table 1 displays UI overpayments and underpayments for 1997-98 in 
the five states that participated in the DCA Pilot Project--Nebraska, 
New Jersey, South Carolina, West Virginia, and Wisconsin. These are the 
only states (and the only time period) for which data exist on the 
extent of underpayments caused by incorrect denials, in addition to 
underpayments on paid claims and all types of overpayments.
    Column 2 shows that overpayments as a percentage of total UI 
benefits paid ranged between 2.2 and 12 percent in the five pilot 
states, with a weighted average of 7.2 percent in those states. This is 
slightly below the national average overpayment rate of 8.6 percent. 
The BAM reports show that the main reasons for these overpayments are 
(1) workers failing to report all or part of their earnings while 
claiming benefits, (2) violations of the separation eligibility 
criteria, and (3) workers failing to search for work as required by 
state law and policy.
    Column 3 shows that underpayments on paid claims (again as a 
percentage of total UI benefits paid) ranged from 0.5 to 1.2 percent in 
the five pilot states, with a weighted average of 1.0 percent. This was 
very close to the national average underpayment rate of 0.9 percent.
    Column 4 shows that underpayments caused by wrongful denials ranged 
from 1.4 to 9.0 percent of total UI benefits paid in the five pilot 
states, with a weighted average of 3.4 percent. The DCA reports show 
that wrongful monetary denials account for 39 percent of these 
underpayments, wrongful separation denials account for 36 percent, and 
wrongful nonseparation denials account for 25 percent. Also, the 
underlying causes of underpayments vary with the type of wrongful 
denial: Employer underreporting of wages is the main cause of wrongful 
monetary denials; agency error is the main cause of wrongful separation 
and nonseparation denials.
    How closely the five pilot states resemble the rest of the United 
States in underpayments due to wrongful denials is unknown; however, 
applying the average rate of underpayments caused by wrongful denials 
to the entire nation suggests that benefits lost from wrongful denials 
during fiscal year 1998 were in excess of $635 million.
    Column 5 shows the sum of underpayments on paid claims and 
underpayments from wrongful denials. A comparison of columns 5 and 2 
shows that in one state (Nebraska) underpayments exceed overpayments. 
In two (West Virginia and Wisconsin) overpayments exceed underpayments 
by less than 33 percent. In the remaining two states (New Jersey and 
South Carolina) overpayments exceed underpayments more substantially. 
In the five pilot states overall, overpayments exceed underpayments by 
about 64 percent; $1.00 of underpayment is outmatched by $1.64 of 
overpayment. This excess of overpayments relative to underpayments is 
substantially less than the picture that emerges if one examines only 
the BAM data, which would suggest that overpayments exceed 
underpayments by 7 times or more. A view of the UI system's integrity 
that focuses only on paid claims (as BAM does) and that neglects the 
accuracy of denials is quite incomplete.
Implications
    Because the BAM program samples and investigates only paid claims, 
BAM offers an incomplete picture of the extent of the UI program's 
integrity. In particular, the extent of underpayments cannot be 
appraised in the BAM program because BAM overlooks the correctness of 
denied UI claims. A denied claim never generates a payment, so it 
cannot be sampled under BAM. In effect, incorrectly denied claims slip 
under BAM's radar. The Labor Department is well aware of this point and 
is implementing the DCA program to fill the gap.
    What can be done to improve the UI program's integrity? The UI 
system faces an obvious dilemma. Decisions must be made on whether to 
pay benefits to millions of UI claimants in a timely manner. Too much 
concern about overpayments is likely to result in states denying 
benefits to eligible claimants. Too much concern about underpayments is 
likely to result in states paying claimants who are in fact ineligible.
    This dilemma notwithstanding, three policies would clearly improve 
the soundness and accuracy of the UI program. First, one of the three 
main reasons for overpayments is a worker's failure to search 
adequately for work (U.S. Department of Labor 1999). It follows that 
improved monitoring and enforcement of the work search test would 
improve the program's integrity. An obvious and direct approach would 
be to increase the resources available to the states to conduct 
eligibility review interviews. An alternative would be to expand the 
Worker Profiling and Reemployment Services System (WPRS), which has 
existed since 1994. There are good reasons for enforcing the work 
search test apart from UI program integrity: Available evidence 
suggests that workers who search more and (as a result) return to work 
sooner improve both their earnings and their likelihood of staying 
employed in the long run (Woodbury 2001).
    Second, the DCA Pilot Project found that the most common reason for 
wrongful monetary denials is employer error--meaning essentially that 
an employer underreported or failed to report a worker's wages 
(Woodbury and Vroman 1999, 2000). Such underreporting has been 
documented in an extensive study involving random audits of Illinois 
employers (Blakemore, Burgess, Low, and St. Louis 1996). That study 
found that employers underreported the number of workers by over 13 
percent and underreported UI taxable wages by over 4 percent. This 
represents a significant leakage of revenues from the system. Moreover, 
such underreporting has the effect of increasing the likelihood that 
workers will be wrongfully denied benefits because employer wage 
reports are the basis of determining a worker's monetary eligibility 
for UI benefits. A feasible and well-researched approach to mitigating 
this problem is to implement audits of firms that are most likely to be 
out of compliance with the law, as determined by a statistical model 
(Burgess, Blakemore, and Low 1998). Such a program would require 
resources, but the evidence suggests that those resources would be 
recovered several times over as a result of improved enforcement of the 
UI tax law.
    Third, the DCA Pilot Project also found that the most common reason 
for wrongful separation and nonseparation denials is agency error--
meaning an incorrect decision or action taken by UI personnel (Woodbury 
and Vroman 1999, 2000). In conducting the DCA Pilot Project, the 
project's monitors heard repeatedly that it was difficult to attract 
and retain qualified front-line UI personnel because the work is 
difficult and the financial rewards meager compared with other 
available pursuits. But the accuracy of decisions about UI eligibility 
hinges on the skills, training, and experience of these front-line 
personnel. If integrity of the UI system is to improve, then more must 
be done to attract and retain qualified and experienced personnel. A 
commitment of additional resources for administering the UI system 
could meet this goal.

                               References

    Blakemore, Arthur E., Paul L. Burgess, Stuart A. Low, and Robert 
St. Louis. ``Employer Tax Evasion in the Unemployment Insurance 
System.'' Journal of Labor Economics 14 (April 1996): 210-230.
    Burgess, Paul L. ``Compliance with Unemployment-Insurance Job-
Search Regulations.'' Journal of Law and Economics 35 (October 1992): 
371-396.
    Burgess, Paul L., Arthur E. Blakemore, and Stuart A. Low. ``Using 
Statistical Profiles to Improve Unemployment Insurance Tax 
Compliance.'' In Reform of the Unemployment Insurance System, edited by 
Laurie J. Bassi and Stephen A. Woodbury. Stamford, CT: JAI Press, 1998. 
Pp. 243-271.
    Skrable, Burman. ``Fraud, Abuse, and Errors in the Unemployment 
Insurance System.'' In Unemployment Insurance in the United States: 
Analysis of Policy Issues, edited by Christopher J. O'Leary and Stephen 
A. Wandner. Kalamazoo, MI: W.E. Upjohn Institute for Employment 
Research, 1997. Pp. 423-456.
    U.S. Department of Labor. UI PERFORMS CY 1997 Annual Report. 
Washington, DC: Employment and Training Administration, Unemployment 
Insurance Service, August 1998.
    U.S. Department of Labor. UI PERFORMS CY 1998 Annual Report. 
Washington, DC: Employment and Training Administration, Unemployment 
Insurance Service, August 1999.
    Woodbury, Stephen A. ``Unemployment Duration, Recall, and 
Subsequent Earnings: Evidence from Randomized Trials.'' Manuscript, 
Michigan State University and W.E. Upjohn Institute, November 2001.
    Woodbury, Stephen A. and Wayne Vroman. Denied Claims Accuracy Pilot 
Project. Report Prepared for the Division of Performance Review, 
Unemployment Insurance Service, Employment and Training Administration, 
U.S. Department of Labor. Kalamazoo, MI: W.E. Upjohn Institute for 
Employment Research, May 1999.
    Woodbury, Stephen A. and Wayne Vroman. Denied Claims Accuracy Pilot 
Project: Follow-Up Report. Report Prepared for the Division of 
Performance Review, Office of Workforce Security, Employment and 
Training Administration, U.S. Department of Labor. Kalamazoo, MI: W.E. 
Upjohn Institute for Employment Research, August 2000.

    Table 1.--Unemployment Insurance Overpayments and Underpayments in the Denied Claims Accuracy (DCA) Pilot
                                             Project States, 1997-98
 
                                      (1)            (2)                (3)                (4)            (5)
 
                                   Total UI                                           Underpayments
              State                Benefits   Overpayments  (as    Underpayments    (as % of UI paid)
                                     paid       % of UI paid)    (as % of UI paid)     from wrongful     Total
                                   ($1,000s)                       on paid claims        denials
 
Nebraska........................      42,472               7.1                0.6                9.0        9.6
New Jersey......................   1,053,409               6.8                1.2                2.5        3.7
South Carolina..................     164,376              12.0                0.4                4.0        4.4
West Virginia...................     126,475               2.2                0.5                1.4        1.9
Wisconsin.......................     465,148               7.9                0.8                5.2        6.0
Five-state total <SUP>a</SUP>..............   1,851,879               7.2                1.0                3.4        4.4
U.S. total......................  18,770,000               8.6                0.9                 na         na
 
 
Sources: Columns 1, 2, and 3 are drawn from U.S. Department of Labor (1998, 1999). Column 4 is drawn from
  Woodbury and Vroman (1999, 2000). Column 5 is the sum of columns 3 and 4.
Note: <SUP>a</SUP> The figures in columns 2, 3, 4, and 5 are averages of the five pilot states, weighted by total UI
  benefits paid in each state.


                               <F-dash>

    Chairman HERGER. Now, Mr. Paris to testify.

  STATEMENT OF MILES PARIS, DEPUTY DIRECTOR, PROGRAM SUPPORT, 
 ILLINOIS DEPARTMENT OF EMPLOYMENT SECURITY, CHICAGO, ILLINOIS

    Mr. PARIS. Thank you very much, Mr. Chairman and Members of 
the Subcommittee, for the opportunity to appear before you 
today. I apologize if some of my comments are repetitive from 
previous testimony.
    I am here to discuss the Illinois Department of Employment 
Security's experience in using our State's new hire directory 
to detect cases in which individuals continued to claim 
unemployment benefits after returning to work. The directory 
has enabled us to reduce the amount of overpayments in many 
such cases, and we also believe helped in the recovery of those 
overpayments.
    As you know, the 1996 welfare reform law required each 
State to have a new hire directory to strengthen its child 
support enforcement. When Illinois enacted legislation 
establishing its directory in 1997, it assigned the Department 
the responsibility for maintaining this directory. From the 
outset, the legislation authorized the Department to use the 
directory for unemployment insurance purposes.
    Accordingly, in designing the directory, the Department 
incorporated an automatic cross-match with its Benefit 
Information System. The cross-match looks for individuals who 
have been reported as a new hire and continue to receive 
benefits after having been reported as a new hire.
    When the cross-match identifies an individual who meets 
these criteria, the adjudication process begins. The local 
office in which the individual filed the claim is expected to 
resolve this matter within 14 days to determine whether there 
was an overpayment. The 14 days was a self-imposed timeframe to 
try to limit the amount of overpayment that was being incurred.
    The Department's emphasis is on minimizing and recovering 
overpayments as opposed to penalizing the claimant. However, 
local offices will refer serious cases, for example, of repeat 
offenders, to the agency's Benefit Payment Control Unit for the 
possible institution of administrative fraud proceedings.
    Prior to the institution of the new hire cross-match, the 
Department relied primarily on cross-matches between its 
benefits system and its wage record system, which is derived 
from employers' quarterly wage reports. We still use this wage 
records cross-match, and we think they are certainly still 
useful. However, employer wage reports are first due in the 
month following the close of the quarter and can take up to 
another month to be posted on the agency's wage record system. 
Consequently, a claimant could have been receiving overpayments 
for up to 5 months before the agency would have had a chance to 
discover the situation.
    In contrast, the new hire reports are due within 20 days of 
the date of hire and posted to the system within days after 
receipt, at which point the cross-match occurs. By permitting 
early detection, new hire cross-match actually reduces the 
amount of overpayments. For example, for the fiscal year that 
just ended, the average overpayment detected by the wage record 
cross-match was $1,800. For the same period of time, the 
overpayments detected by the new hire cross match averaged 
$296.
    We also believe that earlier detection also fosters the 
recovery process by enabling the Department to begin the 
process sooner when it is easier to find the claimant, and 
frequently while he or she is still employed and earning wages. 
The Department has recovered nearly 60 percent of the 
overpayments identified through the new hire cross-match since 
State fiscal year 1999, the first full year in which the 
Illinois new hire directory was operational.
    While the new hire cross-match has been a substantial help 
in reducing and recovering overpayments, there are some holes. 
For example, multi-State employers may not necessarily choose 
to report their new hires to Illinois, which is their option, 
based on the law. Also, the Illinois directory will not reveal 
a claimant who finds work in one of Illinois' neighboring 
States.
    Granting State unemployment insurance agencies access to 
the National Directory of New Hires would enable us to build 
upon the success we have had with the State directory and 
greatly assist other States. The National Association of State 
Work force Agencies strongly supports access to the national 
directory, as well. While the Subcommittee's recent TANF 
reauthorization package is outside the Department's 
jurisdiction, we greatly appreciate the fact that the package 
would grant us access to the national directory and look 
forward to working together toward that end.
    Thank you for your time and attention. I would be happy to 
try to answer any questions.
    [The prepared statement of Mr. Paris follows:]
 Statement of Miles Paris, Deputy Director, Program Support, Illinois 
          Department of Employment Security, Chicago, Illinois
    Thank you, Mr. Chairman and members of the Subcommittee, for the 
opportunity to appear before you today. I am here to discuss the 
Illinois Department of Employment Security's experience in using our 
State's New Hire Directory to detect cases in which individuals 
continue to claim unemployment benefits after returning to work. The 
Directory has enabled us to reduce the amount of overpayments in many 
such cases and, we believe, has also helped in the recovery of those 
overpayments.
    As you know, the 1996 welfare reform law required each state to 
have a new hire directory to strengthen child support enforcement. 
Illinois enacted legislation establishing its Directory in 1997 and 
assigned the Department the responsibility for maintaining the 
Directory. From the outset, the legislation authorized the Department 
to use the Directory for unemployment insurance purposes. Accordingly, 
in designing the Directory, the Department incorporated an automatic 
cross match with its benefit information system--the data base of 
individuals with unemployment benefit claims. The cross match looks for 
each individual who has 1) been reported as a new hire, 2) continued to 
receive benefits after having been reported as a new hire and 3) failed 
to report any earnings when certifying as to his or her eligibility for 
the week in which the hire was reported.
    When the cross match identifies an individual who meets all three 
criteria, the Department's benefit system automatically notifies the 
individual that an issue has arisen with respect to his or her claim 
and issues a questionnaire to the individual and the employer, to 
establish the individual's precise return-to-work date. The claimant 
has the option of responding to the questionnaire in person, by mail or 
over the telephone.
    The local office in which the individual filed the claim is 
expected to adjudicate the matter within 14 days, to determine whether 
there has been an overpayment. The Department's emphasis is on 
minimizing and recovering overpayments, as opposed to penalizing the 
claimant. Nevertheless, the local offices will refer egregious cases--
e.g., repeat offenders--to the agency's Benefit Payment Control Unit, 
for the possible institution of administrative fraud proceedings. Where 
the Department adjudicates an overpayment as a fraud, the law 
effectively disqualifies the claimant from receiving benefits for up to 
26 weeks, in addition to requiring repayment of the wrongfully claimed 
amounts. The Department will also refer serious cases of fraud to the 
Attorney General's Office, for criminal prosecution.
    Prior to the institution of the New Hire cross match, the 
Department relied primarily on cross matches between its benefit system 
and its wage record system, which is derived from employers' quarterly 
wage reports. Wage record cross matches are certainly still useful. 
However, employer wage reports are first due in the month following the 
close of the quarter and can take up to another month to be posted on 
the agency's wage record system. Consequently, a claimant could have 
been receiving overpayments for up to five months before the agency 
would even have a chance of discovering the situation. In contrast, the 
New Hire reports are due within 20 days of the date of hire and posted 
to the system within days after receipt, at which point the cross match 
occurs.
    By permitting early detection, the New Hire cross match actually 
prevents overpayments from occurring. Data for the last completed state 
fiscal year illustrate the point. The average overpayment detected 
through the wage record cross match was $1,800. The average overpayment 
detected through the New Hire cross match, which identified over two-
thirds again as many overpayments as the wage record cross match, was 
$296.
    We believe that earlier detection also fosters the recovery process 
by enabling the Department to begin the process sooner, when it is 
easier to find the claimant, frequently while he or she is still 
employed and earning wages. The Department has recovered nearly 60 
percent of the overpayments identified through the New Hire cross match 
since state fiscal year 1999--the first full year in which Illinois' 
New Hire Directory was operational.
    While the New Hire cross match has been a substantial help in 
reducing and recovering overpayments, there are some holes. For 
example, multi-state employers may not necessarily choose to report 
their new hires to Illinois. Also, the Illinois directory will not 
reveal a claimant who finds work in one of Illinois' neighboring 
states, since those new hires would be reported to the other state. In 
addition, newly hired Federal workers are not reported to any state.
    Granting state unemployment insurance agencies access to the 
National Directory of New Hires would enable us to build upon the 
success we have had with the State Directory and greatly assist other 
states. The National Association of State Workforce Agencies strongly 
supports access to the National Directory, as well. As a whole, the 
Subcommittee's recent TANF reauthorization package is outside the 
Department's purview. However, we greatly appreciate the fact that the 
package would grant us access to the National Directory and look 
forward to working together toward that end.
    Thank you for your time and attention. I would be happy to try to 
answer any questions.

                               <F-dash>

    Chairman HERGER. Thank you very much for your testimony, 
Mr. Paris. Mr. Lorsbach, to testify.

STATEMENT OF MICHAEL LORSBACH, PRINCIPAL, ON POINT TECHNOLOGY, 
                   INC., LA GRANGE, ILLINOIS

    Mr. LORSBACH. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify before you today on fraud and abuse in 
the unemployment insurance program.
    My background is out of 25 years of service in the 
unemployment insurance community. I began my career during the 
recession 1974 as a UI claims adjudicator. I became a UI fraud 
investigator, an investigative supervisor, and then moved to 
the information technology department, where I retained 
responsibility for auditing and fraud detection systems.
    After 9 years with the Illinois Department of Employment 
Security, I moved to the private sector and have continued to 
work with UI agencies. Part of my current responsibility is to 
market a software package called the Benefit Audit Reporting 
and Tracking System, or BARTS. The BARTS is a package that has 
multiple auditing subsystems to detect fraud and improper 
payments and also has a case management system to automate the 
paperwork. The BARTS is installed in seven States.
    It is in dealing with these States, including the 
customized installation of the software, that gives me the 
unique perspective that I bring to you today. Before I go on, 
let me say that in my experience, this problem is solvable. We 
will never get to 100 percent, but when a State takes ownership 
of the problem and implements tools and processes to address 
it, the results can be quite dramatic.
    There are two primary issues that need to be addressed in 
order to deal with fraud and abuse in the UI program. First is 
that the States must take ownership of the problem. Over 20 
years ago, the Employment and Training Administration began a 
program now called the Benefit Accuracy Measurement, or BAM, in 
order to uncover the sources and levels of fraud in the 
unemployment insurance system. At that time, many, maybe most, 
States had adamantly said that there was no fraud in the 
program. Over the years, States have accepted that there is 
fraud and abuse, but they continue to argue with or ignore the 
BAM figures.
    I believe that it is time to declare that the BAM figures 
are reliable enough to serve as a foundation for new 
achievement goals for the State program. Let me take a short 
aside and explain.
    The ETA sets goals for the States to meet. These goals then 
become the marching orders for the States. Largely, it is very 
important for an administrator to achieve these goals. The 
goals are the radar screen. One of the BAM figures is the 
number of people who are being improperly paid while working 
and collecting UI at the same time. If that figure were to 
translate into, say, $20 million over the course of a year, 
then the State should be held accountable for uncovering, say, 
60 percent of that money, or $12 million. Establishing this 
clear and definable goal gets us on the radar screen.
    Currently, the only goal that pertains to fraud and abuse 
is one that says that States should recover 55 percent of the 
overpayments that they identify. The unintended consequence of 
this is that it is easier to collect 55 percent of a smaller 
amount than that of a larger amount. In other words, if you 
discover less fraud, it is easier to make your collections 
goal.
    I am sorry to say that I find this attitude rampant 
throughout the States. This goal is likely the largest single 
disincentive to detecting fraud and abuse. It should be 
eliminated immediately.
    A UI administrator is one who must continuously react to 
and balance forces from multiple external sources while trying 
to manage a large and complex organization. If we want 
something to be done, we must get on their radar screen.
    The second key to reducing fraud and abuse in UI is new 
information technology. Most States still use a software 
product that was developed and distributed by the ETA in 1975. 
It was wonderful in its day, but it is grossly inefficient in 
today's standard. In replacing these systems, we, meaning my 
firm, have shown that the output of fraud cases processed can 
be increased by 600 percent or more with no increase in staff. 
The return on investment in dollars saved is usually in 3 to 6 
months. By the second year, the annual dollar return on 
investment can easily exceed 500 percent.
    I firmly believe that for a very moderate cost, these 
efforts could be implemented and could go a long way to solving 
the fraud and abuse problem in the unemployment insurance 
program. Thank you again for the opportunity to present my 
views.
    [The prepared statement of Mr. Lorsbach follows:]
Statement of Michael Lorsbach, Principal, On Point Technology, Inc., La 
                            Grange, Illinois
LThe problem has been studied for over 20 years. No nationwide 
        solutions have been offered
    Fraud and abuse has been formally studied by the Department of 
Labor for over 20 years under a continuous program first called Random 
Audit, later Benefit Quality Control and now called Benefit Accuracy 
Measurement (BAM). The result of this ongoing study is consistent data 
that clearly defines the nature and level of improper payments, fraud 
and abuse in the Unemployment Insurance program. The issue then is not 
in defining the problem but in implementing a solution.
    Since 1975, when the Employment and Training Administration (ETA) 
distributed a custom computer application to audit claimants, there has 
not been a serious systematic attempt to solve the problem. Over the 
past several years, the states have been granted supplemental budgets 
for Integrity processes but the money seems to have been absorbed with 
little or no impact on fraud and abuse.
    BAM and its predecessors were established to obtain accurate 
figures on improper unemployment insurance payments. The Employment and 
Training Administration recognized that States had been unwilling to 
acknowledge the problem and as a result established the BAM program 
with a direct pipeline the ETA for both funding and data gathering.
    We still live in the shadow of that denial. It is an uphill battle 
getting states to own the problem. The good news is that solid proven 
solutions do exist.
Most fraud and abuse is not debatable
1. The Problem must be Clearly Defined.

    Part of the problem of why fraud and abuse has not been addressed 
is that the definition of the problem is almost endlessly debatable. 
What is an improper payment? Many issues depend on state law and vary 
subtly from state to state.
    But, the largest cause of overpayments is not debatable in 
definition. Benefit Year Earnings, or working while collecting UI, 
accounted for $573 million in improper payment in CY2000. No one can 
deny that this abuse is a clear target.
    End the debate. Other issues, Separation Reason, Work Search, etc., 
need to be and can be addressed but they cannot be used to cloud the 
issue of Benefit Year Earnings.
It must be made a priority
2. A Matter of Priority.

    It is frequently said that SESA Administrators have an average 
tenure of 13 months. Upon entry to the job, most are not familiar with 
the UI program. Yet they set the pace and the priorities. I have spoken 
with Administrators who have no concept of improper payments, fraud 
control or program auditing. It is simply not on their radar screen.
    Legislative and ETA initiatives are needed to bring integrity into 
the light. It should be declared that before a state can expect support 
for special program funds they must consider and demonstrate strong 
program integrity.
Tie goals to specific measurement
3. Goals and Accurate Measurement.

    The primary measurement of how well SESA's perform, are called 
Desired Levels of Achievement (DLA). There is only one DLA that has to 
do with improper payments. This DLA says that states should collect 55% 
of the overpayments they identify. There are two fundamental problems 
with this measurement. The first is that it is not directed at 
identifying improper payments only at collecting them after they have 
been established. The second, an unintended consequence, is that it 
becomes a disincentive to identify improper payments. With a given 
staff allocation, it is much easier to meet one's collection rate if 
fewer overpayments are established.
    This DLA should be eliminated. It should be replaced with goals 
established from BAM data. For example if BAM determines that a state 
has a 3% error rate due to Benefit Year Earnings then the state should 
identify say 70% of that 3%. If the state pays $500 million a year in 
benefits, to meet the goal the state would have to establish $10.5 
million in overpayments.
    Even if this DLA is not replaced it should be eliminated 
immediately. In my experience, it is a strong disincentive to fraud 
control.
The auditors must be independent
4. The Auditors Report to the Audited.

    It is a primary tenant of auditing that an auditing group be 
independent and autonomous of the organization being audited. In almost 
every SESA this autonomy does not exist. In most states, Benefit 
Payment Control (BPC) is the auditing group responsible for the 
investigation of improper payments and fraud. BPC commonly reports to 
the Director who is responsible for the UI program. If the fraud 
figures become embarrassing, it is too easy for BPC to be toned down.
    The auditor should be separate from the UI program. Auditors should 
be measured on the thoroughness of their audits. The State of 
Washington, Office of Special Investigations, which has shown exemplary 
progress in fraud control over the past decade, initiated and developed 
its processes while the auditing unit reported to the Director of Legal 
Services, a Division separate and equal to Unemployment Insurance.
The current systems for processing fraud are antiquated and ineffective
5. Systems are Antiquated.

    In 1974 the Unemployment Insurance System Design Center, which was 
funded by the ETA, began distribution of a custom computer application 
for the detection of fraud and abuse in UI benefit payments. The system 
was a great leap forward in making the detection process more 
efficient. Most states adopted the software. The problem today is that 
most states still use it. It has been modified and updated by states 
but is still horribly ineffective by today's standards. Most employer 
complaints of being bothered by paperwork come from forms generated by 
this system.
Proven, effective system solutions exist
    Highly automated computer systems exist and are very effective. 
These systems have a return on investment of three months. After a year 
or so when the new systems have been fully adapted it can be verified 
that they can produce an annual return of 600% or more. They have been 
proven to significantly reduce fraud and abuse by getting the word out 
that it will no longer be tolerated.
Integrity must wrap around the UI program
6. Integrate Integrity.

    There was a time when land could be developed with Government funds 
and if the local community did not complain, no one cared about the 
impact on the environment. Now land cannot be developed without an 
environmental impact statement. I am sure that from this year forward, 
no bills will be debated in Congress without a discussion of its impact 
on homeland security.
    Integrity must become the UI Program's point of light. No systems 
or applications should be defined and no funding should be approved 
without a study or statement on the impact to program integrity.
To solve the problem make the states accountable and install new 
        software
    In summary, the most critical pieces to solving fraud and abuse in 
the UI program are creating new performance measurements and installing 
improved technology. The performance measurement gets the problem on 
the screen. It forces everyone to pay attention.
    New technology allows the rapid examination and processing of fraud 
and abuse with very little manpower. Case management systems that are 
fed by multiple types of audit including New Hire, can be tuned to also 
examine the other more debatable issues.
    Installation of compatible software in every SESA would cost about 
$30 million and should save the Nation's employers about $700 million 
in UI taxes per year.
    Michael Lorsbach is a Principal and owner of On Point Technology, 
Inc. Mr. Lorsbach began his career with the Illinois Department of 
Employment Security in 1974. Mike served as a Claims Adjudicator, BPC 
Investigator, and Information Technology Manager.
    On Point is an information technology firm that is exclusively 
dedicated to the support of State Employment Security Agencies. On 
Point builds UI benefit payment, tax, and other UI support systems. On 
Point personnel have consulted with over 20 states. On Point is 
currently under contract with 4 SESA's.
    On Point is the exclusive distributor of the Benefit Audit 
Reporting and Tracking System (BARTS). BARTS is a software package that 
performs multiple audits of Unemployment Insurance programs, detects 
likely fraud and abuse then automatically manages the resulting cases. 
BARTS is installed in Alaska, Arizona, Illinois, Kentucky, New Jersey, 
Oregon and Washington.
[GRAPHIC] [TIFF OMITTED] 82682C.003

[GRAPHIC] [TIFF OMITTED] 82682D.004

[GRAPHIC] [TIFF OMITTED] 82682E.005

                               <F-dash>

    Chairman HERGER. Thank you, Mr. Lorsbach. I want to thank 
each of you for your testimony. Now, we will turn to questions. 
The gentleman from Kentucky, Mr. Lewis.
    Mr. LEWIS OF KENTUCKY. Thank you, Mr. Chairman.
    Dr. Woodbury, in your testimony, you cite one way to limit 
misspending is to better enforce the current requirement that 
unemployment benefit recipients search for work. You suggest 
that this would help more workers return to work sooner and 
improve their earnings and likelihood of staying employed in 
the long run, which all are positive effects. Could you tell us 
more about how we could better ensure unemployment benefit 
recipients are searching for work?
    Dr. WOODBURY. Concretely, the recommendation is to give the 
States resources to perform more eligibility review interviews, 
that is, call workers in to ensure that they are working. The 
evidence, there is substantial research to show that workers 
who are called in for eligibility review interviews get moving 
and get jobs faster, and the long run benefits are clear, 
higher earnings and less unemployment over the long term.
    Mr. LEWIS OF KENTUCKY. Do you have any idea how much in 
terms of additional administrative cost, expenses----
    Dr. WOODBURY. I cannot speak to that, no.
    Mr. LEWIS OF KENTUCKY. Thanks.
    Chairman HERGER. The gentleman from Maryland, Mr. Cardin.
    Mr. CARDIN. Thank you, Mr. Chairman.
    I want to thank all of you for your testimony, all Members 
of our panel. I think it has been very helpful.
    Dr. Nilsen, I am somewhat troubled by part of your 
statement where you seem to say the States need to balance the 
payment timeliness with payment accuracy. One could interpret 
from that that you might be suggesting that they should 
withhold payments until they have adequate information to make 
sure errors are not made. I know that is not what you are 
intending----
    Dr. NILSEN. No, that is correct, Congressman----
    Mr. CARDIN. So, I thought I would give you a chance to 
clarify that.
    Dr. NILSEN. Certainly, Congressman Cardin. It is just that 
in the past, the history of the program is that it is focused 
on moving checks out the door, which is great and it is what 
this system was set up to do. As we and others have testified, 
you need to make sure you are paying the right benefits to the 
right people to maintain the integrity of the program. This 
helps keep taxes down, makes sure that payments are being made 
to those people who are truly deserving of the UI benefits. So, 
it is not a matter of sacrificing one for the other, but it is 
focusing on the two sides and balancing so that you are sure 
you are getting the right benefits to the right people.
    Mr. CARDIN. Thank you. I appreciate that clarification.
    I am curious as to whether any of the Members of the panel 
want to comment on Dr. Woodbury's point, and that it seems like 
when we talk about the integrity of the system, we talk about 
overpayments, but we do not normally talk about the fact that 
employers are not paying everything they should in revenues or 
that individuals are not getting the benefits they are entitled 
to. To get a more balanced picture, all three should really be 
reviewed, and the way the U.S. Department of Labor has set up 
their models, it is more difficult to judge the other two areas 
of inaccuracy than it is on overpayments. Any comments, 
concerns, other than Dr. Woodbury, who expressed that in his 
statement? Dr. Nilsen?
    Dr. NILSEN. No, we have not looked at that side of the 
program at this point.
    Mr. CARDIN. Why not?
    Dr. NILSEN. So far, we have not been asked to look at that 
aspect of the program.
    Mr. CARDIN. Well, that will be corrected.
    [Laughter.]
    Mr. CARDIN. Does the Inspector General have any comments on 
that?
    Mr. HEDDELL. I can say, Mr. Cardin, that from my office's 
perspective, of course, we would like to know that every worker 
is receiving the benefits that they are entitled to. In terms 
of unemployment benefits, we are, of course, very concerned 
about overpayments and that is predominantly where our focus 
has been.
    Mr. CARDIN. Why would you not also be concerned about 
underpayments of revenues?
    Mr. HEDDELL. Well, we----
    Mr. CARDIN. That is hurting our system.
    Mr. HEDDELL. As I was actually about to say, Mr. Cardin, we 
are concerned that every worker should get what they are 
entitled to----
    Mr. CARDIN. Right.
    Mr. HEDDELL. If there are, in fact, such workers, and I am 
sure that this does exist, that are underpaid; I agree that 
they should get what they are entitled to. However, my office 
has not looked at this specifically where I could give you a 
definitive answer.
    Mr. CARDIN. We will try to encourage that. I mean, Dr. 
Woodbury's numbers are rather alarming. The underpayment is as 
high as or higher than the actual dollar amount on the 
fraudulent overpayments. So certainly, we need to get more 
information in order to make good policy judgments here, so we 
would appreciate that.
    Mr. Lorsbach, you make a very compelling point about the 55 
percent. What would you substitute it with?
    Mr. LORSBACH. I would substitute BAM figures. I would say 
that if we accept the BAM figures as they are, BAM says that a 
certain amount of people have been overpaid in a particular 
State. Take that figure and say that we are going to identify a 
given percent of those people and then collect the money as 
seriously as you can. There is no doubt about it, you want to 
get the money back, but you cannot restrict your identification 
based on your collection.
    Mr. CARDIN. Thank----
    Mr. LORSBACH. Is that not clear?
    Mr. CARDIN. I understand what you are saying, and I think 
that makes more sense than the--I mean, I think you do make a 
very compelling argument on the 55 percent identified by the 
States. It is obviously in everyone's interest to collect as 
much of the overpayment that it makes sense to collect.
    As I understand it from the first witness, there are some 
overpayments that there is no good policy reason to try to 
collect. I think everyone agrees on that. There is some amount 
of the overpayments that we do not really want to get 
recovered. It is not the individual's fault. It is the system's 
fault or the employer's fault and would create unusual hardship 
to go after. So, I think there are at least some payments that 
we do not want to try to collect.
    That which we determine should be collected--should be 
collected, and the percentages could work, as you point out, to 
the disadvantage of the aggressive States, so it is something 
we need to certainly look at. Thank you.
    Mr. HEDDELL. Mr. Cardin, in terms of underpayments by 
employers, we have raised concerns about employees who are not 
getting fair treatment under the system. One of the things that 
I point out in my full statement is the misclassification of 
workers and fraud as it relates to leasing companies and 
employers that are not paying their full share of taxes. These 
kinds of situations do have a detrimental impact on certain 
workers, particularly those workers that are in the lower 
economic and lower skilled areas. So it is something we are 
concerned about.
    Mr. CARDIN. Thank you.
    Chairman HERGER. Thank you very much, Mr. Cardin.
    I just want to, for the record, state that while we and the 
American taxpayers are obviously very concerned about fraud, 
abuse, and overpayment, certainly for those who are not getting 
their unemployment benefits as they should there is equal 
concern, and this Committee wants to correct both sides.
    Dr. Nilsen, I would appreciate your comment. Your points on 
pages 11 and 12 about relying on self-reports of information 
that might result in UC applicants not getting benefits are 
very important. What sorts of information do we trust that 
applicants will tell us, even though their disclosing that 
information could result in their not getting the benefits they 
are seeking? I might note--this almost seems reminiscent of the 
old SSI Program under which we trusted prisoners to report that 
they were in jail so they could stop their SSI disability 
checks. Now we have a system in place, by the way, under which 
prison reports list inmates for matching so we better ensure 
that inmates are not getting SSI benefits. Would you comment, 
please?
    Dr. NILSEN. Mr. Chairman, I think what our focus in the 
work that we have done indicates, that you need to verify the 
information up front as quickly as possible. There are people 
in self-reporting who do disclose information that, in fact, 
makes them ineligible for benefits. By and large, if people are 
trying to, in a sense, beat the system, they are not going to 
be the people who are going to be honest with you. So in taking 
claims, it is important we have systems in place that are 
available to verify the accuracy of employment, to check 
employment in other States, and equally important, to check the 
continuing claims after initial claims have been filed.
    Right now, as you state, we have information on prisoners. 
None of the States we went to used that information to check on 
their UI beneficiaries at this point. Part of it is because of 
the timing of the program, but also we have been told that some 
of it is related to the cost.
    As I said, if you do not have timely information in this 
program, people will already have gotten their benefits before 
you are able to identify that they are ineligible or that they 
have become employed and no longer eligible for benefits.
    Chairman HERGER. Thank you, Dr. Nilsen.
    Now, the gentleman from Washington, Mr. McDermott.
    Mr. McDERMOTT. Thank you, Mr. Chairman. I am sorry I am a 
little late getting here, but planes get here when they get 
here.
    Coming from a State that has the highest unemployment in 
the country, one of the issues that has been troublesome to me, 
and I have watched this both in the State legislature and then 
here in the Congress, is this whole question of contract 
workers. You may have discussed all of that, but Vizcaino v. 
Microsoft came from our State, so we are very familiar with 
this whole issue.
    It seems to me that one of the biggest problems in UI today 
is the classification of workers. In section 530 of the Revenue 
Act 1978, there is a paragraph that expressly prohibits the 
Internal Revenue Service (IRS) from issuing regulations that 
would help determine whether a worker is an employee or a 
contingent worker. Dr. Woodbury, could you explain to me how 
that got into the law, and why it is still there?
    Dr. WOODBURY. I cannot explain that, but I do think that 
contract workers, independent contractors, do pose a challenge 
for the system. There is a study by Planmatics that suggests 
that 80,000 or so independent contractors per year would be 
eligible for benefits if they were properly classified as 
employees, so there clearly is a leakage there.
    I think an even bigger challenge is perhaps that employers 
simply underreport wages of workers. They simply do not report 
to the States that they have an employee, or they underreport 
the wages that they actually pay to an employee who is on the 
books as an employee, not misclassified. I think that is an 
even bigger challenge for the program, and I think----
    Mr. McDERMOTT. So in terms of the numbers----
    Dr. WOODBURY. I am sorry?
    Mr. McDERMOTT. Yes, in terms of the numbers.
    Dr. WOODBURY. In terms of revenues for the system, in terms 
of----
    Mr. McDERMOTT. That is not a Federal responsibility to make 
sure that people are paying. That is a State responsibility.
    Dr. WOODBURY. Yes. I think there are things the DOL could 
do, I believe, to help that.
    Mr. McDERMOTT. You mean DOL could do things to encourage 
the States to do what is right?
    Dr. WOODBURY. I believe so.
    Mr. McDERMOTT. Under what mechanism?
    Dr. WOODBURY. Well, the Revenue Quality Control program is 
the program that the U.S. Department of Labor has had on the 
books, in the wings, for over a decade now and has not 
implemented it. Revenue Quality Control would presumably audit 
either at random or by profiling likely abusers, employers who 
are abusing the system, and auditing them intensively. 
Presumably, that would create an incentive, if employers knew 
this program was out there, to be more compliant.
    Mr. McDERMOTT. I guess I have watched----
    Dr. WOODBURY. It is not a legislative change. That would be 
a change that the DOL would implement on a State-by-State 
basis, auditing of employers to ensure that they are complying 
with the unemployment insurance payroll tax.
    Mr. McDERMOTT. Unemployment is paid for by the State. They 
pay the actual benefits. They collect the money and pay the 
benefits.
    Dr. WOODBURY. They collect the money.
    Mr. McDERMOTT. So, why does the Federal Government--why are 
we in here talking about this? What problem has come up that 
you think would make it necessary for us to wade into, because 
if there are overpayments, it seems to me it is in the States' 
interest to figure that out.
    Dr. WOODBURY. Well, the existing research suggests that 
Revenue Quality Control would more than pay for itself in 
revenue. In other words, if the State did start auditing 
employers and trying to make sure that they were complying with 
the unemployment insurance payroll tax, the amount of resources 
it would take to run that program would be far less than the 
revenues that would be generated. So, why the States do not do 
this is a matter of incentives. The State agencies do not have 
the incentive to do it.
    Mr. McDERMOTT. My brother ran the program in the State of 
Washington. They paid for themselves. It takes a governor who 
is willing to stand behind them.
    Dr. WOODBURY. Yes.
    Mr. McDERMOTT. Most of the governors are not enforcing it, 
and it strikes me that we may--I mean, this section 530 seems 
to me to be an egregious example of the Feds, on the one hand, 
telling the States to do something and then not giving them 
rules and regulations, and winding up with 60 percent of the 
people not covered by unemployment compensation. I cannot 
understand, Mr. Chairman, why that is still in the law. I mean, 
whatever we do, we ought to take that out of the law and force 
the IRS and the employers to sit down and define who is an 
employee.
    The Vizcaino v. Microsoft case, where you had one employee 
sitting next to another employee and they are doing exactly the 
same thing and one is a contract employee and one is getting 
benefits was, I mean, it was an open and shut case. Microsoft, 
of course, made all kinds of attempts to obfuscate that, but 
that kind of stuff and the changing work force, an unemployment 
system designed for the thirties, or the forties, or the 
fifties, or sixties work force simply is not responding to what 
is going on out there.
    Now, I do not know whether it should be done at the Federal 
level or whether it should be done at the State level, but in a 
State where now have--we have gone through this. Our 
unemployment tends to be cyclical and we had this with timber 
and fishing and airplane production and we are now in one of 
the downs. We are going to have some problems in this country 
if we do not--because that is happening all over the place. All 
the industries are into this now.
    Thank you, Mr. Chairman.
    Chairman HERGER. I thank the gentleman.
    I would like to comment. The question was whether or not 
the Federal Government has a responsibility in this? I think 
when we consider that the Federal Government every year 
collects Federal taxes and uses them to pay more than $2 
billion to States to administer benefits and to prevent fraud 
and abuse, that very clearly, the Federal Government does have 
a responsibility to make sure that these benefits are going to 
the right people.
    With that, I would like to thank each of our witnesses 
today for appearing before the Subcommittee. I regard this 
hearing as the first stage in our efforts to better ensure 
unemployment benefits are going to the intended recipients. 
Clearly, when literally billions of dollars are misspent every 
year, that is not the case. Especially given what we have 
learned, we cannot and will not stand by and let these problems 
go unaddressed.
    I look forward to working with everyone interested, 
including our witnesses, States, and employers, to make sure 
that we better protect the integrity of these important 
benefits. I trust our witnesses will continue to provide useful 
insight, starting with answering any additional questions for 
the record we may have.
    With that, this hearing stands adjourned.
    [Whereupon, at 5:39 p.m., the hearing was adjourned.]
    [Questions submitted by Chairman Herger to the panel, and 
their responses follow:]
                                     U.S. General Accounting Office
                                               Washington, DC 20548
                                                      June 24, 2002
Hon. Wally Herger
Chairman, Subcommittee on Human Resources
Committee on Ways and Means
House of Representatives

    Dear Mr. Chairman:
    This letter responds to your request that we address questions 
following the June 11, 2002 hearing on fraud and overpayments in the 
Unemployment Insurance (UI) program. We have restated each of your 
questions, followed by our answer below.

    1. Based on our review, which aspects of the states' unemployment 
program procedures or processes are most susceptible to fraud and 
overpayments? Why?

    As noted in our testimony, a substantial proportion of overpayments 
occur because of errors in reporting or recording claimants' wages or 
other income. Another significant source of overpayments are claimants 
who do not look for a new job as required by state law, or are not able 
and available to work (``eligibility'' violations). Of the total $2.4 
billion in overpayments estimated by Labor in 2001, about 24 percent 
were attributable to fraud. A primary reason for these overpayments is 
that many states place their primary emphasis on quickly processing and 
paying UI claims, and may not sufficiently balance the need to make 
timely payments with ensuring payment accuracy. Moreover, states may 
lack access to timely information that can affect claimants' 
eligibility for UI benefits, such as their identity, wages, and 
benefits from other Federal or state programs.

    2. What tools or procedures would allow states to improve the 
integrity of their UI programs by preventing and detecting 
overpayments, and recovering them once they have occurred?

    As noted in our testimony, the most efficient and effective method 
for states to prevent and detect overpayments is by consistently using 
automated systems that allow claims representatives to verify 
claimants' eligibility information at the point of application--before 
benefits are paid. In general, online access to databases containing 
information to verify claimants' identity, employment status, or other 
important information is the most useful tool for preventing and 
detecting overpayments. For example, the Social Security 
Administration's State Online Query System allows participating states 
to verify the identity of claimants applying for UI benefits in real 
time.\1\ In lieu of online access, many states conduct periodic 
computer matches with other state and Federal agencies to verify 
information that claimants provide. Although such methods tend to be 
less timely than online access, they are still of value in detecting 
and recovering overpayments. Overall, the states that are most 
effective at recovering overpayments are those that have a wide variety 
of tools at their disposal, including state tax refund offset, wage 
garnishment, and access to private collection agencies. Ultimately, as 
emphasized in our testimony, the key to improving UI program integrity 
at the state level is a commitment from state UI managers to 
consistently use automated tools and other available mechanisms for 
determining claimants' initial and continuing eligibility for benefits.
---------------------------------------------------------------------------
    \1\ Currently only two states (Utah and Wisconsin) use this system 
for their UI programs.

    3. What actions could the Department of Labor take to help states 
place a higher priority on UI program integrity issues? Does Labor have 
the authority to implement these actions? Are legislative changes 
---------------------------------------------------------------------------
needed to provide additional authority to stem further abuse?

    Labor needs to more clearly emphasize the need for states to 
balance payment timeliness with payment accuracy. For example, as 
outlined in our testimony, Labor could revise its performance measures 
in a way that places greater emphasis on payment accuracy. Labor could 
also make better use of its quality assurance data to help states 
identify areas for improvement and work with states to changes policies 
and procedures that allow overpayments to occur. However, to be most 
effective, we believe that Labor must be willing to link state 
performance in the area of program integrity with tangible incentives 
and disincentives, such as through the annual administrative funding 
process. We believe that Labor has the authority to implement many of 
the improvements we discuss in our testimony and our forthcoming 
report. However, other changes that we discuss--such as providing all 
states with access to the National Directory of New Hires--would 
require legislation to implement.\2\
---------------------------------------------------------------------------
    \2\ Section 406 of the Personal Responsibility, Work, and Family 
Promotion Act of 2002 (H.R. 4737) would provide states with access to 
the National Directory of New Hires for purposes of verifying 
claimants' eligibility for UI benefits.

    4. What changes, if any, are needed in Labor's management approach 
to the UI program that will allow it to implement the actions you have 
---------------------------------------------------------------------------
outlined?

    While we recognize the importance of paying unemployment 
beneficiaries in a timely manner, we believe that Labor's approach to 
managing the UI program has historically emphasized quickly processing 
and paying UI claims without a similar focus on controlling UI 
payments. Thus, our work suggests that program integrity issues should 
receive greater emphasis. Labor could facilitate this change in 
emphasis by linking the quality assurance process to the budget process 
and requiring states to meet specified performance levels as a 
condition of receiving administrative grants. In addition, under 
Federal regulations covering grants to states, Labor may withhold cash 
payments, disallow costs, or terminate part of a state's administrative 
grant due to non-compliance with grant agreements or statutes. Absent 
such a change, we believe that states may be reluctant to make similar 
modifications in their own management philosophy and operations, 
leaving the UI program vulnerable to continued high levels of 
overpayments. If you have any questions about this correspondence or 
wish to discuss the issue further, please contact me at (202) 512-7215, 
Daniel Bertoni at (202) 512-5988, or Jeremy Cox at (202) 512-5717.
            Sincerely yours,
                                                  Sigurd R. Nilsen,
                                 Director, Education, Workforce and
                                             Income Security Issues

                               <F-dash>

                                           U.S. Department of Labor
                                        Office of Inspector General
                                               Washington, DC 20210
Hon. Wally Herger
Chairman, Subcommittee on Human Resources
House Committee on Ways and Means
B-317 Rayburn House Office Building
Washington, DC 20515

    Dear Chairman Herger:
    Thank you for the opportunity to testify before your Subcommittee 
on my Office's effort to detect and investigate fraud, waste, and abuse 
within the Unemployment Insurance (UI) program. As requested, please 
find below our answers to your additional questions.

    1. As was discussed at the hearing, it is very discouraging to hear 
that over $2 billion of taxpayer money was fraudulently claimed or 
improperly spent last year on unemployment benefits and that over the 
past decade $18 billion was misspent. The high numbers--starting with a 
continuously high level of known overpayments in the past 10 years, and 
increases last year--suggest a need for action instead of business as 
usual.

    a. In recent years, what specific steps have you suggested the 
Department or the States take to better combat fraud and abuse? What 
specific initiatives do you now suggest the Department and States take 
to address fraud and abuse?

    From an investigative perspective, we have recommended to the 
Department that state personnel who are responsible for benefit payment 
control and internal security be provided enhanced fraud detection and 
investigative training. This training should focus on fraud prevention, 
information sharing among states regarding common fraud schemes, and 
the dissemination of best practices utilized by high-performing states. 
We have been actively involved in conducting training sessions for 
state personnel based on our experience in investigating complex, 
multi-state fraud schemes. During this training, we note several ``red 
flags'' or indicators that are indicative of such schemes. In addition, 
in 1999, we developed a white paper for ETA discussing how UI fraud 
schemes operate, which was disseminated to the states. We believe that 
information to be useful to the states in carrying out their 
enforcement and oversight activities.
    In addition, states should examine ways to enhance the integrity of 
the remote claims-filing process, which has made fraud detection more 
difficult. Some suggestions that states may want to utilize include: 1) 
conducting random in-person interviews of telephone or Internet 
claimants; and 2) improving the tracking of telephone numbers and 
mailing addresses used to file claims in order to look for patterns of 
voluminous calls from single numbers or mailings from the same 
addresses.
    Our audit work has identified several internal control weaknesses 
and vulnerabilities that impact the integrity of the UI program, 
especially those relative to overpayments. In a 1999 audit, we found 
that the crossmatch systems used by seven states, which compares weekly 
UI benefit payment records with quarterly wage records, had inherent 
weaknesses. Foremost was the failure of employers to respond to state 
requests for detailed wage information. As a consequence, we estimated 
$17 million in overpayments were not being detected in just four of the 
seven states we audited.
    To improve the crossmatch system, we recommended to the Department 
that policy and direction be provided to the states to ensure that: 1) 
employers are reminded of their responsibilities to respond to wage 
requests and follow up with those who routinely fail to respond; 2) 
states select for audit those claims with the highest potential for 
overpayments; and 3) states maintain a database of those employers who 
are sent wage requests, and when they are returned, follow up on non-
responses. In addition, we recommended that the Department assume a 
leadership role in assuring that states obtain timely access to the 
data of the National Directory of New Hires, and to fully incorporate 
that data into UI Benefit Payment Control operations. The Department 
has agreed to take corrective action.

    b. Similarly, in recent years what specific legislative initiatives 
have you proposed the Congress enact to better address fraud and abuse 
in this program? What legislative measures do you now suggest Congress 
consider to better prevent fraud and abuse?

    As I mentioned in my full statement, one legislative recommendation 
to strengthen the UI program is to grant the OIG and the Department 
unimpeded access to UI, Social Security, and New Hire data for fraud 
detection and program evaluation purposes. Such data would be used for 
two primary purposes: 1) to aid in our fraud detection and 
investigative efforts; and 2) to better help us and the Department 
assess program performance and return-on-investment. Routine and 
expeditious access to the centralized Social Security wage database 
would enable us to more efficiently and consistently verify the 
eligibility of program applicants and determine whether their Social 
Security Numbers (SSNs) are valid. This would aid in identifying 
potential overpayments and preventing millions of dollars in future 
losses.
    In addition, we believe that states should be granted access to the 
National Directory of New Hires database for fraud and overpayment 
detection purposes. As you know, states only have access to their own 
new-hire data, which limits a state's ability to detect those who 
commit fraud across state lines. If given access to this directory, 
states would be better able to detect these fraudulent schemes and 
other overpayments.
    Finally, as discussed below under question 5, we believe that 
legislative consideration should be given to a process that would allow 
states to perform an up front determination of claimants' work status 
and verification of SSNs before payments commence.

    2. Please describe any specific evidence that your office is aware 
of regarding States' screening to ensure that (1) prisoners, (2) 
fugitive felons, (3) probation and parole violators, and (4) 
individuals applying for benefits based on the record of a deceased 
individual do not access unemployment benefits. 

    The Department may more appropriately answer this question since we 
have not conducted any reviews in this area. Notably, eligibility for 
benefits for probation and parole violators depends on individual state 
law. We understand that some states do obtain death records from the 
SSA for validation of claims, but we do not have information as to 
which states are doing it.

    3. What State and Federal measures are in place to determine 
whether individuals claim unemployment benefits in more than one State 
at the same time? If that occurs, what are State policies to address 
such double dipping?

    My Office has not examined state policies regarding double dipping. 
Nevertheless, we are aware through our casework that reciprocal 
agreements do exist between and among some states (usually those that 
are contiguous). For example, a reciprocal agreement exists among 
Virginia, Maryland and the District of Columbia to exchange information 
and crosscheck claimants in those three jurisdictions.
    We understand that states have signed an ``interstate agreement'' 
that specifies that they will take, process, and pay interstate claims. 
When an individual files a UI claim in any state, questions are asked 
about earnings. Based on the response, claimants will be advised to 
file an intrastate or an interstate claim. States will then run an 
interstate crossmatch each quarter that compares their interstate 
claims against all interstate claims filed. You may wish to contact the 
Department directly for more details about this interstate agreement.

    4. How do States determine if a noncitizen ineligible to work in 
the U.S. is claiming unemployment benefits? What processes are in place 
to prevent, for example, a student or someone here on a tourist visa 
from working and then claiming unemployment benefits from that work? 
How many individuals who applied for unemployment benefits have been 
disqualified from receiving them for this reason in recent years?

    Based on our prior audit work and the Department's own public 
information, individuals who file claims are asked by the states 
whether they are citizens of the United States. If a claimant states 
that he or she is a citizen, states must accept the declaration of 
citizenship. Utilizing the Systematic Alien Verification for 
Entitlements (SAVE) system, data on claimants who state they are not 
citizens are entered electronically into a file maintained by the INS 
to determine their alien status. Claimants are denied benefits if it is 
found that they are non-citizens ineligible to work in the U.S.
    From what we have seen, states can do more to prevent UI benefit 
payments to ineligible claimants. In 1998, we conducted an audit of how 
effective Florida, Georgia, North Carolina, and Texas were in 
preventing UI payments to ineligible claimants, including illegal 
aliens. We found that the SAVE system has inherent limitations since it 
relies on self-reporting of citizenship by claimants. We found that 
screening SSNs was a more effective means of identifying illegal aliens 
who had filed for UI benefits, and that if coupled with INS screening, 
SSN verification would prevent many of the abuses that occur.
    While we do not know how many individuals who applied for UI 
benefits have been disqualified, our 1998 audit identified 2,927 UI 
claims totaling over $3.2 million that were paid out to people using 
SSNs that were either not issued or belonged to deceased individuals. 
We selected a sample of 452 claims, were able to verify the legal 
status of 241 claimants, and found that 129 of those claimants (54 
percent) were illegal aliens who improperly received $200,291 in 
benefits. Although we did not project nationwide the amount of UI 
benefits paid out to illegal aliens, we believed at the time that 
screening claimants' SSNs would prevent millions of dollars in misspent 
UI benefits. We recommended to the Department that it assist the states 
in developing and implementing methods of screening UI claimants for 
valid SSNs, and delaying or deferring benefit payments to those 
individuals without valid SSNs, among others. The Department agreed 
that significant improvements could be made in the areas we addressed 
in our report.

    5. Have you done any work involving the abuse of Social Security 
Numbers (SSNs) in order to claim unemployment benefits? What have you 
found? Do you have any recommendations for us to consider in addressing 
such concerns?

    As I mentioned in my full statement, identity theft for purposes of 
collecting benefits is one way fraud against the UI program is carried 
out. The number of investigations we have initiated in this area has 
increased markedly over the last 5 years, and indications are that this 
type of fraud will only increase. Unfortunately, fraud detection in 
these cases is complicated because any preliminary fraud screening that 
may be done would only disclose that the named employee actually 
exists.
    In addition, as discussed in the previous question, the OIG's March 
1998 audit report found 2,927 UI claims totaling over $3.2 million were 
paid to individuals who had filed for UI benefits under SSNs that had 
either not been issued or were issued to deceased individuals. We 
recommended the Employment and Training Administration (ETA) assist the 
states in developing and implementing means of screening UI claimants 
for valid SSNs, and delaying or deferring benefit payments to claimants 
without valid SSNs. We also recommended that ETA seek changes to 
immigration laws to allow states to delay payments to alien claimants 
where there are material discrepancies in alien information. ETA 
responded that significant improvements could be made in areas that our 
audit report addressed. However, ETA disagreed with our recommendation 
that UI benefits not be paid to individuals without valid SSNs, because 
ETA maintained the burden of policing the Social Security system does 
not reside with the states.
    We plan to revisit the issues raised in our 1998 audit. In the 
meantime, we continue to recommend that ETA work with the states to 
develop more streamlined, effective means to validate claimants' work 
status and SSNs, and achieve a legislative or administrative solution 
that would allow states to delay payments to claimants with 
questionable status.

    6. Earlier this year Congress passed and the President signed a law 
that provides for up to 13 additional weeks of unemployment benefits 
nationwide, and up to 13 weeks more in States with relatively high 
unemployment rates. That is a tremendously generous program, and we 
know that over a million Americans already have received these extended 
benefits. Do you have any reviews in place to make sure that those 
benefits are going to the right people?

    We are not currently conducting any reviews of claimant eligibility 
under the Temporary Extended Unemployment Compensation Act of 2002 
(TEUC). Eligibility for UI benefits, however, is examined as part of 
audits conducted in accordance with the Single Audit Act (SAA), as 
amended. (The SAA requires that, instead of separate audits by each 
agency providing funds, a single audit be performed of all Federal 
funds that have been provided to a grantee.) My Office will be working 
with the Department and OMB in the coming months to develop guidance 
for SAA auditors to use in testing eligibility under the new TEUC 
program. Also, because SAA audits are the first line of defense for UI 
and other grant programs, we have initiated several studies to 
determine the reliability and usefulness of single audits for the 
Department's needs. We have identified some weaknesses in how DOL 
programs, including UI, are being audited, and we are continuing to 
work with the Department, OMB and the audit community to improve the 
reliability of such audits. These efforts will be to the benefit of the 
all DOL grant programs, including TEUC.
    As discussed in my testimony, we are also in the process of 
examining the Benefit Accuracy Measurement (BAM) system funded by ETA 
and carried out by the states. BAM uses statistical sampling techniques 
to project total UI benefit overpayments made to claimants. This system 
will presumably cover TEUC payments.
    As I mentioned in the hearing, preserving the integrity of the UI 
program has been a longstanding concern of my Office. We will continue 
to work with the Department and the Congress to ensure that weaknesses 
and vulnerabilities are adequately addressed. If you have any 
questions, or need assistance on this or any other matter, please do 
not hesitate to contact me at (202) 693-5100.
            Sincerely,
                                             Hon. Gordon S. Heddell
                                                  Inspector General

                               <F-dash>

                         Illinois Department of Employment Security
                                                  Chicago, Illinois
                                                      June 21, 2002
Hon. Wally Herger,
Chairman Subcommittee on Human Resources
B-317 Rayburn House Office Building
Washington, DC 20515

    Dear Chairman Herger:
    Thank you for your letter of June 17, following up on my recent 
testimony on the Illinois Department of Employment Security's use of 
the State's New Hire Directory as an unemployment insurance integrity 
tool.

    1. Your testimony indicates that Illinois is using the State 
Directory of New Hires to better ensure benefits are going only to 
those who have not already returned to work. What is the return on the 
dollar for States and taxpayers from this match with the State 
directory? How much might be saved if Illinois were allowed access to 
the National Directory of New Hires as the House-passed welfare bill 
would allow?

    I offer the following figures in response to your question about 
the return on Illinois' investment in matching the Department's 
claimant data base against the State Directory. It cost approximately 
$64,000 to implement the cross-match function in 1997. We estimate the 
annual staff costs associated with the cross match--primarily, 
investigating and adjudicating the issues it raises--to be just over $1 
million, including overhead.
    To gauge the return on those costs, we focused on state fiscal year 
2001, which is the last full fiscal year for which we have records, the 
period we examined to arrive at the average overpayment figures in my 
testimony and representative of our general experience. We assumed 
that, without the New Hire cross match, the overpayments in each of the 
cases it detected would have continued to accumulate, up to the average 
overpayment detected through the less timely wage record cross match. 
Multiplying the difference between the average overpayment detected 
through the New Hire cross match and the average overpayment detected 
through the wage record cross match by the total number of overpayments 
detected through the New Hire cross match, we estimate the New Hire 
cross match prevented almost $30 million in overpayments for the year.
    Regarding the potential benefits of cross matches with the National 
New Hire Directory, we identified 12,044 overpayments, totaling $21 
million, through the wage record cross match for state fiscal year 
2001--overpayments the cross match with the State Directory did not 
catch. While we cannot offer any precise figures, with access to the 
National Directory, we would have had the potential to identify a 
number of those cases substantially earlier than we did.

    2. What other tools, including those that may be unavailable to you 
due to Federal laws or regulations, would you like to have to help you 
improve the integrity of your unemployment program even more?

    You also asked what other tools we would like to have to preserve 
benefit payment integrity. With greater emphasis on remote claims-
taking, we need to be looking at cross matches with other Government 
agencies. We are currently working with the Social Security 
Administration.
    (SSA) on a process for dealing with claimants who attempt to use 
Social Security numbers that do not belong to them and are, therefore, 
ineligible for unemployment benefits. We currently match our data base 
with some of SSA's records on a daily basis, and that agency is now 
exploring whether there are any barriers to cross matches with its file 
of deceased Social Security card holders. We will be happy to keep you 
informed of developments in this area if you desire.

    3. Is there a higher level of public awareness in Illinois that it 
really is not a good idea to try to get unemployment benefits when you 
are not entitled to them? In other words, has your work to reduce fraud 
paid off so that you are seeing fewer incidences that need 
investigating?

    Finally, as to whether our integrity efforts have resulted in fewer 
instances of people claiming benefits after returning to work, the 
statistics so far do not indicate they have. The amount of overpayments 
detected has actually increased since we instituted the New Hire cross 
match. We believe that is attributable to the fact the cross match is 
detecting substantial numbers of cases that otherwise would have 
remained undetected, instead of any change in claimant behavior. It is 
still our hope, however, that as word of the agency's enhanced 
detection capabilities spreads, we will see a decline in the amount of 
those overpayments.
    Thank you again for the opportunity to discuss our experiences and 
views with the Subcommittee. Please do not hesitate to contact me if 
the Department can be of further assistance.
            Sincerely,
                                                        Miles Paris
                                                    Deputy Director
                                             Program Support Bureau

                               <F-dash>

                                          On Point Technology, Inc.
                                                La Grange, IL 60525
                                                   October 18, 2002
Mr. Doug Sahmel
House Human Resources Subcommittee
B-317 Rayburn HOB
Washington, DC 20515

    Dear Mr. Sahmel:
    Thank you for following up with me on a response to Chairman 
Herger's letter of June 17, 2002. Please excuse my delay. In this 
letter I have restated Mr. Herger's questions followed by my response.
    1. Can you provide some reasons why States are not taking more 
aggressive steps to combat fraud and abuse in the unemployment program? 
Are there any key impediments that could be addresses by Congressional 
action?
    Response--Let me start by saying that you may have already provided 
the catalyst for change. I attended the UI Directors conference in 
Whitefish, Montana this week and in several presentations the planned 
new emphasis on fraud and abuse in the UI program was discussed.
    In my opinion the primary reasons why combating fraud and abuse in 
the UI program has not been a priority are several. A central reason is 
that there was no incentive for the UI Director to solve this problem. 
The ETA had no motivating standards for the States to meet. The only 
Desired Level of Achievement (DLA) was that a State should collect 55% 
of the overpayments it identified. It was readily agreed that the best 
way to meet this standard was to identify fewer overpayments. This DLA 
has been recently dropped and a new standard based on figures developed 
from the Benefit Accuracy Program (BAM) is being proposed. This should 
make a big difference in emphasis.
    Secondly, it costs administrative dollars to solve a problem that 
is repaid in trust fund dollars. In most states, until recently at 
least, trust funds were flush with money and administrative funds have 
been in short supply. Many administrators found that if no one was 
complaining, it was more convenient to spend the administrative dollars 
on problems that had a higher priority and/or more visibility. One 
administrator said in a meeting when his BPC Manager proudly proclaimed 
that they were saving over $30 million with their fraud control efforts 
that the savings was small potatoes compared to their billion dollar 
trust fund.
    Third, admitting that one has an overpayment problem is 
embarrassing to the Agency. If the Agency identifies and admits to the 
magnitude of the problem they will likely come under attack. It is 
easier to ignore the problem and hope that no one will bring up the 
issue--in fact agencies were rarely challenged.
    My suggestions to Congress would be to require that fraud figures 
be overtly published, not covertly as they are now. Second would be to 
tie funds directly to the prevention of fraud. For over 20 years BAM 
and its predecessors BQC and Random Audit have been spending 
approximately $20 million per year to identify the problem yet no money 
has been directly allocated to solve the problem. Third and very 
importantly is to tie the new fraud prevention criteria to Tier 1 
goals. Tier 1 goals are those DOL goals that states are required to 
meet in order to receive their funding. This would make fraud control a 
priority.

    2. Do good antifraud efforts tend to be cost-effective in terms of 
paying for themselves over time? What produces the biggest return on 
the dollar?

    Response--The answer to the first question is yes, absolutely. To 
really have an impact on fraud and abuse, two things need to happen. 
First is that more automated systems need to be put into place. Most 
fraud investigation activities, managed by the Benefit Payment Control 
(BPC) unit, are paper nightmares. Most of this paperwork can be made to 
disappear with the proper automation. We were able to help one state 
increase the number of overpayments processed by 600% with no increase 
in staff. It is my firm belief that most all states could make the same 
improvements.
    The return on investment is very high. If one assumes the cost of 
new fraud detection, processing and collection software to be $1 
million and the return to the trust fund to be $5 million annually the 
return on investment is extraordinary. These are my estimates but can 
be substantiated.
    The second event that needs to happen is a change in culture in 
BPC. Many, probably most, BPC operations have a gumshoe attitude. Many 
BPC investigators think of themselves as detectives and treat their 
cases accordingly, even very simple redundant cases. Needless to say 
the throughput with this attitude is not very large. Paper is power and 
a large case load is a sign of high status. On the positive side, my 
experience shows that even though most BPC staff are very reluctant to 
embrace initial automation efforts, after a year or so they are very 
happy with it. They find that they deal with the truly interesting and 
complex cases while the system performs all of the mundane work.
    The biggest return on the dollar is automated case management. This 
is where the paperwork is. This is where the process slows down. In 
excess of 85% of this process can be automated. You should be made 
aware that most states still use software that was developed a 
distributed by the DOL in 1974. Needless to say it is horribly out of 
date, and even with state enhancements automates only a small part of 
the process.

    3. In your testimony, you note that effective computer systems can 
reduce fraud and abuse by getting the word out so it can no longer be 
tolerated. Can you give us a specific example of where this has 
happened?

    Response--The State of Washington has conducted a test in the 
Winachi region of western Washington where they audited 100% of 
claimants that their software detected as having a likelihood of being 
overpaid, no matter how low that likelihood. They found that the year 
after that audit the fraud in this region was substantially lowered 
though it continued to increase over 4 years when it almost returned to 
the previous levels. This was a documented study. I do not have a copy 
of it at this time but will try to obtain a copy for you or you may 
contact Kathy Ramoska, Chief of Special Investigations at 360-486-3001.
    Thank you again for the opportunity to respond to Congressman 
Herger's letter. If you have any questions regarding my response or if 
I may be of any further service, please do not hesitate to contact me.
            Sincerely,
                                                   Michael Lorsbach
                                                          Principal

                               <F-dash>

    [A submission for the record follows:]
      Statement of Tim Rogers, Revenue Plus, Vancouver, Washington
Summary Statement
    We at Revenue Plus have been keenly aware of the amount of 
overpayments that each state has been trying to collect using their 
existing antiquated computer systems. Many states have asked us to 
demonstrate to them how the Revenue Plus software will them prioritize 
their collection efforts and to help them manage, track and report on 
their Overpayment of Benefits. We have conducted demonstrations for the 
Departments of Labor in WA, TN, LA, AL, AZ, GA, CA, and MD. Our 
software has helped other Government agencies increase their revenue up 
to 50% and the Overpayments Benefits group could take advantage of this 
technology.
Benefits of using Revenue Plus Collection Software for Overpayments

    1. Data matching--automatically links debtor accounts based on 
matching demographic criteria or other matches.
    2. Notes--provides complete account history of all account activity 
including charges, payments, correspondence, direct contacts & etc.
    3. Tickler file--provides at-a-glance information on current 
collection activities for an account and prompts the collector about 
the next action to be taken.
    4. Automated Reports--for managers and Federal Government 
requirements
    5. Integration with other databases and systems
    6. Tax Intercept--automated process for possible refund offset
    7. Work queues'--provides a prioritized daily work list of accounts 
for each collector to work the accounts with the highest priority first
States using Revenue Plus Collection Software for collection of 
        Overpayments and UI Taxes

    1. Maryland Central Collections
    2. Colorado Central Services
    3. Ohio Attorney General's Office
About Revenue Plus

    Revenue Plus, headquartered in Vancouver, WA is the Public Sector 
Division of Columbia Ultimate--makers of the #1 ranked collection 
software system for collection agencies in the United States. Since 
1982 Columbia Ultimate has been addressing the unique software 
requirements of Government entities by integrating our vast private 
sector experience and technology into innovative public sector 
solutions. There are 58 Government agencies and over 500 companies in 
the private sector using Columbia Ultimate Collection software.

                                <greek-d>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
